<html>
<title> - NATIONAL HERITAGE AREAS</title>
<body><pre>[Senate Hearing 108-551]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-551

                        NATIONAL HERITAGE AREAS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

TO CONDUCT OVERSIGHT ON NATIONAL HERITAGE AREAS, INCLUDING FINDINGS AND 
 RECOMMENDATIONS OF THE GENERAL ACCOUNTING OFFICE, THE DEFINITION OF A 
 NATIONAL HERITAGE AREA, THE DEFINITION OF NATIONAL SIGNIFICANCE AS IT 
 RELATES TO NATIONAL HERITAGE AREAS, RECOMMENDATIONS FOR ESTABLISHING 
     NATIONAL HERITAGE AREAS AS UNITS OF THE NATIONAL PARK SYSTEM, 
RECOMMENDATIONS FOR PRIORITIZING PROPOSED STUDIES AND DESIGNATIONS, AND 
  OPTIONS FOR DEVELOPING A NATIONAL HERITAGE AREA PROGRAM WITHIN THE 
                         NATIONAL PARK SERVICE

                               __________

                             MARCH 30, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
95-195                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     CRAIG THOMAS, Wyoming Chairman
                  DON NICKLES, Oklahoma Vice Chairman
BEN NIGHTHORSE CAMPBELL, Colorado    DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Carolina
CONRAD BURNS, Montana                BOB GRAHAM, Florida
GORDON SMITH, Oregon                 MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
                                     CHARLES E. SCHUMER, New York

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Benton-Short, Lisa, Ph.D., Assistant Professor of Geography, The 
  George Washington University...................................    30
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........     2
Carlino, August R., President and CEO, Rivers of Steel National 
  Heritage Area..................................................    23
Frenchman, Dennis, Professor of the Practice of Urban Design, 
  Massachusetts Institute of Technology..........................    37
Hill, Barry, Director, Natural Resource and Environment, General 
  Accounting Office..............................................     8
Jones, A. Durand, Deputy Director, National Park Service.........     2
LaGrasse, Carol W., President, Property Rights Foundation of 
  America........................................................    42
Sanderson, Edward F., President, National Conference of State 
  Historic Preservation Officers.................................    33
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    55

                              Appendix II

Additional material submitted for the record.....................    75

 
                        NATIONAL HERITAGE AREAS

                              ----------                              


                        TUESDAY, MARCH 30, 2004

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met at 2:30 p.m., in room SD-366, Dirksen 
Senate Office Building, Hon. Craig Thomas presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. We welcome you for being here, certainly. 
We will be talking today about oversight on National Heritage 
Areas. So I welcome the Deputy Director of the Park Service and 
other witnesses who are here.
    Now, at a hearing approximately a year ago, the 
subcommittee received testimony from the administration and 
various interest groups. Following that discussion Senator 
Domenici and Senator Bingaman and I requested that the General 
Accounting Office review National Heritage Areas. We call 
today's hearing to hear and discuss the results of that GAO 
review. We have asked scholars, private property rights 
advocates and other interest groups to join in the dialogue.
    Twenty-four National Heritage Areas currently exist, and 
this subcommittee has received legislative requests for 20, I 
think, or more new heritage areas. The potential for growth 
seems to be unlimited in the fact that Heritage Areas can be as 
narrow as the Rivers of Steel or as broad as the entire State 
of Tennessee. So each request for a new area is accompanied 
also by a request for $1 million per year, generally for 10-
year periods; some have gone beyond that, I believe. I do 
believe there are unique places in the country where it is 
appropriate to provide Federal assistance for a State or local 
organization to be able to assume responsibility for protecting 
a designated resource. However, I am concerned, and I think 
many of us are concerned about the total number that are being 
established, the lack of clear definition and criteria, I think 
which is really the key to have some real idea of what the 
basic criteria should be. And the apparent inability for the 
sunset of the Federal role for heritage areas. So I think the 
time has come for us to define the role, define the Park 
Service's role in national heritage, define the funding and put 
together some substantive definition of what they ought to be.
    So that is really what it is all about today. And I want to 
thank the witnesses for coming. So I think we can go, I think, 
right ahead and start, Mr. Jones, with you sir, if you will. If 
you want to kind of limit your testimony a little bit; we will 
have your full testimony in the report.
    [The prepared statement of Senator Campbell follows:]

          Prepared Statement of Hon. Ben Nighthorse Campbell, 
                       U.S. Senator From Colorado

    Thank you, Mr. Chairman. As we are all aware, our Public Lands are 
among the greatest treasures we have as a country. Whether they are 
National Parks, Wilderness, or national heritage Areas, they are all 
important in preserving the natural splendor and history that abounds 
in our nation.
    In Colorado, we are fortunate to have the first National Heritage 
Area west of the Mississippi, the Cache La Poudre Corridor, local 
citizens have formed a non-profit organization, the Poudre Heritage 
Alliance to advance the goals of the heritage area. Working in 
partnership with the National Park Service and Rocky Mountain National 
Park, the heritage area has worked to advance the goals of the original 
congressionally directed designation to provide for the interpretation 
of the unique and significant contributions to our national heritage of 
cultural and historic lands, waterways and structures within the 
Corridor.
    As Richard Brady, the Chair of the Poudre Heritage Alliance, has 
said, ``The Poudre River is a living history lesson. A water system 
that is evolving, but still functioning much the way it did a century 
ago''.
    In managing public lands such as these, we must also realize that 
while there are many deserving areas, we unfortunately do not have an 
endless supply of money and need first and foremost to care for the 
lands already entrusted to the Federal Government.
    There are many land designations and we need to expressly state 
criteria for the designation and management of public lands, that we 
may make the best use of our limited resources, which is the purpose of 
our hearing today.
    I look forward to hearing testimony on this matter from our 
witnesses today. Thank You.

 STATEMENT OF A. DURAND JONES, DEPUTY DIRECTOR, NATIONAL PARK 
                            SERVICE

    Mr. Jones. Thank you, Mr. Chairman, and I will hit the 
highlights of the testimony. First, I want to start by thanking 
you for your leadership. For example, last year, you sponsored 
the 2-day seminar that was held to brainstorm the whole 
Heritage Area issues with your staff and I think it brought a 
lot of good ideas to the table and got a lot of concepts out, 
which I think has helped further the dialogue toward where we 
are today. And also, especially the good news is that this 
morning we have formal cleared legislation, which I'd like to 
attach to our testimony as a formal recommendation to our 
proposal for implementing and putting some sideboards and 
direction and study requirements to determine significance as a 
legislative proposal that addresses the issues that we've heard 
in the various dialogues, issues that have been raised through 
the GAO review. And so, we think it's important to move forward 
on that, and it's a really good opportunity to help define the 
program for where it goes in the future and what we've learned.
    Just to hit a few things from my prepared testimony. After 
two decades of experience with National Heritage Areas, the 
Department recognizes the need to enact Heritage Area 
legislation to provide criteria for evaluation of potential 
areas, standards for planning, limitations on funding and 
guidance to the National Park Service, assistance and how we 
accomplish that assistance.
    The Heritage Areas are intended to preserve nationally 
important cultural, natural, historic and recreational 
resources through the creation of partnerships among Federal, 
State and local entities. Heritage Areas are locally driven, 
initiated and managed by the people who live there and do not 
impose Federal zoning, land controls nor do they require land 
acquisition. One of the issues that, for example, we have 
learned over the years is that at the beginning some of the 
early Heritage Areas were managed through Federally-designated 
commissions. We are increasingly convinced that having local 
nonprofit groups, local organizations or state entities be the 
managing entity rather than Federal commissions is the 
direction to go in, because it helps ensure local control, 
which is what Heritage Areas need to be. The program has grown 
without specific criteria for assessing an area's national 
importance and the ability of an area to become self-
sufficient. For these reasons the Department proposes 
legislation that will set limits and guide future National 
Heritage Area proposals.
    So far, no area has graduated from the program, if you 
will, even after 20 years in some cases and nearly $100 million 
invested overall in Heritage Areas. In 2004, 24 designated 
areas receive either grants or line-item construction funding 
through the National Park Service.
    The Department's legislative proposal is crafted to address 
the successes and challenges identified in our decades of 
experience working with these community partnerships. 
Successful National Heritage Areas embody locally driven 
partnerships and emphasize local control of land use and blend 
education, cultural conservation, resource preservation, 
recreation and community revitalization, all of which are 
integral parts of the mission of the National Park Service. Our 
legislative proposal supports this conservation strategy by 
recognizing the people who live in a Heritage Area are uniquely 
qualified to preserve it. The draft GAO report notes that at 
this time no criteria have been adopted for determining the 
significance or importance of National Heritage Area proposals. 
We agree with that concern and our legislative proposal would 
address that by laying out criteria that we feel each proposed 
Heritage Area should meet to determine national significance.
    We believe that a feasibility study should be required for 
every proposal for a National Heritage Area, and the study 
should be evaluated against legislatively established criteria 
before its designation. In a historical perspective, one of the 
reasons why we feel that this is a very important programmatic 
piece of the legislation is, as you recall, Mr. Chairman, from 
your days in Congress, that we also had an era of rapid growth 
of the National Park System, similar to some of the concerns we 
hear being expressed about Heritage Areas today. And the 
response for that came out of this committee, legislation that 
put very strict sideboards on doing formal studies to determine 
national significance before coming back to the Congress to 
recommend whether an area should or should not be added to the 
National Park System. This legislative package would put a 
parallel concept in place that would help put out some guidance 
for new Heritage Areas in the future.
    The GAO report expressed concern that in the past the 
Department's authority to approve management plans was not 
always consistently applied. Our legislative proposal clarifies 
the timeframe for developing a management plan and a 
requirement for Secretarial approval. In the legislative 
proposal plans not approved within the specified 3 years would 
be denied future funding. Under our proposal management plans 
are an essential starting point for successful national 
heritage areas, as they strengthen community development, build 
necessary partnerships, establish performance goals and expand 
capacity. One of the other things that we're proposing as being 
part of that management plan is building in something that 
we're finding increasingly successful in park management, and 
that is that there be a business plan associated with the 
management plan for the Heritage Area that would lay out a 
proposal for their eventual self-sufficiency from an economic 
viability point of view. So they have a goal during their 15 
years under Federal assistance to achieve so that they can 
graduate from the program and continue.
    Actually, at this point, Mr. Chairman, why don't I just 
conclude that we have, so far, an answer to one of the issues 
that you had raised earlier. Congress has appropriated over 
$100 million to date for National Park Service under the 
Heritage Area Partnership Program. One good news item out of 
Heritage Areas, however, is that that $100 million has 
leveraged over $900 million of funding from other sources that 
have met it. So, almost a nine-to-one return for our investment 
to help local communities do these programs. And we feel that's 
one of the successes of this program.
    So at this point I'd be happy to answer any questions you 
might have.
    [The prepared statement of Mr. Jones follows:]

 Prepared Statement of A. Durand Jones, Deputy Director, National Park 
                  Service, Department of the Interior

    Mr. Chairman and members of the subcommittee, it is my pleasure to 
appear before you today to discuss the National Park Service's National 
Heritage Area Program, to respond to the findings of the General 
Accounting Office's report, and to present the Department of the 
Interior's legislative proposal for a National Heritage Partnership 
Act.
    After two decades of experience with national heritage areas, the 
Department recognizes the need to enact national heritage area 
legislation to provide criteria for evaluation of potential areas, 
standards for planning, limitations on funding, and guidance on 
National Park Service assistance.
    National heritage areas are intended to preserve nationally 
important natural, cultural, historic, and recreational resources 
through the creation of partnerships among Federal, State and local 
entities. National heritage areas are locally driven, initiated and 
managed by the people who live there and do not impose Federal zoning, 
land use controls nor do they require land acquisition. At its best, 
the collaborative approach of this program embodies Secretary of the 
Interior Gale Norton's ``Four Cs''--Communication, Consultation and 
Cooperation, all in the service of Conservation. However, this program 
may include areas receiving Federal support where national importance 
has not been demonstrated. The program has grown without specific 
criteria for assessing an area's national importance and the ability of 
an area to become self-sufficient. For these reasons, the Department 
proposes legislation that will set limits and guide future national 
heritage area proposals.
    The National Park Service's 2005 Budget requested less funding for 
national heritage areas, because we are now focusing our available 
resources on maintaining and operating national parks. The budget 
request also reflected concerns that the program lacks an overall 
authorization or a process for areas to become self-sufficient. So far, 
no area has ``graduated'' from the program, even after 20 years in some 
cases and nearly $100 million invested overall. In 2004, all 24 
designated areas received either grants or line-item construction 
funding.
    The Department's legislative proposal is crafted to address the 
successes and challenges identified in our two decades of experience 
working in these community partnerships. As you know, over the last 
year, this subcommittee has held oversight hearings, facilitated 
meetings with interested parties, and requested a review by the General 
Accounting Office (GAO) on the national heritage area program. These 
efforts have been critical in gaining insight from all parties and 
clarifying essential elements for legislative action. In particular, 
the draft report from the GAO, based on almost a year of research in 
the field, has cast light on some of the most difficult issues facing 
the program, and has made valuable recommendations on what can be 
improved.
    The National Park Service mission statement speaks to the 
importance of partnerships in resource conservation. Successful 
national heritage areas embody locally driven partnerships that 
emphasize local control of land use, and blend education, cultural 
conservation, resource preservation, recreation and community 
revitalization, all of which are integral parts of the mission of the 
National Park Service. Our legislative proposal supports this 
conservation strategy by recognizing that the people who live in a 
heritage area are uniquely qualified to preserve it. Being designated 
as a national heritage area can benefit visitors, community residents, 
existing National Park units located in the area, and other Federal 
lands by expanding the opportunity to interpret and protect resources 
over a larger landscape and by telling our shared national stories.
    The national heritage area strategy is about fostering a 
partnership culture at every level of government with each level having 
an appropriate and complementary role to play. The National Park 
Service should be the lead partner only when the resources within a 
proposed heritage area are of national importance. The draft GAO report 
notes that, at this time, no criteria have been adopted for determining 
the significance or importance of national heritage area proposals. The 
Department's legislative proposal addresses this concern by limiting 
our involvement to regions that have a collection of resources ``that 
together tell nationally important stories based on our country's 
heritage''. While many places in this nation have special meaning to 
the people that live there, in many cases designation as a State or 
local heritage area may be most appropriate.
    The Department believes that a feasibility study should be required 
for every proposed national heritage area and the study should be 
evaluated against legislatively established criteria before 
designation. These criteria, outlined in our legislative proposal, 
require that an area provide evidence of place-based resources to tell 
a nationally important story and of the support and involvement from 
the local community. This approach has been field-tested and has been 
shown to increase the future success of the heritage area. Critical 
elements in the process are public involvement in preparing the 
feasibility study, demonstration of significant public support for the 
designation, documented commitment to the proposal from units of 
government and other parties, the identification of a responsible local 
coordinating entity, consultation with and concurrence from the 
managers of any Federal lands within the proposed national heritage 
area, and the development of a conceptual financial plan outlining the 
roles of all participants including the Federal government.
    After congressional designation, the local coordinating entity for 
the heritage area develops a management plan to serve as a road map for 
all stakeholders and a work plan for the expenditure of Federal 
dollars. The GAO report expressed concern that in the past the 
Department's authority to approve management plans was not always 
consistently applied. Our legislative proposal clarifies the timeframe 
for developing a management plan and the requirement for Secretarial 
approval. Plans not approved within the specified three years will be 
denied funding. Under our proposal, management plans are an essential 
starting point for a successful national heritage area as they 
strengthen community involvement, build necessary partnerships, 
establish performance goals, and expand capacity for collaborative 
action that will attract a wide range of fundraising dollars.
    To be successful, national heritage areas must be guided and 
supported by local communities and the people that live there. These 
areas also must work closely with all partners in the region including 
Federal land management agencies. This is of particular importance in 
the west where a national heritage area boundary may encompass Federal 
land designated for many uses. To ensure a constructive partnership, 
our legislative proposal requires the consultation and concurrence of 
Federal land management agencies within the boundaries of a proposed 
national heritage area. In addition to clarifying respective missions, 
this process of consultation will help identify potential partnerships 
as envisioned by the Administration's recent Preserve America Executive 
Order. Under this initiative, local communities and public land 
partners will collaborate for the promotion of local economic 
development and heritage tourism through the preservation and 
productive reuse of historic assets.
    Almost 47 million people across 18 states live within a national 
heritage area. The draft GAO report concluded that national heritage 
area designation does not impinge on the rights of private property 
owners. Our legislative proposal contains safeguards to ensure that 
private property owners are provided with reasonable protections. 
National heritage area designation does not involve the acquisition of 
land, or impose zoning or land use controls by the Federal government 
or local coordinating entities. In fact, the support of private 
property owners and other community members for a national heritage 
area designation is an integral part of the feasibility study.
    When the first national heritage corridors were designated twenty 
years ago, a Federal commission provided management for the areas and 
the National Park Service provided most of the staff. The national 
heritage corridor or area was conceived as a less expensive alternative 
to the acquisition and operating costs of creating a new unit of the 
National Park System. These areas were originally authorized for five 
years with a five-year extension; over time, the corridors have been 
reauthorized for additional periods. For the 18 national heritage areas 
established after 1995, the National Park Service encouraged greater 
involvement by local entities and a more cost-effective use of Federal 
resources. These newer areas are managed by a non-profit entity or a 
State government and include a funding formula of not more than $10 
million federal dollars over a fifteen-year period. Our legislative 
proposal codifies this approach and for the first time requires that a 
business plan be developed as part of management planning for proposed 
new areas. This will ensure that from the beginning, national heritage 
areas are working towards and have an established plan for self-
sufficiency. We also recognize the need to work with existing areas to 
assist them in a transition strategy as they reach the end of their 
funding authorization. As areas become self-sufficient, available 
resources could be reallocated to newly designated areas or other 
priorities.
    National heritage areas demonstrate excellence in the areas of 
partnership, leveraging funding from a variety of sources, and 
education. Partnerships are the way that heritage areas conduct 
business. In 2003, the 24 national heritage areas reported 996 
formalized partnerships (based on project agreements) and 2,480 
informal partnerships. These partnerships help us achieve that part of 
our mission statement that declares ``. . . the Park Service cooperates 
with partners to extend the benefits of natural and cultural resource 
conservation and outdoor recreation through the country . . .''. Last 
year, national heritage areas awarded 117 grants to assist National 
Register listed or eligible properties and 67 grants for recreational 
trails. In total, 367 project grants leveraged $29,276,585 in 
additional funds for resource conservation.
    Although funding for national heritage areas require a one-for-one 
match, these areas go on to leverage a great deal more than that. The 
draft GAO report cited National Park Service dollars were used to 
leverage funds from State and local governments, other Federal 
agencies, and private sources. In our review a year ago, the National 
Park Service found that since 1985, Congress has appropriated 
$107,225,378 to the National Park Service under the Heritage 
Partnership Program to support heritage area projects and programs. 
This allocation has leveraged $929,097,491 in non-National Park Service 
partnership funds, an impressive 1 to 8.7 match. A well-established 
national heritage area will have a balanced funding mix from the 
National Park Service, U.S. Department of Transportation Enhancement 
Funds, other Federal programs, State government, local government, and 
the private sector. The national heritage area model of collaborative 
funding demonstrates the value of partnership.
    National heritage areas understand the value of telling the story 
of their region's heritage to both visitors and more importantly, to 
the next generation of citizens. Some examples of their award winning 
programs include the work of Ranger Chuck Arning in the John F. Chaffee 
Blackstone River Valley National Heritage Corridor, who won both the 
1997 National Freeman Tilden Award for Interpretive Ranger of the Year 
for the television series entitled ``Along the Blackstone'', and the 
National Underground Railroad Network to Freedom's Freedom Star Award 
for this series. In 2003, Ranger Suzanne Buchanan from the Blackstone 
won the Northeast Region's Freeman Tilden Award for the Volunteer 
Program in the Blackstone River Valley. Last year, the Silos and 
Smokestacks National Heritage Area's website (http://www.campsilos.org) 
won a 2nd place Media Award from the National Association for 
Interpretation; this website reaches 25,000 regional and worldwide 
visitors monthly. Overall in 2003, national heritage areas managed 513 
different educational program reaching 740,775 people.
    Recent studies and our own experiences have shown that the national 
heritage area approach links people and place, nature and culture, and 
the present with the past. National heritage areas capitalize on the 
unique role local communities play in caring for their heritage and 
telling their stories. Our legislative proposal respects these 
principles. It also recognizes the need to target our assistance to 
those areas where there is a national interest and where the local 
partners meet established criteria for success. We hope to work with 
all parties to craft a program that responds to the draft GAO report, 
is held accountable for public investment, and builds on the successful 
practices in the field.
    In conclusion, I would like to thank Chairman Thomas for his 
assistance in evaluating the national heritage area program, in 
identifying areas for improvement, and supporting our efforts to draft 
program legislation. This concludes my prepared remarks and I will be 
pleased to answer any questions you or other members of the 
subcommittee may have.

    [The following was received from the Park Service:]

  National Park Service Response to the U.S. General Accounting Office
                        gao report: gao-04-593t

National Park Service: A More Systematic Process for Establishing 
        National 
        Heritage Areas and Actions to Improve Their Accountability Are 
        Needed
  <bullet> The National Park Service appreciates the time, attention, 
        and spirit of collegiality under which the General Accounting 
        Office conducted this inquiry. On the whole, the National Park 
        Service believes the findings are accurate. We look forward to 
        using the report as the basis for continuing program 
        improvements and changes in consultation with key program 
        customers and constituencies.
  <bullet> The National Park Service is fully supportive of the 
        National Heritage Area concept. We concur with the report's 
        recommendation that national program legislation is needed to 
        evaluate better and more consistently proposed areas for 
        designation. to ensure consistent Service technical assistance 
        and support, and to strengthen the administration of the 
        program. Accordingly, this agency has recently developed draft 
        program legislation in response to Congressional interest in 
        establishing criteria and a process for designation of national 
        heritage areas.
  <bullet> The National Park Service also agrees with the report that 
        there is a need to develop more explicit administrative 
        guidelines and management standards and controls (including a 
        National Park Service Director's Order) to provide guidance to 
        the Service's Washington, DC headquarters, regional offices and 
        park units as we administer this important program or provide 
        technical assistance and support (this is especially true for 
        the review and approval of management plans). Additionally, we 
        agree that consistent and replicable financial and management 
        controls and systems must be improved to ensure internal 
        control, accountability, and oversight of federal funding.
  <bullet> The National Park Service is pleased that the GAO report so 
        effectively demonstrates the wide diversity of funding 
        leveraged to date by the National Heritage Areas. To this 
        agency, this is a prime indicator of program health in heritage 
        areas' abilities to leverage funding other than National Park 
        Service appropriations--a key element of the ``seed money'' 
        idea behind the program. We were heartened to see not only non-
        NPS funding but private sources as well as public funding from 
        state. local, and other federal sources. We think this is a 
        critical accomplishment in the evolution of this important 
        national program.
  <bullet> On the matter of current National Park Service appropriated 
        funding support for the Heritage Areas Program, the National 
        Park Service would suggest the report describe more clearly and 
        specifically the level of NPS appropriations: 1) specifically 
        directed for NPS administration of this program; separate from, 
        2) NPS appropriated line items to the individual heritage 
        areas; separate from, 3) other appropriated general heritage 
        areas operating funds. As it is currently written, there is no 
        clear distinction and we believe important information may be 
        misunderstood, lost, or confused on this important matter.
  <bullet> The National Park Service concurs with the report's 
        recommendations on developing consistent program performance 
        measures in compliance with the Government Performance and 
        Results Act. This agency has, in partnership with the 
        designated national heritage areas, recently taken steps to 
        identify appropriate goals and measures for the program 
        including measuring outcomes in terms of resource conservation, 
        educational offerings, leveraging of funding and formation of 
        partnerships. As an example, a number of national heritage 
        areas have piloted a regional tourism impact model adapted from 
        a successful National Park Service planning model already in 
        use on a regional scale.
  <bullet> The National Park Service supports protections for private 
        property owners located within the boundaries of nation 
        heritage areas. The agency's draft legislative proposal cited 
        above and most of the legislation establishing the existing 
        individual areas specifically prohibits the federal 
        government's funding to be used for acquiring land within a 
        national heritage area or for imposing zoning or land use 
        controls. The report supports this agency's position that this 
        program does not infringe on the rights of private property 
        owners.

    For more information: de Teel Patterson Tiller, Deputy Associate 
Director, Cultural Resources, National Park Service, Washington, DC, 
202-208-7625 or Brenda Barrett, National Heritage Areas Program 
Coordinator, Cultural Resources, National Park Service, Washington, DC, 
203-354-2222.

    Senator Thomas. Okay. Thank you very much. We will go ahead 
and hear from Mr. Hill first and then there may be some 
questions.

          STATEMENT OF BARRY HILL, DIRECTOR, NATURAL 
      RESOURCES AND ENVIRONMENT, GENERAL ACCOUNTING OFFICE

    Mr. Hill. Thank you, Mr. Chairman. Before I begin I'd like 
to mention that I am accompanied today by Vince Price and 
Preston Heard, who are responsible for conducting the work we 
will be presenting today.
    I'm pleased to be here today to discuss the results of our 
work on a number of issues concerning the designation, funding 
and oversight of National Heritage Areas, work that we 
conducted at the request of this subcommittee. And I must say 
my statement today will be based on what was in place at the 
time we did our review, and we have not had the benefit of 
seeing the draft legislation that Mr. Jones is referring to.
    Over the past two decades, the Congress has established or 
designated 24 National Heritage Areas to recognize the value of 
their local traditions, history and resources to the Nation's 
heritage. These areas, including public and private lands, 
receive funds and assistance through cooperative agreements 
with the National Park Service, which has no formal program for 
them. They also receive funds from other agencies and non-
Federal sources and are managed by local entities. The number 
of bills to study or designate new areas has grown considerably 
in recent years and, as you can see from the map that is to my 
right over here, in addition to the 24 existing Heritage Areas, 
which are shown in orange, there are currently also seven 
areas, which are shown in gold, with pending study legislation 
and another 15 areas, shown in purple, with pending designation 
legislation. This growing interest in new areas has raised 
concerns about the rising Federal costs and the risks of limits 
on private land use. In this context, my testimony today 
addresses the process for designating Heritage Areas, the 
amount of Federal funding to these areas, the process for 
overseeing areas' activities and use of Federal funds, and the 
effects, if any, Heritage Areas are having on private property 
rights.
    In summary, we found that no systematic process currently 
exists for identifying qualified sites and designating them as 
National Heritage Areas. While the Congress generally has 
designated Heritage Areas with the Park Service's advice it 
designated ten of the 24 areas without a thorough Agency 
review. In six of these ten cases the Agency recommended 
deferring action. And even when the Agency fully studied sites 
it found few that were unsuitable, primarily because the 
Agency's criteria are very broad and open to interpretation.
    According to data we obtained from 22 of the 24 Heritage 
Areas, in fiscal years 1997 through 2002, the areas received 
about $310 million in total funding. Of this total, about $154 
million came from State and local governments and private 
sources and another $156 million came from the Federal 
Government. Over $50 million was dedicated Heritage Area funds 
provided through the Park Service, with another $44 million 
coming from other Park Service programs, and an additional $61 
million from 11 other Federal sources. Generally, each area's 
designating legislation imposes matching requirements and 
sunset provisions to limit the Federal funds. However, since 
1984, five areas that reached their sunset dates had their 
funding extended.
    The process the Park Service is using to oversee Heritage 
Areas' activities primarily focuses on monitoring their 
implementation of the cooperative agreements. This process, 
however, does not include several key management controls. 
Specifically, the Agency has not always reviewed areas' 
financial audit reports, developed consistent standards for 
reviewing areas' management plans, and developed results-
oriented goals or measures for the Agency's Heritage Area 
activities, or required the areas to adopt a similar approach. 
Park Service officials said the Agency has not taken these 
actions because without a formal program it lacks adequate 
direction and funding.
    As far as private property rights, we found no evidence 
that Heritage Areas to date have affected property owners' 
rights. In fact, the designating legislation of 13 areas and 
the management plans of at least six provide assurances that 
such rights will be protected. Property rights advocates, 
however, are fearful of the effects that provisions in some 
management plans may have in the future. These provisions 
encourage local governments to implement land use policies that 
are consistent with the Heritage Areas' plans, which may allow 
the areas to indirectly influence zoning and land use planning 
in ways that could restrict owners' use of their property. 
Nevertheless, Heritage Area officials, Park Service 
headquarters and regional staff, and representatives of 
national property rights groups that we contacted were unable 
to provide us with any examples of Heritage Areas directly 
affecting, either positively or negatively, private property 
values or use.
    To address the issues I've just highlighted, we are 
recommending that the Park Service take a number of steps to 
improve the effectiveness of its Heritage Area activities. 
These include developing consistent standards and processes for 
reviewing areas' management plans, requiring regions to review 
areas' financial audits reports, and developing results-
oriented goals and measures for the Agency's activities, and 
requiring areas to adopt a similar approach.
    Mr. Chairman, this concludes my statement. I'd be happy to 
answer any questions you may have.
    [The prepared statement of Mr. Hill follows:]

 Prepared Statement of Barry T. Hill, Director, Natural Resources and 
                              Environment

A MORE SYSTEMATIC PROCESS FOR ESTABLISHING NATIONAL HERITAGE AREAS AND 
           ACTIONS TO IMPROVE THEIR ACCOUNTABILITY ARE NEEDED
                         WHY GAO DID THIS STUDY

    The Congress has established, or ``designated,'' 24 national 
heritage areas to recognize the value of their local traditions, 
history, and resources to the nation's heritage. These areas, including 
public and private lands, receive funds and assistance through 
cooperative agreements with the National Park Service, which has no 
formal program for them. They also receive funds from other agencies 
and nonfederal sources, and are managed by local entities. Growing 
interest in new areas has raised concerns about rising federal costs 
and the risk of limits on private land use.
    GAO was asked to review the (1) process for designating heritage 
areas, (2) amount of federal funding to these areas, (3) process for 
overseeing areas' activities and use of federal funds, and (4) effects, 
if any, they have on private property rights.

                          WHAT GAO RECOMMENDS

    GAO recommends that the Park Service (1) develop consistent 
standards and processes for reviewing areas' management plans; (2) 
require regions to review areas' financial audit reports, and (3) 
develop results-oriented goals and measures for the agency's activities 
and require areas to adopt a similar approach.
                                 ______
                                 
                             WHAT GAO FOUND

    No systematic process currently exists for identifying qualified 
sites and designating them as national heritage areas. While the 
Congress generally has designated heritage areas with the Park 
Service's advice, it designated 11 of the 24 areas without a thorough 
agency review; in 6 of these 10 cases, the agency recommended deferring 
action. Even when the agency fully studied sites, it found few that 
were unsuitable. The agency's criteria are very general. For example, 
one criterion states that a proposed area should reflect ``traditions, 
customs, beliefs, and folk life that are a valuable part of the 
national story.'' These criteria are open to interpretation and, using 
them, the agency has eliminated few sites as prospective heritage 
areas.
    According to data from 22 of the 24 heritage areas, in fiscal years 
1997 through 2002, the areas received about $310 million in total 
funding. Of this total, about $154 million came from state and local 
governments and private sources and another $156 million came from the 
federal government. Over $50 million was dedicated heritage area funds 
provided through the Park Service, with another $44 million coming from 
other Park Service programs and about $61 million from 11 other federal 
sources. Generally, each area's designating legislation imposes 
matching requirements and sunset provisions to limit the federal funds. 
However, since 1984, five areas that reached their sunset dates had 
their funding extended.
    The Park Service oversees heritage areas' activities by monitoring 
their implementation of the terms set forth in the cooperative 
agreements. These terms, however, do not include several key management 
controls. That is, the agency has not (1) always reviewed areas' 
financial audit reports, (2) developed consistent standards for 
reviewing areas' management plans, and (3) developed results-oriented 
goals and measures for the agency's heritage area activities, or 
required the areas to adopt a similar approach. Park Service officials 
said that the agency has not taken these actions because, without a 
program, it lacks adequate direction and funding.
    Heritage areas do not appear to have affected property owners' 
rights. In fact, the designating legislation of 13 areas and the 
management plans of at least 6 provide assurances that such rights will 
be protected. However, property rights advocates fear the effects of 
provisions in some management plans. These provisions encourage local 
governments to implement land us policies that are consistent with the 
heritage areas' plans, which may allow the heritage areas to indirectly 
influence zoning and land use planning in ways that could restrict 
owners' use of their property. Nevertheless, heritage area officials, 
Park Service headquarters and regional staff, and representatives of 
national property rights groups that, we contacted were unable to 
provide us with any examples of a heritage area directly affecting 
positively or negatively-private property values or use.
                                 ______
                                 
    Mr. Chairman and Members of the Committee: I am pleased to be here 
today to discuss a number of issues concerning the designation, 
funding, and oversight of national heritage areas. As you know, over 
the past two decades, the Congress has established, or ``designated,'' 
24 national heritage areas and provided them with millions of dollars 
in financial assistance through the National Park Service. By providing 
this designation, the Congress has determined that these areas' local 
cultures, traditions, history, and resources are worthy of being 
recognized and preserved because of their contributions to the nation's 
heritage. These areas can encompass large tracts of land and 
incorporate public as well as private property. The number of bills 
introduced to study or designate new areas has grown considerably in 
recent years. In the 108th Congress alone, as of early March 2004, over 
30 bills had been introduced to either study or establish new areas. 
This growing interest in creating new heritage areas has raised 
concerns that their numbers may expand rapidly and significantly 
increase the amount of federal funds supporting them. In addition, 
private property rights advocates are concerned that heritage area 
designations could increase the risk that federal controls or other 
limits will be placed on private land use.
    Once designated, heritage areas can receive funding through the 
National Park Service's budget, although the agency has no formal 
heritage area program. The Park Service provides technical assistance 
to the areas, and the Congress appropriates the agency limited funds 
for these activities.\1\ The Park Service allocates funding to the 
areas through cooperative agreements. These funds are considered to be 
``seed'' money to assist each area in becoming sufficiently established 
to develop partnerships with state and local governments, businesses, 
and other nonfederal organizations as their principal funding sources. 
Heritage areas also receive funds from other federal agencies through a 
variety of programs, primarily the Department of Transportation for 
road and infrastructure improvements.
---------------------------------------------------------------------------
    \1\ Although no heritage area program exists within the Park 
Service, the Congress has provided the Park Service an annual 
appropriation for administering its heritage area activities. The 
agency has allocated these amounts to fund a national coordinator 
position in the Park Service's headquarters, which directs and monitors 
the agency's heritage area activities.
---------------------------------------------------------------------------
    In this context, my testimony today focuses on the results of our 
work on national heritage areas conducted at the request of this 
Committee. Specifically, it addresses the (1) process for identifying 
and designating national heritage areas, (2) amount of federal funding 
provided to support these areas, (3) process for overseeing and holding 
national heritage areas accountable for their use of federal funds, and 
(4) extent to which, if at all, these areas have affected private 
property rights.
    To address these issues, we obtained information on the Park 
Service's heritage area activities from the Heritage Area national 
coordinator and program managers in the four Park Service regions that 
include heritage areas. We also obtained funding information from 22 of 
the 24 existing areas for fiscal years 1997 through 2002, and discussed 
this information with the executive directors and staff of each 
area.\2\ In addition, we visited 8 of the 24 heritage areas to view 
their operations and accomplishments, and discussed various issues with 
their executive directors. Finally, we discussed concerns about, 
private property rights with representatives of several organizations 
advocating property rights. We conducted our work between May 2003 and 
March 2004 in accordance with generally accepted government auditing 
standards. A more complete description of our methodology is included 
in app. I.
---------------------------------------------------------------------------
    \2\ As of mid-March 2004, two heritage areas had not provided us 
with funding data.
---------------------------------------------------------------------------
                                SUMMARY

    In summary, we found the following:

  <bullet> No systematic process exists for identifying qualified 
        candidate sites and designating them as national heritage 
        areas. While the Congress generally has made designation 
        decisions with the advice of the Park Service, it has in some 
        instances, designated heritage areas before the agency has 
        fully evaluated them. In this regard, the Congress designated 
        10 of the 24 heritage areas without a thorough Park Service 
        review of their qualifications; in 6 of these 10 cases, the 
        agency recommended deferring action. Furthermore, even when the 
        Park Service fully studied prospective sites' qualifications as 
        heritage areas, it found that few of these were unsuitable. The 
        Park Service's criteria are not specific. For example, one 
        criterion states that a proposed area should reflect 
        ``traditions, customs, beliefs, and folk life that are a 
        valuable part of the national story.'' Using these criteria, 
        the agency has determined that relatively few of the sites it 
        has evaluated would not qualify as heritage areas.
  <bullet> According to data from 22 of the 24 heritage areas, in 
        fiscal years 1997 through 2002, the areas received about $310 
        million in total funding. Of this total, about $154 million 
        came from state and local governments and private sources and 
        another $156 million came from the federal government. About 
        $51 million of the federal total was dedicated heritage area 
        funds provided through the Park Service. An additional $44 
        million came from other Park Service programs and about $61 
        million from 11 other federal sources. Generally, each area's 
        designating legislation specifies the total amount of federal 
        funds that will be provided and imposes certain conditions, 
        such as matching requirements and sunset, provisions, to limit 
        the amount of federal funds for each heritage area. However, 
        the sunset provisions have not been effective in limiting 
        federal funding: since 1984, five areas that reached their 
        sunset dates received funding reauthorization from the 
        Congress.
  <bullet> In the absence of a formal program, the Park Service 
        oversees heritage areas' activities by monitoring the 
        implementation of the terms set forth in the cooperative 
        agreements. These terms, however, do not include several key 
        management controls. Although the Park Service has primary 
        federal responsibility for heritage areas, the agency does not 
        always review data that it obtains from the areas on their 
        sources and expenditures of all federal funds. As a result, the 
        agency cannot determine how much federal funds have been 
        provided to the areas or whether these funds are being spent 
        appropriately. Furthermore, the Park Service has not yet 
        developed clear and consistent standards and processes for 
        reviewing areas' management plans, even though this review is 
        one of the agency's primary heritage area responsibilities. As 
        a result, staff in each Park Service region use different 
        approaches to review and approve areas' plans. Finally, the 
        Park Service has not yet developed results-oriented performance 
        goals and measures--consistent with the requirements of the 
        Government Performance and Results Act--for the agency's 
        heritage area activities, or required the areas to adopt a 
        similar results-oriented management approach. Such an approach 
        would help ensure the efficiency and effectiveness of the 
        agency's heritage area activities and enable both the areas and 
        the agency to determine what is being accomplished with federal 
        funds. According to Park Service officials, the agency has not 
        taken these actions because, without a formal program, it does 
        not have the direction or funding it needs to effectively carry 
        out its national heritage area activities.
  <bullet> National heritage areas do not appear to have directly 
        affected the rights of property owners. To address property 
        concerns, the designating legislation of 13 of the 24 heritage 
        areas and management plans of at least 6 provide explicit 
        assurances that the areas will not affect property owners' 
        rights. However, some management plans encourage local 
        governments to implement land use policies that are consistent 
        with the heritage areas' plans and offer to aid their planning 
        activities through matching grants. Property rights advocates 
        fear that such provisions may allow heritage areas to 
        indirectly influence zoning and land use planning it ways that, 
        could restrict owners' use of their property. Nevertheless, 
        heritage area officials, Park Service headquarters and regional 
        staff, and representatives of national property rights groups 
        who we contacted were unable to provide us with any examples of 
        a heritage area directly affecting--positively or negatively--
        private property use.

    To improve the heritage area designation process and the Park 
Service's oversight of areas' use of federal funds, we are recommending 
that the agency (1) develop consistent standards and processes for 
reviewing areas' management plans; (2) require regions to review areas' 
financial audit reports, and (3) develop results-oriented goals and 
measures for the agency's activities and require areas to adopt a 
similar approach.

                               BACKGROUND

    To date, the Congress has designated 24 national heritage areas, 
primarily in the eastern half of the country (see fig. 1).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Generally, national heritage areas focus oil local efforts to 
preserve and interpret the role that certain sites, events, and 
resources have played in local history and their significance in the 
broader national context. For example, the Rivers of Steel Heritage 
Area commemorates the contribution of southwestern Pennsylvania to the 
development of the nation's steel industry by providing visitors with 
interpretive tours of historic sites and other activities. Heritage 
areas share many similarities--such as recreational resources and 
historic sites--with national parks and other park system units but 
lack the stature and national significance to qualify them as these 
units.
    The process of becoming a national heritage area usually begins 
when local residents, businesses, and governments ask the Park Service, 
within the Department of the Interior, or the Congress for help in 
preserving their local heritage and resources. In response, although 
the Park Service has no program governing these activities, the agency 
provides technical assistance, such as conducting or reviewing studies 
to determine an area's eligibility for heritage area status. The 
Congress then may designate the site as a national heritage area and 
set up a management entity for it. This entity could be a state or 
local governmental agency, an independent federal commission, or a 
private nonprofit corporation. Usually within 3 years of designation, 
the area is required to develop a management plan, which is to detail, 
among other things, the area's goals and its plans for achieving those 
goals. The Park Service then reviews these plans, which must be 
approved by the Secretary of the Interior.
    After the Congress designates a heritage area, the Park Service 
enters into a cooperative agreement with the area's management entity 
to assist the local community in organizing and planning the area. Each 
area can receive funding through the Park Service's budget-generally 
limited to not more than $1 million a year for 10 or 15 years. The 
agency allocates the funds to the area through the cooperative 
agreement.

     NO SYSTEMATIC PROCESS EXISTS FOR IDENTIFYING AND DESIGNATING 
                        NATIONAL HERITAGE AREAS

    No systematic process is in place to identify qualified candidate 
sites and designate them as national heritage areas. In this regard, 
the Park Service conducts studies--or reviews studies prepared by local 
communities--to evaluate the qualifications of sites proposed for 
national heritage designation. On the basis of these studies, the 
agency advises the Congress as to whether a particular location 
warrants designation. The agency usually provides its advice to the 
Congress by testifying in hearings on bills to authorize a particular 
heritage area. The Park Services' studies of prospective sites' 
suitability help the agency ensure that the basic components necessary 
to a successful heritage area--such as natural and cultural resources 
and community support--are either already in place or are planned. Park 
Service data show that the agency conducted or reviewed some type of 
study addressing the qualifications of all 24 heritage areas. However, 
in some cases, these studies were limited in scope so that questions 
concerning the merits of the location persisted after the studies were 
completed. As a result, the Congress designated 10 of the 24 areas with 
only a limited evaluation of their suitability as heritage areas. Of 
these 10 areas, the Park Service opposed or suggested that the Congress 
defer action on 6, primarily because of continuing questions about, 
among other issues, whether the areas had adequately identified goals 
or management entities or demonstrated community support. Furthermore, 
of the 14 areas that were designated after a full evaluation, the 
Congress designated 8 consistent with the Park Service's 
recommendations, 5 without the agency's advice, and 1 after the agency 
had recommended that action be deferred.
    Furthermore, the criteria the Park Service uses to evaluate the 
suitability of prospective heritage areas are not specific and, in 
using them, the agency has determined that a large portion of the sites 
studied qualify as heritage areas. According to the Heritage Area 
national coordinator, before the early 1990s, the Park Service used an 
ad hoc approach to determining sites' eligibility as heritage areas, 
with little in the way of objective criteria as a guide. Since then, 
however, the Park Service developed general guidelines to use in 
evaluating and advising the Congress on the suitability of sites as 
heritage areas. Based on these guidelines, in 1999, the agency 
developed a more formal approach to evaluating sites. This approach 
consisted of four actions that the agency believed were critical before 
a site could be designated as well as 10 criteria to be considered when 
conducting studies to assess an area's suitability.
    The four critical steps include the following:

  <bullet> complete a suitability/feasibility study;
  <bullet> involve the public in the suitability/feasibility study;
  <bullet> demonstrate widespread public support for the proposed 
        designation; and
  <bullet> demonstrate commitment to the proposal from governments, 
        industry, and private, nonprofit organizations.

    A suitability/feasibility study, should examine a proposed area 
using the following criteria:

  <bullet> The area has natural, historic, or cultural resources that 
        represent distinctive aspects of American heritage worthy of 
        recognition, conservation, interpretation, and continuing use, 
        and are best managed through partnerships among public and 
        private entities, and by combining diverse and sometimes 
        noncontiguous resources and active communities;
  <bullet> The area's traditions, customs, beliefs, and folk life area 
        valuable part of the national story;
  <bullet> The area provides outstanding opportunities to conserve 
        natural, cultural, historic, and/or scenic features;
  <bullet> The area provides outstanding recreational and educational 
        opportunities;
  <bullet> Resources that are important to the identified themes of the 
        area retain a degree of integrity capable of supporting 
        interpretation;
  <bullet> Residents, businesses, nonprofit organizations, and 
        governments within the area that are involved in the planning 
        have developed a conceptual financial plan that outlines the 
        roles for all participants, including the federal government, 
        and have demonstrated support for designation of the area;
  <bullet> The proposed management entity and units of government 
        supporting the designation are willing to commit to working in 
        partnership to develop the area;
  <bullet> The proposal is consistent with continued economic activity 
        in the area;
  <bullet> A conceptual boundary map is supported by the public; and
  <bullet> The management entity proposed to plan and implement the 
        project is described.

    These criteria are broad and subject to multiple interpretations, 
as noted by an official in the agency's Midwest region charged with 
applying these criteria to prospective areas. Similarly, according to 
officials in the agency's Northeast region, they believe that the 
criteria were developed to be inclusive and that they are inadequate 
for screening purposes. The national coordinator believes, however, 
that the criteria are valuable but that the regions need additional 
guidance to apply them more consistently The Park Service has developed 
draft guidance for applying these criteria but has no plans to issue 
them as final guidance. Rather, the agency is incorporating this 
guidance into a legislative proposal for a formal heritage area 
program. According to the national coordinator, some regions have used 
this guidance despite its draft status, but it has not been widely 
adopted or used to date.
    The Park Service's application of these broad criteria has 
identified a large number of potential heritage areas. Since 1989, the 
Park Service has determined that most of the candidate sites it has 
evaluated would qualify as national heritage areas.
  national heritage areas annually receive millions in federal funding
    According to data from 22 of the 24 heritage areas, about half of 
their total funding of $310 million in fiscal years 1997 through 2002 
came from the federal government and the other half from state and 
local governments and private sources. Table 1 shows the areas' funding 
sources from fiscal years 1997 through 2002.

        Table 1.--NATIONAL HERITAGE AREA FUNDING FROM ALL SOURCES
                         Fiscal Years 1997-2002

                  Source                        Amount       Percentage

    Total Park Service funds..............     $95,393,506        30.8
                                           =============================
Dedicated heritage area funds\1\..........     150,922,562        16.5
Other Park Service support funds\2\.......      44,470,944        14.3
                                           -----------------------------
    Total other federal funds.............     $60,545,816        19.5
                                           =============================
Department of Transportation..............      55,852,269        18.0
Department of Education...................       2,000,000         0.6
Department of Agriculture.................         547,009         0.2
Housing and Urban Development.............         420,183         0.1
Environmental Protection Agency...........         400,000         0.1
Army Corps of Engineers...................         266,000         0.1
Department of Commerce....................          96,555         0.0
National Railroad Passenger Corporation...          23,800         0.0
National Endowment for the Arts...........           5,000         0.0
Federal earmarks and awards\3\............         935,000         0.3
                                           -----------------------------
    Total nonfederal funds................    $154,078,203        49.7
                                           =============================
State governments.........................      61,404,323        19.8
Local governments.........................      46,612,624        15.0
Nonprofit organizations...................       7,255,416         2.3
Private foundations.......................      14,515,996         4.7
Corporate sponsors........................       2,126,870         0.7
Other nonfederal funding sources..........      22,163,473         7.2
                                           -----------------------------
        Total.............................    $310,017,525       100.0
                                           =============================

Source: GAO analysis of data obtained from 22 of the 24 heritage areas.
\1\ These funds were provided through the Park Service's Heritage
  Partnership Program and Statutory and Contractual Aid budget line
  items. The Heritage Partnership Program promotes the conservation of
  natural, historic, scenic, and cultural resources. Statutory and
  Contractual Aid provides financial assistance in the planning,
  development, or operation of natural, historical, cultural, or
  recreation areas that are not managed by the Park Service.
\2\ These are funds from other Park Service budget line items-including
  the Land and Water Conservation Fund; Operation of the National Park
  Service, and the Construction Fund-that are no typically reported as
  part of heritage area funding, but include funding for specific
  projects undertake by heritage areas.
\3\ Funds earmarked for Federal Government Pass-Through Awards
  ($610,000) and Hugh Moore Historical Park & Museums, Inc. ($325,000).

    As figure 2 shows, the federal government's total funding to these 
heritage areas increased from about $14 million in fiscal year 1997 to 
about $28 million in fiscal year 2002, peaking at over $34 million in 
fiscal year 2000.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Congress sets the overall level of funding for heritage areas, 
determining which areas will receive funding and specifying the amounts 
provided. Newly designated heritage areas usually receive limited 
federal funds while they develop their management plans and then 
receive increasing financial support through Park Service 
appropriations after their plans are established. The first heritage 
areas received pass-through grants from the Park Service and funding 
through the agency's Statutory and Contractual Aid appropriations. 
However, in 1998, the Congress began appropriating funds to support 
heritage areas through the Heritage Partnership Program.
    In addition, the Congress has placed in each area's designating 
legislation certain conditions on the receipt of federal funds. While 
the legislation designating the earliest heritage areas resulted in 
different funding structures, generally those created since 1996 have 
been authorized funding of up to $10 million over 15 years, not to 
exceed $1 million in any single year. In conjunction with this limit, 
the designating legislation attempts to identify a specific date when 
heritage areas no longer receive federal financial or technical 
assistance. Although heritage areas are ultimately expected to become 
self-sufficient without federal support, to date the sunset provisions 
have not limited federal funding. Since the first national heritage 
area was designated in 1984, five have reached the sunset date 
specified in their designating legislation. However, in each case, the 
sunset date was extended and the heritage area continued to receive 
funding from the Congress.
    Finally, the areas' designating legislation typically requires the 
heritage areas to match the amount of federal funds they receive with a 
specified percentage of funds from nonfederal sources. Twenty-two of 
the 24 heritage areas are required to match the federal funds they 
receive. Of these 22 areas, 21 have a 50-percent match requirement-they 
must show that at least 50 percent of the funding for their projects 
has come from nonfederal sources-and one has a 25-percent match 
requirement.

THE PARK SERVICE LACKS AN EFFECTIVE PROCESS FOR ENSURING THAT NATIONAL 
     HERITAGE AREAS ARE ACCOUNTABLE FOR THEIR USE OF FEDERAL FUNDS

    In the absence of a formal program, the Park Service oversees 
heritage areas' activities by monitoring the implementation of the 
terms set forth in the cooperative agreements. According to Park 
Service headquarters officials, the agency's cooperative agreements 
with heritage areas allow the agency to effectively oversee their 
activities and hold them accountable. These officials maintain that 
they can withhold funds from heritage areas-and have, in some 
circumstances, done so-if the areas are not carrying out the 
requirements of the cooperative agreements. However, regional managers 
have differing views on their authority for withholding funds from 
areas and the conditions under which they should do so.
    Although the Park Service has oversight opportunities through the 
cooperative agreements, it has not taken advantage of these 
opportunities to help to improve oversight and ensure these areas' 
accountability. In this regard, the agency generally oversees heritage 
areas' funding through routine monitoring and oversight activities, and 
focuses specific attention on the areas' activities only when problems 
or potential concerns arise. However, the Park Service regions that 
manage the cooperative agreements with the heritage areas do not always 
review the areas' annual financial audit reports, although the agency 
is ultimately the federal agency responsible for heritage area projects 
that are financed with federal funds.\3\ For example, managers in two 
Park Service regions told us that they regularly review heritage areas' 
annual audit reports, but a manager in another region said that he does 
not. As a result, the agency cannot determine the total amount of 
federal funds provided or their use. According to these managers, the 
inconsistencies among regions in reviewing areas' financial reports 
primarily result from a lack of clear guidance and the collateral 
nature of the Park Service regions' heritage area activities-they 
receive no funding for oversight, and their oversight efforts divert 
them from other mission-critical activities.
---------------------------------------------------------------------------
    \3\ Under regulations implementing the Single Audit Act, recipients 
spending $500,000 or more of federal funds during a fiscal year are 
required to have an audit conducted for that year. They are also 
required to (1) maintain internal controls; (2) comply with laws, 
regulations, contracts, and grant agreements; (3) prepare appropriate 
financial statements; (4) ensure that audits are properly performed and 
submitted when due; and (5) take corrective actions on audit findings. 
This act is intended to, among other things, promote sound financial 
management of federally funded projects administered by state and local 
governments and nonprofit organizations. Prior to 2003, the dollar 
threshold for a single audit was $300,000 or more in expenditures in a 
fiscal year.
---------------------------------------------------------------------------
    Furthermore, the Park Service has not yet developed clearly 
defined, consistent, and systematic standards and processes for 
regional staff to use in reviewing the adequacy of areas' management 
plans, although these reviews are one of the Park Service's primary 
heritage area responsibilities. Heritage areas' management plans are 
blueprints that discuss how the heritage area will be managed and 
operated and what goals it expects to achieve, among other issues. The 
Secretary of the Interior must approve the plans after Park Service 
review. According to the national coordinator, heritage area managers 
in the agency's Northeast region have developed a checklist of what 
they consider to be the necessary elements of a management plan to 
assist reviewers in evaluating the plans. While this checklist has not 
been officially adopted, managers in the Northeast and other regions 
consult it in reviewing plans, according to the national coordinator. 
Heritage area managers in the Park Service regions use different 
criteria for reviewing these plans, however. For example, managers in 
the regions told us that, to judge the adequacy of the plans, one 
region uses the specific requirements in the areas' designating 
legislation, another uses the designating legislation in conjunction 
with the Park Service's general designation criteria, and a third 
adapts the process used for reviewing national park management plans. 
While these approaches may guide the regions in determining the content 
of the plans, they provide little guidance in judging the adequacy of 
the plans for ensuring successful heritage areas.
    Finally, the Park Service has not yet developed results-oriented 
performance goals and measures-consistent with the requirements of the 
Government Performance and Results Act-that would help to ensure the 
efficiency and effectiveness of its heritage area activities. The act 
requires agencies to, among other actions, set strategic and annual 
goals and measure their performance against these goals. Effectively 
measuring performance requires developing measures that demonstrate 
results, which, in turn, requires data. According to the national 
coordinator, the principal obstacles to measuring performance are the 
difficulty of identifying meaningful indicators of success and the lack 
of funding to collect the needed data. With regard to indicators, the 
national coordinator told us that the agency has tried to establish 
meaningful and measurable goals both for their activities and the 
heritage areas. The agency has identified a series of ``output'' 
measures of accomplishment, such as numbers of heritage areas visitors, 
formal and informal partners, educational programs managed, and grants 
awarded. However, the national coordinator acknowledged that these 
measures are insufficient, and the agency continues to pursue 
identifying alternative measures that would be more meaningful and 
useful. However, without clearly defined performance measures for its 
activities, the agency will continue to be unable to effectively gauge 
what it is accomplishing and whether its resources are being employed 
efficiently and cost-effectively.
    The Park Service also has not required heritage areas to adopt a 
results-oriented management approach-linked to the goals set out in 
their management plans-which would enable both the areas and the agency 
to determine what is being accomplished with the funds that have been 
provided. In this regard, the heritage areas have not yet developed an 
effective, outcome-oriented method for measuring their own performance 
and are therefore unable to determine what benefits the heritage area--
and through it, the federal funds--have provided to the local 
community. For example, for many heritage areas, increasing tourism is 
a goal, but while they may be able to measure an increase in tourism, 
they cannot demonstrate whether this increase is directly associated 
with the efforts of the heritage area. To address these issues, the 
Alliance of National Heritage Areas is currently working with Michigan 
State University to develop a way to measure various impacts associated 
with a national heritage area. These impacts include, among others, the 
effects on tourism and local economies through jobs created and 
increases in tax revenues.
    According to Park Service officials, the agency has not taken 
actions to improve oversight because, without a formal program, it does 
not have the direction or funding it needs to effectively administer 
its national heritage area activities.

        NATIONAL HERITAGE AREAS DO NOT APPEAR TO HAVE AFFECTED 
                       INDIVIDUAL PROPERTY RIGHTS

    National heritage areas do not appear to have affected private 
property rights, although private property rights advocates have raised 
a number of concerns about the potential effects of heritage areas on 
property owners' rights and land use. These advocates are concerned 
that heritage areas may be allowed to acquire or otherwise impose 
federal controls on nonfederal lands. However, the designating 
legislation and the management plans of some areas explicitly place 
limits on the areas' ability to affect private property rights and use. 
In this regard, eight areas' designating legislation stated that the 
federal government cannot impose zoning or land use controls on the 
heritage areas. Moreover, in some cases, the legislation included 
explicit assurances that the areas would not affect the rights of 
private property owners. For example, the legislation creating 13 of 
the 24 heritage areas stated that the area's managing entity cannot 
interfere with any person's rights with respect to private property or 
have authority over local zoning ordinances or land use planning. While 
management entities of heritage areas are allowed to receive or 
purchase real property from a willing seller, under their designating 
legislation, most areas are prohibited from using appropriated funds 
for this purpose.\4\ In addition, the designating legislation for five 
heritage areas requires them to convey the property to an appropriate 
public or private land managing agency.
---------------------------------------------------------------------------
    * The Shenandoah River Valley Battlefields National Historic 
District is the only heritage area that has received authority and 
appropriations to acquire land.
---------------------------------------------------------------------------
    As a further protection of property rights, the management plans of 
some heritage areas deny the managing entity authority to influence 
zoning or land use. For example, at least, six management plans state 
that the managing entities have no authority over local zoning laws or 
land use regulations. However, most of the management plans state that 
local governments' participation will be crucial to the success of the 
heritage area and encourage local governments to implement land use 
policies that are consistent with the plan. Some plans offer to aid 
local government planning activities through information sharing or 
technical or financial assistance to achieve their cooperation. 
Property rights advocates are concerned that such provisions give 
heritage areas an opportunity to indirectly influence zoning and land 
use planning, which could restrict owners' use of their property. Some 
of the management plans state the need to develop strong partnerships 
with private landowners or recommend that management entities enter 
into cooperative agreements with landowners for any actions that 
include private property.
    Despite concerns about private property rights, officials at the 24 
heritage areas, Park Service headquarters and regional staff working 
with these areas, and representatives of six national property rights 
groups that we contacted were unable to provide us with a single 
example of a heritage area directly affecting positively or negatively-
private property values or use.

                              CONCLUSIONS

    National heritage areas have become an established part of the 
nation's efforts to preserve its history and culture in local areas. 
The growing interest in establishing additional areas will put 
increasing pressure on the Park Service's resources, especially since 
the agency receives limited funding for the technical and 
administrative assistance it provides to these areas. Under these 
circumstances, it is important to ensure that only those sites' that 
are most qualified are designated as heritage areas. However, no 
systematic process for designating these areas exists, and the Park 
Service does not have well-defined criteria for assessing sites' 
qualifications or effective oversight of the areas' use of federal 
funds and adherence to their management plan. As a result, the Congress 
and the public cannot be assured that future sites will have the 
necessary resources and local support needed to be viable or that 
federal funds supporting them will be well spent.
    Given the Park Service's resource constraints, it is important to 
ensure that the agency carries out its heritage area responsibilities 
as efficiently and effectively as possible. Park Service officials 
pointed to the absence of a formal program as a significant obstacle to 
effective management of the agency's heritage area efforts and 
oversight of the areas' activities. In this regard, without a program, 
the agency has not developed consistent standards and processes for 
reviewing areas' management plans, the areas' blueprints for becoming 
viable and self-sustaining. It also has not required regional heritage 
area managers to regularly and consistently review the areas' annual 
financial audit reports to ensure that the Park Service--the agency 
with lead responsibility for these areas--has complete information on 
their use of funds from all federal agencies as a basis for holding 
them accountable. Finally, the Park Service has not defined results-
oriented performance goals and measures--both for its own heritage area 
efforts and those of the individual areas. As a result, it is 
constrained in its ability to determine both the agency's and areas' 
accomplishments, whether the agency's resources are being employed 
efficiently and effectively, and if federal funds could be better 
utilized to accomplish its goals.

                  RECOMMENDATIONS FOR EXECUTIVE ACTION

    In the absence of congressional action to establish a formal 
heritage area program within the National Park Service or to otherwise 
provide direction and funding for the agency's heritage area 
activities, we recommend that the Secretary of the Interior direct the 
Park Service to take actions within its existing authority to improve 
the effectiveness of its heritage area activities and increase areas' 
accountability. These actions should include:

  <bullet> developing well-defined, consistent standards and processes 
        for regional staff to use in reviewing and approving heritage 
        areas' management plans;
  <bullet> requiring regional heritage area managers to regularly and 
        consistently review heritage areas' annual financial audit 
        reports to ensure that the agency has a full accounting of 
        their use of funds from all federal sources, and
  <bullet> developing results-oriented performance goals and measures 
        for the agency's heritage area activities, and requiring--in 
        the cooperative agreements-heritage areas to adopt such a 
        results-oriented management approach as well.

    Thank you, Mr. Chairman and Members of the Committee. This 
concludes my prepared statement. I would be happy to respond to any 
questions that you or Members of the Committee may have.

                                 ______
                                 
                   Appendix I: Scope and Methodology

    To examine the establishment, funding, and oversight of national 
heritage areas and their potential effect on private property rights, 
we (1) evaluated the process for identifying and designating national 
heritage areas, (2) determined the amount of federal funding provided 
to support these areas, (3) evaluated the process for overseeing and 
holding national heritage areas accountable for their use of federal 
funds, and (4) determined the extent to which, if at all, these areas 
have affected private property rights.
    To address the first issue, we discussed the process for 
identifying and designating heritage areas with the Park Service's 
Heritage Area national coordinator and obtained information on how the 
24 existing heritage areas were evaluated and designated. To determine 
the amount of federal funding provided to support these areas, we 
discussed funding issues and the availability of funding data with the 
national coordinator, the Park Service's Comptroller, and officials 
from the agency's Northeast, Midwest, Southeast, and Intermountain 
Regional Offices. We also obtained funding information from 22 of the 
24 heritage areas for fiscal years 1997 through 2002, and discussed 
this information with the executive directors and staff of each area. 
As of mid-March 2004, two heritage areas had not provided us with 
funding data. To verify the accuracy of the data we obtained from these 
sources, we compared the data provided to us with data included in the 
heritage areas' annual audit and other reports that we obtained from 
the individual areas and the Park Service regions. We also discussed 
these data with the executive directors and other officials of the 
individual heritage areas and regional office officials.
    To evaluate the processes for holding national heritage areas 
accountable for their use of federal funds, we discussed these 
processes with the national coordinator and regional officials, and 
obtained information and documents supporting their statements.
    To determine the extent to which, if at all, private property 
rights have been affected by these areas, we discussed this issue with 
the national coordinator, regional officials, the Executive Director of 
the Alliance of National Heritage Areas--an organization that 
coordinates and supports heritage areas' efforts and is their 
collective interface with the Park Service--officials of the 24 
heritage areas, and representatives of private property rights advocacy 
groups and individuals, including the American Land Rights Association, 
the American Policy Center, the Center for Private Conservation, the 
Heritage Foundation, the National Wilderness Institute, and the Private 
Property Foundation of America. In each of these discussions, we asked 
the individuals if they were aware of any cases in which a heritage 
area had positively or negatively affected an individual's property 
rights or restricted its use. None of these individuals were able to 
provide such an example.
    In addition, we visited the Augusta Canal, Ohio and Erie Canal, 
Rivers of Steel, Shenandoah Valley Battlefields, South Carolina, 
Southwestern Pennsylvania (Path of Progress), Tennessee Civil War, and 
Wheeling National Heritage Areas to discuss these issues in person with 
the areas' officials and staff, and to view the areas' features and 
accomplishments first hand.
    We conducted our work between May 2003 and March 2004 in accordance 
with generally accepted government auditing standards.

    Senator Thomas. Okay. Thank you, gentlemen. I appreciate 
that very much.
    So, Mr. Jones, you do have draft legislation. Is that 
correct?
    Mr. Jones. Yes it is, Senator. And it addresses all of the 
issues that have been raised by the GAO in their draft report. 
Our comments on their report have been generally that we agree 
with their conclusions and feel that they are right on point as 
far as some of the things that need to be fixed.
    Senator Thomas. I see. In terms of oversight, does the Park 
Service have oversight beyond the time that there is a 
contribution of Federal money or does it end? How does that 
work?
    Mr. Jones. The Heritage Areas we have to date are a variety 
of mixes of entities. Some of them actually have National Park 
Service employees who work full-time at a given Heritage Area; 
others do not. Each Heritage Area from an oversight 
responsibility is assigned now either for regional office 
oversight or if there is a nearby National Park System unit to 
provide oversight for what those are at the Heritage Area.
    In Washington, with me today is Brenda Barrett, who is our 
entire Heritage Area program staff.
    Senator Thomas. Really? Well if, as we generally say, these 
are local initiatives, they are, in your report, funded largely 
by private sector, once the Federal funding is over, usually 10 
years, you said fifteen, then why should the Park Service have 
any oversight?
    Mr. Jones. It should be at a most general term in that a 
Heritage Area, we find, consistent is that they want to be able 
to use the National Park Service arrowhead and be associated 
with the National Park Service and the National Park System. 
Again, there are variations from area to area.
    Senator Thomas. Yes.
    Mr. Jones. And so therefore as an ongoing relationship, 
technical support, advice and to ensure that they're doing a 
good job.
    Senator Thomas. Yes.
    Mr. Jones. But certainly after an area has graduated from 
the program our involvement should be very minimal after that 
date.
    Senator Thomas. So the use of the designation is probably 
one of the most important things to many of these groups.
    Mr. Jones. Not to all but to many.
    Senator Thomas. How specific can you be with national 
significance? Who makes the judgment on national significance?
    Mr. Jones. Well, ultimately the decision would be made here 
in the Congress as to whether they would choose to enact 
legislation designating it. In our proposed legislation we have 
laid out a series of some ten different criteria that would 
determine recreational, cultural, historic significance, a 
variety of factors that would be taken as a whole to determine 
whether an area has national significance. We certainly have 
looked at some areas in the past that may have important state 
or local significance, and then we would feel in those cases 
they should not be National Heritage Areas; there should be 
some national significance to be designated as a National 
Heritage Area.
    Senator Thomas. I suppose that is a variable criteria, 
national significance; some people think it would be and others 
would not. But nevertheless. We have had more applications for 
Heritage Areas in the last several years? We are seeing 
increasing numbers?
    Mr. Jones. Yes, Senator. In addition to the various bills 
that have been introduced and are before this committee, we 
have four formal studies going on. And sometimes the studies 
are done by us, sometimes they are done totally by a local 
organization in consultation with us.
    Senator Thomas. I see. Actually, there have been some that 
have not had studies, is not that correct?
    Mr. Jones. That's correct. Some of the Heritage Areas have 
just been incredible, wonderful success stories that I think 
have done a good job locally and have protected areas of 
national significance that are best in a Heritage Area as 
opposed to, as you might recall, some of the concept of when 
the Heritage Area philosophy was developed was in lieu of 
creating more units of the National Park System where areas had 
significance, but not of the level that would merit inclusion 
in the National Park System. We have also had some Heritage 
Areas that have been less successful and either through the 
lack of a good, solid management entity who is ready and 
capable of taking it on; in some cases where insufficient plans 
have been done to really guide the direction in which they want 
to go. And so our legislation, we hope, would provide some 
clear sideboards as to what are the steps to go through.
    Senator Thomas. Well, we appreciate you having it ready.
    Mr. Hill, is your review available now for public 
distribution?
    Mr. Hill. Yes, it will be available. I mean, the fact that 
I'm testifying will release the testimony, and it will be 
available on our web site either later today or first thing in 
the morning.
    Senator Thomas. I see. Okay, that is good. Well, I 
appreciate the efforts that you made on that.
    Mr. Hill. Thank you.
    Senator Thomas. What would you say is the most significant 
finding that you have as a result of this study? Or lack of 
what is needed?
    Mr. Hill. I think what we found was, the thing that 
concerned us the most is there's a lack of an effective process 
for overseeing activities of the Heritage Areas. And in 
particular for tracking and accounting for the flow of funds 
that are provided and funds that are used by the Heritage 
Areas. The Park Service does not maintain data in terms of the 
amounts--at least Federal funds--that are going to the Heritage 
Areas. We had to go to the Heritage Areas, all 24 of them, to 
try to collect that information. And there's a lot of money 
flowing into these Heritage Areas, half of which is coming from 
the Federal Government. We're a little concerned about the lack 
of accountability over those funds, both in terms of the 
receipt as well as, you know, how these funds are being used 
and are they being used in a way that they're cost efficient 
and cost effectively achieving the objectives that these 
Heritage Areas were set up to serve. And then, of course, it's 
already been mentioned that we're concerned about the criteria 
being used for designating these areas. It's not very clear 
what the standards and processes are that are being used for 
reviewing and approving this management plan. We went to the 
three regions that had reviewed these management plans; they 
were using various criteria for doing it. And I think there's a 
need for some clear and consistent guidance in terms of what 
these management plans are supposed to be containing. And then, 
also, we're concerned about the lack of performance goals and 
measures. Here again, from a GPR standpoint--Government 
Performance and Results Act--you really need to clearly lay out 
what the goals are, not only for the program or the activities 
that the Park Service is overseeing but also for the Heritage 
Areas themselves in order for Congress and others to see what's 
going on here and determine whether or not they're achieving 
what they are supposed to be set up to do.
    Senator Thomas. It is a little unclear, you know. We start 
here with the premise that these are largely local and on-the-
ground support, and your figures, Mr. Jones, of the $900 
million, apparently are the full-time. Yours are from 1997 on, 
is that correct?
    Mr. Jones. That's correct.
    Senator Thomas. Because you have different figures as to 
what the Federal Government has contributed compared to the 
privates. But it is a little unclear. Maybe it is just the 
significance of the title but if once the Federal payments are 
over you both seem to think there ought to be continuing 
requirements of management and so on. Once the Federal 
Government is not in it financially, how do you justify the 
Park still having oversight?
    Mr. Jones. We would see the oversight in a very limited 
way, much in the way we have now with national landmarks and 
national historic landmarks. It's more of a periodic annual 
review and report of what they're doing so that we know what's 
going on.
    Senator Thomas. Based on the authority that it is called 
the National Heritage?
    Mr. Jones. Yes. And I differentiate that as opposed to a 
much higher level of oversight because I agree with the 
comments from the GAO that we do have to make sure that when 
there are the Federal dollars flowing to the area that those 
dollars are spent correctly.
    Senator Thomas. Sure. There is no question about that. You 
define the culture of the criteria, Mr. Hill. How do you 
enforce that to continue and to continue to be? Is that through 
your management plan? Is that it?
    Mr. Hill. I'm not sure I understand the question.
    Senator Thomas. Well, you have a criteria.
    Mr. Hill. Right.
    Senator Thomas. And over 10 years that criteria is no 
longer part of the management scheme, things have changed.
    Mr. Hill. Right.
    Senator Thomas. Then what do you do?
    Mr. Hill. Well, I think these things could be revised. I 
think the management plans and the cooperative agreements, if 
there is a change in direction or as these Heritage Areas are 
being developed there's a little wrinkle or a curve, I think 
the Park Service has a responsibility to at least annually 
revisit the cooperative agreements and make sure that the 
direction these things are taking are consistent with the 
original intent of the activity.
    Senator Thomas. The cost to the Park Service is more than 
just the amount of dollars that goes to the heritage sites; 
oversight, staff, people working there, those are all costs to 
the Park Service, is not that right?
    Mr. Jones. Yes, it is.
    Senator Thomas. It is kind of interesting, your map there. 
First of all, I understand most of the Heritage Areas are in 
the East, which I understand, since Wyoming is half-owned by 
the Federal Government anyway, so I guess it is easier to do 
that. But I see some huge purple things there in states that 
have very large parks and tourist service and other kinds of 
things. It is kind of interesting that it would be that way.
    All right. I had another question but it slipped my mind. 
That is all right. Well, thank you very much. I appreciate your 
having a proposal there and certainly, Mr. Hill, we appreciate 
what you all have done because I think you are doing exactly 
what we had hoped would happen and that is to establish a 
criteria and a plan so that we can look forward to the future 
the way it is now. Thank you.
    Mr. Jones. Thank you.
    Mr. Hill. Thank you.
    Senator Thomas. There may be some other questions from 
other members in the next few days, and we will leave the 
record open for a little while.
    Mr. Jones. Thank you.
    Senator Thomas. Okay, on panel two we have Augie Carlino, 
president of the Rivers of Steel Heritage Area; Mr. Edward 
Sanderson, president of the National Conference of State 
Historic Preservation Officers; Carol LaGrasse, president of 
Property Rights Foundation; Dr. Lisa Benton-Short, assistant 
professor of Geography, George Washington University, and Mr. 
Dennis Frenchman, Department of Urban Planning, Massachusetts 
Institute of Technology. Thank you all for being here. Again, 
we would like you to express your views and if you can, fairly 
concisely. Your entire statements will go into the record.
    Mr. Carlino, would you begin.

 STATEMENT OF AUGUST R. CARLINO, PRESIDENT AND CEO, RIVERS OF 
     STEEL NATIONAL HERITAGE AREA/STEEL INDUSTRY HERITAGE 
                   CORPORATION, HOMESTEAD, PA

    Mr. Carlino. Thank you, yes sir. Mr. Chairman, my name is 
August Carlino, I'm president and CEO of Rivers of Steel 
National Heritage Area, managed by the Steel Industry Heritage 
Corporation in Homestead, Pennsylvania. I'm also here today as 
chairman of the Alliance of National Heritage Areas, which is 
an organization that's made up of the 24 National Heritage 
Areas plus other partners in heritage development. I think a 
lot of my testimony at the beginning was covered by the 
previous two witnesses fairly well. I won't reiterate that but 
maybe if I could just go to some of the views of Heritage Areas 
and how they work, basically on the ground in the regions. 
While there are some inconsistencies with Heritage Areas they 
all do share five fundamental goals. That is to conserve 
historic and cultural resources; to conserve natural areas and 
enhance the development of recreational resources; to develop 
educational interpretive programs and resources; to help 
stimulate heritage tourism and the economic redevelopment of 
communities and to establish partnerships to help steward and 
manage the resources that are being protected.
    Given these goals, each Heritage Area might prioritize 
their work in different ways. For example, some may focus 
primarily on tourism or interpretation while others may look 
toward historic preservation and community revitalization. But 
all five of those goals are fairly consistently sought by all 
of the Heritage Areas. Over the past 20 years as you have said 
and the previous witnesses have said, this program has grown 
considerably but I think it's good in a way. In my opinion, 
there are probably few government programs that can point to 
such broad success and growing levels of accomplishment as the 
Heritage Areas. At the outset of their creation few would have 
predicted that but they are popular and they are growing and 
not just at the national level but at State and local levels. 
Heritage Areas are upheld as some of the best examples of how 
government and local communities can work together in 
partnership and they're recognized for their entrepreneurial 
practices and encouraging private sector development while 
protecting and conserving significant historic and cultural 
resources.
    We've heard the numbers from both the National Park 
Service, Mr. Jones and Mr. Hill; I would basically just ask the 
simple question, there probably again few Federal programs that 
can return that level of investment and with the investment 
that's provided by the Park Service money as seed. And I think 
that's done for a couple reasons. One is the National Park 
Service money is often the first money in on these Heritage 
Area projects. And so it's not only providing the critical seed 
that we can use to go out and leverage other funding from 
either other Federal agencies or State and local government or 
private sector but also gives a level of credibility. And 
that's why the Park Service's role as a partner with us is so 
important in the work that we do. Heritage Areas, as the GAO 
report states, and we have not had a chance to see the report 
but at least I've heard, and as the testimony stated, they are 
not Federal land control or zoning practices and no Heritage 
Area has violated private property rights. Fundamentally, it 
won't and can't work within Heritage Areas. The Heritage Areas 
have an extremely deliberative process of developing programs 
and projects with their community partners. And if a property 
owner does not want to be involved then Heritage Area basically 
can't provide grant money or any type of other support of 
counsel or conservation to that site, if the property owner 
doesn't want to be involved.
    Feasibility study and management planning are critical to 
the Heritage Areas. I'd like to make a couple of 
recommendations as you consider what programmatic legislation 
might be for what the steps should be in order to make a 
Heritage Area's program successful. First, the Alliance of 
National Heritage Areas would recommend that all planning 
should be completed before designation, not just feasibility 
study but management plan, too. We think that gives you, the 
Congress, the best amount of information at your hands in order 
to make the determination of whether or not an area should be 
designated as a National Heritage Area.
    We believe that Heritage Areas, once they're designated, 
should receive direct funding from the Park Service through 
their appropriations; that is, through the cooperative 
agreements. We've heard it proposed by some that there might be 
a grant program established for Heritage Areas, a competitive 
grant program. We think that would break down the relationship 
of how the Heritage Areas work with the partners and basically 
strip the management entities of their roles and 
responsibilities.
    We believe that Heritage Areas should be able to be 
reauthorized. They have a lot of work that can't be done, 
necessarily, in the 10 or 15 years but that if the Congress had 
information to its avail at the end of the program that the 
Park Service and the Congress agreed, that Heritage Area should 
be or could be considered for reauthorization.
    There must be a test of national significance. If there 
isn't any national significance found then it doesn't need to 
be a National Heritage Area but there are other programs at the 
State or local levels.
    And there's a couple of other suggestions here. I see the 
light blinking. Just one other, if I can make. I think the Park 
Service needs to be appropriated sufficient funding in order to 
administer the program. Right now funding only exists, as Mr. 
Jones has said, for Washington-area staff and other funding is 
used by the regions within the Park Service for staffing that 
is provided as technical assistance. But that's inconsistent. 
And the levels of staff assistance provided to the 24 areas is 
inconsistent within all the areas. So I think that is important 
that they have sufficient funding to administer the program.
    I won't elaborate any further, Mr. Chairman. I'll be happy 
to answer any questions you might have.
    [The prepared statement of Mr. Carlino follows:]

Prepared Statement of August R. Carlino, President and Chief Executive 
Officer, Rivers of Steel National Heritage Area/Steel Industry Heritage 
  Corporation, Homestead, PA, and Chairman of the Board, Alliance of 
                National Heritage Areas, Washington, DC

    Mr. Chairman and distinguished members of the Committee, my name is 
August R. Carlino. I am the President and Chief Executive Officer of 
the Steel Industry Heritage Corporation, the management entity of the 
Rivers of Steel National Heritage Area located in and around Pittsburgh 
and parts of southwestern Pennsylvania. I am also here today testifying 
in my capacity as Chairman of the Alliance of National Heritage Areas, 
an organization whose membership includes, among others, the 24 
congressionally designated NHAs. I appreciate the opportunity to appear 
before the Committee today to discuss National Heritage Areas, their 
growing popularity, and the possibility of programmatic legislation for 
NHAs.
    In the last two decades, heritage areas have grown from a nebulous 
concept to a powerful national movement. Heritage areas span a wide 
spectrum of activities. They can range from a single effort to save a 
group of historic buildings to a multifaceted approach to regional 
conservation, preservation, tourism and economic revitalization--or 
heritage development, as the industry defines it today. Heritage areas 
can be located in one neighborhood, or they can be multi-
jurisdictional, crossing the boundaries of counties and even states. 
Heritage areas can be fostered by the philanthropy of an individual, or 
by the collective participation of foundations, businesses and 
governments in a regional project. Our latest estimate indicates that 
heritage areas have sprouted in more than 150 places throughout the 
U.S. This ``niche'' in the preservation industry has become the 
catalyst for the creation of investment and economic development 
strategies in a number of states and through the federally-sponsored 
initiatives in the National Heritage Areas with National Park Service 
and many other federal agencies and departments.

                   HISTORY OF NATIONAL HERITAGE AREAS

    The origin of National Heritage Areas dates to the 1980s, with the 
first NHAs designated by the Congress as experiments that involved 
local constituencies as the primary stewards for the protection of 
resources. This new conservation strategy was a clear departure from 
the Department of Interior, and specifically the National Park Service, 
from owning and operating historic and natural resources that made up 
the NHA. Over the ensuing years Congress created a handful of other 
NHAs.
    In the mid-1990's the idea of NHAs as a ``new'' approach to a 
comprehensive conservation and community development strategy began to 
emerge. Pushed in part by the emergence of several state heritage 
programs, local efforts sprouted in many states, with most in the 
eastern United States. The organizers of heritage areas became more 
politically astute and several sought congressional designation as 
NHAs. Legislation was proposed to create a group of NHAs along with a 
program for them to exist within the National Park Service; however, 
after several attempts at passage in the 103rd Congress, the 
programmatic legislation failed. Having been reintroduced in the 104'h 
Congress the legislation was stalled, but at the eleventh hour of the 
second session of the 104th Congress, the program language was stripped 
from the National Heritage Area bill, and the proposed NHAs were 
packaged within a larger omnibus parks bill that ultimately passed 
Congress and was signed into law. Thus, the failure of programmatic 
legislation to pass reinforced the process today under which NHAs are 
currently designated--NHAs are designated individually without any 
overarching program or regulation. Today, the Congress has created 24 
NHAs. At the mid-point of the 108th Congress, legislation is pending to 
create at least four new NHAs, with several dozen other bills proposing 
planning studies as potential NHAs.

                             HOW NHAS WORK

    From New England to the deep south, through the mid-west and now 
advancing to the far west, citizens have come together to conserve 
their heritage, create recreational resources and protect greenways, 
all working to conserve and interpret their heritage, to develop a 
sense of place that helps increase the value of property and improve 
the quality of life in their neighborhoods and communities. Not every 
NHA is the same. Initially, some might question that, but further 
examination shows that NHAs are as unique as the resources they work to 
conserve. Each NHA shares a fundamental philosophy to achieve five 
specific goals:

  <bullet> to conserve historic and cultural resources
  <bullet> to conserve natural and enhance the development of 
        recreational resources
  <bullet> to develop educational and interpretative resources
  <bullet> to help stimulate heritage tourism and economic development
  <bullet> to establish partnerships to help steward the advancement of 
        the heritage area

    Given these goals, each NHA might prioritize them in different 
ways, focusing on, for example, tourism and interpretation, over 
historic preservation and community revitalization; however, all of the 
goals for the NHA will be addressed in one way or another.
    National Heritage Areas are special places in America, merging 
community resources to promote conservation and community and economic 
development. They harness a wide range of community assets and 
interests--from historic preservation, outdoor recreation, museums, 
performing arts, folk life and crafts, and scenic and working 
landscapes, to grassroots community-building activities, that, when 
combined, create a sum greater than its parts.
    NHAs celebrate the special character and culture of places in the 
United States. They are neither urban nor rural and often include 
communities and sites throughout a region. Typically, NHAs work to 
protect historic and cultural resources while encouraging development 
for tourism and other economic opportunities. NHAs illuminate the 
history and culture of a region so those people within the region feel 
proud of their heritage and those who visit come away with an 
appreciation of the cultures of the region.
    Few government programs can point to such success and broad, 
growing levels of accomplishment as National Heritage Areas. At the 
outset of their creation, few would have predicted that NHAs would be 
as popular as they are today. NHAs are upheld as some of the best 
examples of how government and local communities can work together as 
partners. NHAs are recognized for their entrepreneurial practices 
encouraging private sector development while protecting significant 
historic and cultural resources. NHAs are clearinghouses for dialogue 
between varieties of divergent interests. These dialogues, often 
organized as town meetings--create opportunities for people to come 
together to voice their opinions, helping to provide a forum for all 
interests in the community, while working toward a consensus within the 
community for progress.
    NHAs combine a variety of funding partners--even at the federal 
level. The funding provided through the National Park Service is 
usually the first dollars to be invested into the project, providing 
not only the seed investment, but also credibility to the NHA. Over the 
years, NHAs have demonstrated an amazing ability to raise matching 
funds to these NPS dollars, with additional funding secured through 
other federal grants, from state and local government grants, and from 
foundations and private investors. Throughout the funding community, 
both public and private, NHAs have witnessed steady, if not increasing, 
support for the projects and programs that are central to their 
missions. Federal support to the NHAs through NPS appropriations has 
steadily increased from $8.6 million in Fiscal Year 2000 to $14.5 
million in Fiscal Year 2004. What NHAs do with this money is even more 
impressive. For example, in Fiscal Year 2003 Congress appropriated 
almost $12.5 million to NHAs. In turn, NHAs parlayed those funds into 
an additional $75.5 million--or a one-to-six return on the initial 
investment. Since the inception of NHAs in the mid-1980s, congressional 
appropriations have amounted to $107 million. These funds have 
leveraged an incredible $929 million, or more than $8.50 for every 
$1.00 in NPS funds, and have paid for historic preservation projects, 
tourism initiatives, and educational and interpretive programs, among 
other initiatives, within NHAs. It is this relationship of National 
Park Service funding to other financial assistance that makes NHAs so 
attractive to communities. Few other government programs, frankly, can 
make a similar claim on the return on federal funds as investments in 
their programs as the National Heritage Areas.
    NHAs are not federal land control or zoning projects in disguise, 
and suggestions that they might be are without merit and without fact. 
The General Accounting Office's report to the Committee today supports 
my statement. NHAs work to build consensus on heritage projects. NHAs 
make grants, providing funding to applicants wanting to participate in 
the NHA. There is no way possible that any funds in any NHA can be 
provided for a project where a property owner was an unwilling 
participant.

                          ESTABLISHINQ AN NHA

    To become an NHA, the partners working to conserve the region's 
heritage must agree to undertake a planning process that produces both 
recommendations for the heritage area along with a consensus of the 
partners to work together to implement the plan. Planning for NHAs 
occurs in two very distinct steps and can often take years to complete. 
The feasibility plans comprise an inventory of critical resources 
including, but not limited to, historic sites and properties, cultural 
and traditional folk life assets and natural and scenic places. In 
addition, the themes and stories related to the resources and the 
people will be included in the feasibility study. After the initial 
resource inventory, heritage projects should examine the significance 
of their resources, themes and stories. It is this critical test that 
will often separate those projects that will continue to seek NHA 
designation from those which will continue on as local or state 
projects. If the test of national significance were not a part of the 
planning effort, it is conceivable every place in the United States 
could become a National Heritage Area. Finally, the feasibility study 
will identify the necessary community and government partners that must 
be involved in the proposed NHA in order for it to function.
    After feasibility, the heritage area will move on to the management 
plan phase. At this point the management plan will spell out all of the 
requirements necessary to create the National Heritage Area and make 
specific recommendations for its implementation. These recommendations 
will include who will be the management entity, how much funding will 
be necessary to carry out the plan, other potential sources of funds, 
and a listing of projects to undertake over then next 10 years. It 
should be noted that the management plan is not definitive. Over the 
course of its implementation priorities will change and projects may be 
added or deleted. At the end of the 10-year plan, the NHA should be at 
a point where it can assess its accomplishments, and have a bearing on 
what it needs to accomplish over the next 10 years. The flexibility of 
implementation within the NHAs permits each management entity (the 
organization created or selected to oversee the day-to-day operations 
of the NHA) to pursue the recommendations of the plan developed by the 
communities and the regional partners. This flexibility enables the 
partners to focus their strategies for the heritage development in ways 
that will entice and attract funding for their efforts. This 
flexibility is critical to the implementation of the NHAs management 
plan.

              RECOMMENDATIONS FOR CREATING AN NHA PROGRAM

    If a National Heritage Area program is developed, it must contain 
certain requirements for adequate government oversight along with 
enough flexibility to meet the regional needs of each individual NHA. 
Therefore the purposes of a program must be broad and encompassing and 
must meet, at least, the following three objectives:

  <bullet> recognize the distinctive regional combinations of natural, 
        historic and cultural resources and recreational opportunities 
        in the United States and the nationally significant themes and 
        stories of the regions that serve as a framework for 
        understanding the development of the nation;
  <bullet> conserve those areas worthy of national recognition, 
        designation and assistance;
  <bullet> encourage partnerships among all levels of government--
        federal, state and local--along with non-profit organizations, 
        foundations and the private sector to conserve and manage the 
        heritage of the NHA and to enhance the quality of life for the 
        present and future generations of the nation.

    Specifically, I am respectfully requesting that this Committee and 
the Congress consider the following recommendations for a National 
Heritage Area program:

    1. National Heritage Area designation must come after planning. 
Recently, the process of designating NHAs has occurred in reverse, with 
the designation by Congress first, and then the necessary inventories, 
themes and other planning developed after. This creates two problems: 
first, the Congress has little information to base its decision on for 
the initial designation; therefore, the resulting NHA could contain few 
historic or cultural resources, may lack the public's support, or may 
indeed lack national significance. Second, placing designation in 
advance of the plan often will redirect most if not all of the NPS 
appropriations to planning, instead of the investment in the resource 
conservation and development. Congress could designate heritage areas 
as ``planning areas'' first and provide a small amount of funding to 
help seed the planning process, then, when the feasibility and 
management plans were complete, Congress, with the completed plans and 
recommendations, would have a more thorough assessment of the proposed 
NHA.
    2. Funds must continue to be appropriated directly to the NHAs and 
released by the NPS through a cooperative agreement. Funding cannot be 
released to NHAs through annual grants. Under the current structure, 
NHAs develop projects and establish the prioritization for their 
funding based upon the recommendations of the management plan, and 
through a cooperative process with the local partners. If a program 
were created that made the appropriations to NHAs only available 
through competitive grants, the responsibility of management of the NHA 
would shift entirely to a government agency--the National Park Service, 
and the management entity would have little purpose. Furthermore a 
grant program will remove from the process one of the fundamental 
elements that NHAs create--the direct link to establishing funding 
priorities in the NHA by the public/private partnership and that 
partnership's ability, as it exists now, to communicate those needs 
directly to their members of Congress. NHAs are successful because they 
connect people to their government and to the process of obtaining 
government funding for projects they feel are important to their 
communities. To sever this tie now, and make funding for NHAs available 
only on a grant process as determined by a bureaucracy undercuts the 
spirit of involving the citizenry in, and instilling in them the 
responsibility for, the development of their NHA.
    3. NHAs must be able to be reauthorized. Some proposals for 
creating an NHA program have suggested limiting the NHA to only 10 
years of authorization and funding, after which the NPS appropriations 
will be cut off. The astounding ratio of match money to the NPS 
appropriations is, in part, a result of the federal government's 
willingness to invest in the heritage projects first. This seed money 
helps the NHA attract other investors, both public and private. If the 
other investors know the NPS funding will cease at the end of the 
authorization, it will be difficult, if not impossible, to convince the 
other public and private funders that the project is worth the 
investment. Additionally, if the NPS authorization ends, the 
designation of ``national'' will continue, creating confusion in the 
public's mind of the relationship of the heritage area to the National 
Park Service. Finally, NHAs projects could continue long after the 10-
year authorization. Congress should provide for itself the opportunity 
to review each NHAs work at the end of each authorization period for an 
NHA and then, with a new plan from the NHA for the next 10 years, make 
a determination if the NHA should be reauthorized to continue its work 
in the community.
    4. NHAs must meet a test of national significance. Simply stated, 
if there is not a nationally significant theme or collection of 
resources, the heritage area should not be designated as a National 
Heritage Area
    5. The National Park Service should appropriate sufficient funding 
for administration of the program. No program within the government can 
properly function without adequate support from the professional staff 
of the agency that administers the program. NHAs have been incredibly 
successful, in part due to the determination and cooperation of the 
partners within each area. The NHAs have succeeded, too, because of the 
strong support they receive from the National Park Service, both in 
Washington and in the regional offices. For the National Heritage Area 
program to continue, funding must be provided on an annual basis to the 
NPS for staffing and technical support to both the existing NHAs and 
those that will continue to be created. Currently, funding only exists 
for one-and-one-half staff members in the Washington office. Funding 
for technical assistance through the regional offices of NPS often 
comes at the expense of the NHAs as a deduction from their annual 
appropriation. This practice not only robs the NHA projects of funding, 
but it also creates little ability for the NHA to ensure it receives 
the appropriate staff support from NPS for the dollars that come off 
the top of the appropriation. Thus I would suggest the program provide 
an amount each year to Washington and to the regional offices to for 
the necessary technical assistance to the NHAs and administration of 
the NHA program.
    6. Congress should encourage other federal agencies to partner with 
NHAs. National Heritage Area projects include a wide variety of 
initiatives, and are not solely focused on historic preservation or 
natural resource conservation. NHAs work with schools to help students 
learn about their heritage; they help rebuild old downtowns and 
neighborhoods; they can help redevelop old factories and brownfield 
sites. The breadth of the NHAs projects could attract other federal 
agencies and departments, like Education, Commerce, Environmental 
Protection, Housing and Urban Development, just to name a few. 
Encouraging other departments and agencies to invest in NHAs will help 
the NHAs entice other investors, and it will help lessen the burden on 
the limited, but critical, annual NPS appropriations.
    7. NHAs should be made, at least, affiliated units of the NPS. 
Currently NHAs exist as orphans within the National Park Service. 
Despite all of the technical assistance and support from the regional 
and Washington offices, NHAs are left with inconsistent policies to 
follow, varying between regional offices. Under the current system, for 
example, NHAs cannot use the NPS Arrowhead without permission of the 
NPS, and release of the annual appropriations to each NHA is 
inconsistent. More importantly, budgeting for NHAs within the NPS is 
often an afterthought, as evidenced by the Fiscal Year 2005 budget that 
requests only $2.5 million overall for the 24 NHAs.

                               CONCLUSION

    Each year has seen lawmakers moving to create more heritage areas--
growing from only three in the 1980s, to the 24 that exist at the end 
of 2003. In addition, Congress could possibly create a program for 
NHAs, which will for the first time provide uniform guidelines and 
policies for the establishment of NHAs.
    All these facts beg the question: if National Heritage Areas are so 
bad as some testifying today would want us to believe, why are more 
people looking for ways to create them for their communities and 
regions? The answer is simple. National Heritage Areas are one of the 
best federal initiatives created in decades. With their deliberative 
and sometimes exhausting public involvement process, their planning 
exercises that are inclusive of all elements of the community, and 
their growing support from all levels of government, anyone who wants 
to be involved can be. NHA can point to successful projects and 
partnerships at many different levels of the community. It is that 
fundamental philosophy that makes NHAs so desired and successful, and 
what Congress has the opportunity to make permanent through legislation 
creating a program for their designation and operation.
    Again, Mr. Chairman, I appreciate the opportunity to testify before 
the Committee, and I am happy to answer any questions that you, or 
other members of the Committee, might have.

    Senator Thomas. Thank you very much.
    Dr. Benton-Short.

       STATEMENT OF LISA BENTON-SHORT, Ph.D., ASSISTANT 
    PROFESSOR OF GEOGRAPHY, THE GEORGE WASHINGTON UNIVERSITY

    Dr. Benton-Short. Mr. Chairman, thank you for inviting me 
to speak today. My name is Lisa Benton-Short and I'm assistant 
professor of Geography and director of the Center for Urban 
Environmental Research at the George Washington University. And 
for the last 10 years my research has really focused on the 
challenges and opportunities facing our national parks. So 
today I bring to you my expertise and understanding how the 
non-traditional types of parks fit within the broader context 
of the Park System and the often unique challenges they face. 
And I just want to cover three ideas today.
    First, I agree with the GAO report that the ambiguous 
concept of heritage as it has been defined in this program 
could hinder its success. Heritage is a very vague and hazy 
concept and I do find it worrisome that there is no legislative 
criteria that exists for designation in the National Heritage 
Areas Program. Without at least a working definition of what 
criteria define a National Heritage Area it's likely that the 
process of designating and protecting these special places 
could become compromised or worse these places could become so 
diluted that they become meaningless.
    Now, I suspect that any definition of cultural heritage is 
likely to need modification over time but perhaps we could at 
least start with something concrete. So I think before we talk 
about expanding the Heritage Areas we should definitely have 
some serious and thoughtful discussion on the meaning of this 
very elusive term.
    Second, on a more positive note, I see promising 
opportunity for a well-defined concept of Heritage Areas to be 
included in the National Park System. Our national parks and 
the Park Service are, without a doubt, the world's leading 
system for designating and protecting heritage at the national 
level, and if there's any one agency skilled enough to 
effectively protect heritage, it's the Park Service. But I 
agree they must be allocated enough resources,both personnel 
and money, to do this without taking away from the other Park 
units under their stewardship.
    My third point is that there are some potential challenges 
facing National Heritage Areas as I have found to be true for 
many non-traditional parks in the Park System. Expanding this 
program, especially formalizing them perhaps as park units, 
might be inconsistent and ambiguous term of heritage with 
indefinite funding could make National Heritage Areas the 
newest ugly stepsister of the Park System. And I should explain 
that a little bit. Let me tell you why. It has to do with 
understanding the history of national parks and what many refer 
to as the ``national park ideal.'' Most of you here have heard 
of the term ``crown jewels,'' and this is a term that's 
reserved for the select national parks--Yellowstone, Yosemite, 
Grand Canyon. These are natural wonders with dramatic 
topography, falling waterfalls and spectacular scenery. These 
were among our first national parks designated and they have 
come to represent the national park ideal in the American 
imagination. This remains true today even in the 21st century, 
despite 100 years of increasing diversity and complexity in the 
National Park System.
    My research has focused especially on the urban park units, 
and as many of you know, in the 1970's a new category of parks 
were added, titled ``urban recreation areas.'' For example, the 
Golden Gate National Recreation Area or the Gateways. Some in 
the Park Service at the time derided them as playgrounds or 
outdoor gyms, not worthy of inclusion in the Park System. And 
partly because these urban parks floated ambiguously outside 
the National Park ideals epitomized by the natural area parks 
in the crown jewels. And I wrote a book about the struggle to 
approve the management plan for the Presidio Army Post of San 
Francisco as it transitioned from an Army post to the national 
park, and I uncovered an unspoken but very entrenched bias 
against the urban and non-traditional parks within the Park 
System. Some in the Park Service at the time argued vigorously 
against the inclusion of the urban recreation areas, not only 
because it would stretch their already-thin budgets but because 
they felt that the non-traditional parks would, and I quote 
from a former NPS director, ``thin the blood of the Park 
System.'' So some in the Park Service do embrace and value our 
urban and non-traditional parks but some do not. And so every 
time we add a new category of parks we should do so very 
carefully, because they are likely to be met, in some ways, 
with resistance and possibly even hostility.
    I think the National Heritage Areas are much like the urban 
units in that they are neither all natural nor all cultural 
entities; they are a combination of both. And oftentimes 
they're in urban areas. These will be challenges that the 
program will face if it expands. They are certainly more 
complex places than other parks added earlier into the Park 
System; they may even appear contradictory to the National Park 
ideals of pristine wilderness and open vistas, especially true 
if a Heritage Area contains environmentally contaminated land 
prior to remediation or redevelopment. And so there could be 
the risk of a bias that could result in disproportionate 
allocations of personnel, money and sentiment.
    So let me just conclude that I'm a very firm supporter of 
protecting heritage and I have high regard for the Park Service 
and the role it does in protecting our cultural and natural 
heritage. And as we think about the National Heritage Area 
Program, I see it as a real challenge and an opportunity that 
we should thoughtfully discuss and debate.
    Thank you and I'll take your questions.
    [The prepared statement of Dr. Benton-Short follows:]

   Prepared Statement of Dr. Lisa Benton-Short, Ph.D., Director, The 
    Center for Urban Environmental Research, The George Washington 
                               University

    Mr. Chairman and members of this committee, thank you for inviting 
me to speak today. I am Lisa Benton-Short, an assistant professor of 
Geography and Director of the Center for Urban Environmental Research 
at the George Washington University. As a geographer, I have spent the 
last 10 years researching the challenges and opportunities facing our 
national parks. I believe and support the very important role national 
parks play in communicating our nation's story--both of the natural 
environment and cultural heritage. Yet I am also aware of the limited 
ability of the national parks to expand indefinitely.
    I bring to you my expertise in understanding the role of non-
traditional parks of the park system: how they fit within the broader 
context of the system, and the unique challenges they face. My comments 
today reflect my understanding of the context in which the National 
Heritage Areas program is situated: the national park system.
    There are three ideas I will discuss this afternoon.
    First, the ambiguous concept of ``heritage'' and how it is applied 
in this instance could hinder the success of the National Heritage 
Areas Program. ``Heritage'' is a vague and hazy concept. For example, 
the term cultural heritage can describe monuments, architectural 
remains, art, and buildings. Natural heritage describes gardens, 
landscapes, rivers, mountains and flora and fauna. My own research on 
the concept of heritage has shown that what defines heritage has 
shifted over time, as we become aware of the complexity of history. I 
find it worrisome that no legislative criteria exist for designation in 
the National Heritage Areas Program. If the term heritage remains 
vaguely articulated it could be used to describe any cultural landscape 
anywhere in the U.S. Geographers have reported that these last few 
decades have been an era of expanding cultural identities and so the 
number of stories about groups of people and their impact on the land 
has exponentially increased: it may be there are potentially thousands 
of unique and significant landscapes out there waiting to be 
designated.
    Without at least a working definition of what criteria define a 
National Heritage Area, it is highly likely the process of designating 
and protecting important places could become compromised or worse, so 
diluted these places become meaningless. For example, I have also done 
considerable research on the history of UNESCO's World Heritage Program 
which began in 1972. I found the World Heritage Program has had to 
modify definitions of heritage several times during the past thirty 
years. I suspect any definition of cultural heritage is likely to need 
modification, but at least the program should start with something 
concrete.
    For example, one criterion for the Heritage Areas Program is that 
it be determined to be nationally significant. One way to evaluate 
``national significance'' could be to require there to be a 6 month 
long study that gathers visitor information that can be ``geo-coded''. 
For example, asking visitors to the site their zip code of origin. This 
survey would preserve visitor anonymity because it is not necessarily 
asking for names and addresses, and would still allow analysts to map 
the location and determine if there is wider interest outside the 
local. I have supervised this type of survey for the National Mall and 
found that within a6 month time frame each of the 50 states sent at 
least one visitor. This seems to me to indicate a national interest. 
Something like this will help to give concrete meaning to the term 
heritage.
    In my profession, geographers have been studying ``cultural 
landscape'' for a hundred years. Few have agreed on what this means. In 
the 21st century, it has become even more difficult to agree on what 
constitutes a cultural landscape. As the story of our nation grows, so 
too do the places that contribute to that story. Many have argued that 
the entire world is now a cultural landscape: invasive species, 
globalization, and increased migrations means there are no places 
untouched by human activity. Geographers have also debated what we mean 
by such critical heritage concepts such as ``sense of place'' and 
``cultural traditions''. These seem vital to the feasibility study 
outlined in the Park Service guidelines for the program. But how can we 
measure or quantify sense of place?
    If nothing else, I hope to convince you that before embarking on 
the expansion of heritage areas, we need some serious and thoughtful 
discussion on the meaning of these elusive terms. Otherwise, the 
category becomes so inclusive it is rendered meaningless. We'll end up 
with everything including the kitchen sink being designated a heritage 
area.
    Second, on a more positive note, I see a promising opportunity for 
a well-defined concept of heritage areas to be included in the National 
Park system. Our National Parks and the Park Service are the world's 
leading system for designating, and protecting heritage at the national 
level. They have been charged with a very difficult and demanding 
mission: to preserve and protect nationally significant natural and 
historic resources for present and future generations. In 1891, this 
may have not seemed as daunting as it does now. If there is any one 
agency skilled enough to effectively protect heritage, it is the Park 
Service. But they must be allocated enough resources--people and 
money--to do this without taking away from the other park units under 
their stewardship. More and more is asked of the Park Service, yet it 
is also difficult to secure increased appropriations. This is something 
that must be reconciled for the Heritage Areas program to be 
successful.
    Third, there are some potential challenges facing National Heritage 
Areas, as is true for many non-traditional parks with the national park 
system. I understand there are several new proposals. A word of 
caution: expanding this program, particularly with an inconsistent and 
ambiguous definition and with indefinite funding, will make National 
Heritage Areas the newest ``ugly stepsister'' of the national park 
system. This could present real problems--not just in terms of funding, 
but in terms of belonging within the system.
    Let me explain why I say this. It has to do with understanding the 
history of the national parks and what many refer to as the ``national 
park ideal.'' You may have heard of the term ``Crown Jewels''. This 
term is reserved for a select few national parks--Yellowstone, 
Yosemite, Grand Canyon for example. These are natural wonders--dramatic 
topography, falling waterfalls, spectacular scenery. These were among 
the first parks designated and so represent the national park ideal in 
American imagination. This remains true today, despite a century of 
increasing diversity and complexity within the national park system. 
For example, when the Park Service was created in 1916, it did not 
include the cultural heritage sites-such as the Statue of Liberty or 
the battlefields. This didn't happen until the 1930s. And even then, 
some in the park service resisted their inclusion.
    In the 1970s, a ``new category'' of parks--urban recreation areas 
like the Golden Gate National Recreation Area and the Cuyahoga 
Recreation Area were added. However, these park units were often 
referred to as ``non-traditional'' parks. Some in the Park Service 
derided them as ``playgrounds'' and ``outdoor gyms'', not worthy of 
inclusion in the park system. These urban parks floated ambiguously 
outside the national park ideas epitomized in the Crown Jewels. My book 
about the struggle to approve the plan for Presidio of San Francisco 
helped me uncover the unspoken but entrenched bias against urban and 
non-traditional parks within the Park Service.\1\ Some in the Park 
Service argued vigorously against the inclusion of the urban recreation 
areas--not only because it would stretch their already thin budgets, 
but because they felt these nontraditional, non-Crown Jewel type of 
parks would, in the words of a former NPS Director, ``thin the blood of 
the Park System.'' Let us make no mistake about it: some in the Park 
Service embrace and value these urban parks. Some do not. Each time new 
``categories'' of units are added they are met with resistance and even 
hostility.
---------------------------------------------------------------------------
    \1\ Lisa Benton. 1998. The Presidio: from Army Post to National 
Park. Boston: Northeastern University Press.
---------------------------------------------------------------------------
    The challenge facing National Heritage Areas is that much like the 
urban units they are neither natural nor cultural entities. They are a 
little of both. And some may be in urban areas. These will be 
challenges the Program will face if it expands. Heritage areas may be 
complex and unusual places; they may even appear contradictory to the 
national park ideals of pristine wilderness--especially if a heritage 
area contains environmentally contaminated land prior to remediation or 
redevelopment. Some in the park service will wonder whether these are 
places that truly deserve park status. This bias may result in 
disproportionate allocations of personnel, money and sentiment. Still 
other opponents may wonder if the Heritage Areas Program is simply 
urban economic redevelopment projects that belong in HUD. There may be 
some truth to this allegation, especially given the vague criteria and 
purpose of the program as I see it, but I can not comment on the merits 
of this without greater study of the existing and proposed heritage 
areas.
    In conclusion, I am a firm supporter of protecting heritage. And I 
have the highest regard for the heroic job the Park Service does to 
protect our cultural and natural heritage here in the United States. 
The National Heritage Areas Program--if it continues in its current 
form or if it expands will be a challenge and an opportunity that 
should be thoughtfully discussed and debated.
    Thank you.

    Senator Thomas. Thank you.
    Mr. Sanderson.

 STATEMENT OF EDWARD SANDERSON, PRESIDENT, NATIONAL CONFERENCE 
            OF STATE HISTORIC PRESERVATION OFFICERS

    Mr. Sanderson. Thank you, Mr. Chairman. My name is Ted 
Sanderson. I'm the executive director of Rhode Island State 
Historic Preservation Program and I'm currently the president 
of the National Conference of State Historic Preservation 
Officers, the national organization that represents historic 
preservation in each of the states.
    I'll briefly summarize my written testimony and just hit on 
a couple of key points. As we've already heard, the Heritage 
Area concept has been an active conservation tool for about a 
quarter of a century and State Historic Officers has supported 
and been active in Heritage Areas around the country. For 
example, Maryland, Texas and Utah are States where the State 
Historic Preservation office has been the principle agency in 
Heritage Area designation and administration.
    Let me comment briefly on the issue of defining the 
significance of historic areas. The creation of historic areas 
recognizes that there are places, whole regions in our country, 
that retain a historical sense of place, that reveal a coherent 
story of America's history within a preserved landscape that 
has cultural and natural resources. Some Heritage Areas possess 
undisputed national significance for the landmark quality of 
their historic sites and the broad scope of the stories they 
tell about America's past. However, the real meaning of our 
country's heritage is not limited to a few crown jewels and 
parks as we just heard from the previous witness. America's 
heritage is also embodied in the preserved places close to home 
that reflect our regional character and history and that are 
closest to our citizens. I can speak with personal experience 
of a heritage corridor, having served as a commissioner to the 
John H. Chaffee Blackstone River Valley National Heritage 
Corridor since its inception. The Blackstone is a two-State 
corridor that spans 24 communities in Massachusetts and Rhode 
Island. The Blackstone is nationally significant in the 
traditional sense as the birthplace of the American Industrial 
Revolution and one of the first places in the country with the 
widespread use of water power to power industrial factories. 
But Blackstone is just as significant for its wholeness, as for 
some academic definition of national significance. Blackstone 
is an intact cultural ecosystem of historic, cultural and 
natural resources that are related to each other and that give 
Blackstone a unique sense of historic place. The importance of 
historic areas in our country should not be measured by a 
narrow definition of national significance applied to a few 
historic sites, but rather Heritage Areas should be judged by 
the importance of the whole assemblage of the area's historic 
and natural resources and how that assemblage of natural and 
cultural resources tells an important story about a region or 
about the Nation as a whole.
    Next, let me comment about Heritage Area designation 
studies. I agree with other speakers that successful Heritage 
Areas document values and resources that define the Heritage 
Area and this process should happen at the very beginning of 
the application and designation process. Local citizens 
understand using heritage development principles and the means 
to preserve the places that are important to them, and their 
chance of success is increased, not decreased by building 
public support and establishing an action plan before ever 
coming to Congress for designation.
    State Historic Preservation Officers have a great deal to 
offer to the development of Heritage Areas, particularly in the 
initial stages of planning and designation. With Federal 
funding from the Historic Preservation Fund and State funding 
to match, State Historic Preservation programs carry out the 
research and documentation on historic places within each 
State; that's the necessary foundation for a Heritage Area 
designation. And State Historic Preservation Officers have a 
four-decade track record in the successful preservation of 
historic buildings and sites. Unfortunately, low Federal 
appropriates for SHPO activities has left many potential 
Heritage Areas without the data base of information that would 
help them to move more rapidly to the point of deciding whether 
it was appropriate to have a designation or not.
    Finally, let me turn to private property rights, not only 
as a commissioner in a Heritage Area but as a resident and 
property owner. I can report that Heritage Area designation has 
not diminished my right to exercise control over my own 
property within the Blackstone Corridor. For my neighbors and 
my Heritage Area designation by the Congress has provided 
important recognition of the importance and the cultural and 
natural values inherent in our 24 communities. But there's been 
no Federal land acquisition, there have been no Federal 
regulations issued to restrict us in the enjoyment of our 
property. The Blackstone Corridor, like other heritage 
corridors in the country, works with willing partners, public 
and private, to use our resources wisely, whether for education 
and interpretation and conservation or for heritage-based 
economic development, usually through tourism.
    So to conclude, when the first Heritage Areas were 
designated almost 20 years ago there were no other models; they 
were an experiment. But today Heritage Areas are no longer an 
experiment, they're a success. Each Heritage Area has its own 
story of achievement and each is unique, and I think in 
planning for the future of Heritage Areas it's important to 
recognize the uniqueness of Heritage Areas as well as looking 
for common threads. One of those common threads is the idea 
that citizens and their government partners can come together 
to preserve a piece of America's heritage and do it in a way 
that unites a region. I hope that Congress will embrace the 
public's enthusiasm for a Heritage Area program that's 
exemplary of the proper role for the Federal Government in our 
society, and I'd advocate that any new legislation look to 
what's already working best today, set high standards, and help 
this spirit to continue to flourish.
    Thank you Mr. Chairman.
    [The prepared statement of Mr. Sanderson follows:]

Prepared Statement of Edward Sanderson, President, National Conference 
of State Historic Preservation Officers, and Executive Director, Rhode 
         Island Historical Preservation and Heritage Commission

                            I. INTRODUCTION

    A. The heritage area concept has been an active conservation tool 
for a quarter century. The Congress has designated two dozen areas 
around the country. Representatives from the nationally designated 
areas formed the Alliance of National Heritage Areas which is now the 
major non-profit proponent of heritage development. The Alliance now 
sponsors the popular, international heritage rally, next scheduled in 
2005 for Nashville, Tennessee. The Alliance's heritage training courses 
are routinely oversubscribed. State governments have active heritage 
area programs. Local groups are using the heritage development 
principles informally for conservation and community development. One 
estimate indicated that 140 regions in the country considered 
themselves heritage areas.
    B. The National Conference of State Historic Preservation Officers 
has been involved with heritage areas since 1992 when we participated 
in a National Park Service conference in Dallas, Texas. State Historic 
Preservation Officers are and have been major proponents of heritage 
areas. In Maryland, Texas, Utah, for example, the SHPO has been the 
principal agency in heritage area designation and administration. 
Heritage tourism is a major priority in the National Conference's 
strategic plan.
    C. At a hearing in the House of Representatives in 1994, the 
National Conference presented testimony advocating
    1. the establishment of national criteria for heritage area 
designation that allowed for consideration of all of America's historic 
resources and was not limited to the ``crown jewels,'' or those 
resources of national significance;
    2. the seminal importance of adequate preparation and planning 
before designating heritage areas;
    3. partnership, the need to involve more federal agencies than the 
National Park Service, perhaps the establishment of a federal level 
advisory commission; and
    4. support, even thought the funding for the national preservation 
program was, and continues to be chronically low, for continued direct 
funding for heritage areas.
    D. State Historic Preservation Officers have a great deal to offer 
to the heritage development movement:
    1. research and documentation on historic places within the State;
    2. expertise in communication of historic preservation programs to 
government officials and the public;
    3. experience in consensus building; and
    4. a four-decade track record in the successful preservation of 
historic resources.

               II. DEFINITION OF A NATIONAL HERITAGE AREA

    A. A heritage area is a geographically cohesive assemblage of 
historic, natural and recreational resources that convey a unified 
message about America's history at that place and provide opportunities 
for educational and recreational benefits to local residents and 
tourists. Heritage areas do not entail government land acquisition. 
Heritage areas use persuasion to involve residents and property owners 
voluntarily into the project.
    B. Successful heritage areas have the support of the citizens and 
governments within the areas, a well-developed strategic plan in place 
prior to designation, and a sound management entity to coordinate 
activities.
    C. A product of heritage development is resource conservation and 
sustainable, historically and environmentally sensitive economic 
development. Section 2 of the National Historic Preservation Act (16 
U.S.C. 470-1) says it best the federal government shall ``foster 
conditions under which our modern society . . . and our historic 
resources can exist in productive harmony and fulfill the social, 
economic, and other requirements of present and future generations.''

  III. DEFINITION OF NATIONAL SIGNIFICANCE OF NATIONAL HERITAGE AREAS

    A. ``National significance'' raises several difficult questions. 
State Historic Preservation Officers believe that the Nation and its 
programs and incentives should be available to all Americans and apply 
to all of America's historic resources. Nationally significant 
resources are the best known and best protected and least in need of 
the focused planning and attention of heritage areas. New Orleans, 
Louisiana, and the Pennsylvania Dutch Country are two nationally 
significant areas that are doing very well without federal designation. 
On the other hand, the future of the historic resources in the Cane 
River or in the area of oil discovery in Pennsylvania is uncertain-
these are not yet in the forefront of public consciousness and need the 
techniques of heritage development to conserve their significant 
resources.
    B. The ``national significance'' topic may relate more directly to 
a financial resource concern. With the popularity of heritage areas and 
the experience of two-decades of providing $1,000,000 annually to 
heritage areas, some are concerned about the potential drain on the 
federal budget. ``National significance'' can be seen as a way to limit 
the financial outlay by limiting the number of heritage areas. An 
alternative model could involve lessening the requirement for national 
significance, designating more areas and limiting funding either 
through a competitive grants program or through term-limited funding. 
The Nation has many historic areas that could prosper using the 
heritage development model.

 IV. RECOMMENDATIONS FOR ESTABLISHING NATIONAL HERITAGE AREAS AS UNITS 
                      OF THE NATIONAL PARK SYSTEM

    A. The heritage area program does not equate with a ``national-
parks-in-waiting'' concept. Heritage areas are not federally owned land 
administered by federal employees. Heritage areas designation is not an 
ownership scheme rather, heritage areas represent a unified 
interpretative approach to enhancing local assets for the people who 
live and pay taxes there and for heritage tourists, when economic 
development is a goal of the heritage area.
    B. The National Park Service is but one of several federal agencies 
with expertise beneficial to heritage areas. The Departments of 
Agriculture and Commerce are two examples.
    C. Frankly, State Historic Preservation Offices also offer 
expertise in historic research, restoration techniques, and heritage 
tourism practices that can provide close-to-home assistance to existing 
and prospective heritage areas. SHPOs are also the repository of 
information on the location and significance of historic sites. This 
information can form a foundation for educational materials and 
interpretation.

                V. PRIORITIZING STUDIES AND DESIGNATIONS

    A. The concept of prioritizing studies and designations connotes a 
``top down'' federal control concept that does not mesh with reality. 
Successful heritage areas follow the ``bottom up'' model. Local 
citizens understand using heritage development principles ad the means 
to conserve the places important to them. Their chance of success is 
increased if they build public support and establish an action plan 
prior to going to Congress for designation. Heritage area success is 
dependent upon local support and local funding. If that is not in 
place, a Congressional designation is a paper exercise.
    B. If the end-policy decision is to have a few heritage areas, then 
rigorous criteria for heritage area designation is necessary. Such 
criteria might include equal geographic distribution, demonstration of 
themes of unquestioned national significance, rigorous review of local 
financial capabilities, preference to areas that have the most local 
financial support, and preference to areas with the most local property 
owner support. Federal on-going audit systems may be necessary to 
ensure that the heritage areas are meeting their goals. Procedures may 
need development to de-designate heritage areas that do not meet that 
standard.
    C. If the policy decision is to have many heritage areas (150 for 
example), then a more flexible set of criteria would be more 
appropriate with less federal funding and less federal oversight.
    D. A requirement to have the public participation and planning 
components finished prior to designation would also have a controlling 
factor on the numbers.

      VI. OPTIONS FOR DEVELOPING A NATIONAL HERITAGE AREA PROGRAM 
                      IN THE NATIONAL PARK SERVICE

    A. The National Park Service currently has a one-person staff who 
has provided important assistance and coordination to the heritage area 
movement. The heritage area program and other ``out house'' programs 
within the Park Service will never be able to compete successfully with 
the needs of the parks for Park Service resources. The National Park 
Service expertise in recreation, interpretation and restoration is an 
asset to heritage development but does not cover the gamut of heritage 
area needs.
    B. Alternative organizational schemes
    1. Create a Heritage Development office in the Department of the 
Interior, independent of the National Park Service
    2. Establish an inter-agency team--similar to American Heritage 
Rivers--to draw expertise from many federal agencies
    3. Private-public partnership through a cooperative agreement with 
the Alliance of National Heritage Areas

    Senator Thomas. Thank you, sir.
    Mr. Frenchman.

  STATEMENT OF DENNIS FRENCHMAN, PROFESSOR OF THE PRACTICE OF 
      URBAN DESIGN, MASSACHUSETTS INSTITUTE OF TECHNOLOGY

    Mr. Frenchman. Thank you, Mr. Chairman. By way of 
introduction I am a professor of Urban Design at MIT, where I 
chair the Master of City Planning Program. My experience with 
national heritage began in the 1970's when I prepared the plan 
for Lowell National Historical Park, which became a model for 
many Heritage Areas. Since then my firm, ICON Architecture, has 
helped to plan almost half of the National Heritage Areas in 
the United States in one way or another. At MIT I also conduct 
research on the role of advanced technologies in the future of 
cities and where cities are going. I mention this because those 
of us involved with heritage are sometimes seen as nostalgic 
and looking to the past. To the contrary, I would argue that 
Heritage Areas are a wave of the future.
    As evidence of this, Heritage Areas are growing in scope 
and number, not only across the United States as we have seen 
but also across Europe and in Asia. I've been involved with 
projects in Spain, north of Barcelona, in Poland at the Gdansk 
Shipyard, and in Italy. In Scandinavia they are called ``eco-
parks.'' In Germany there is Emscher Park, encompassing the 
entire Ruhr Valley, and many Heritage Areas are being created 
in China.
    I think it's important to recognize the two forces that are 
driving this growth. First, the worldwide shift to an 
information economy has left behind many industrial areas. 
Depressed cities have found that they can leverage heritage to 
reinvent their identity in a way that attracts people and 
business. A good example is Lowell, where the park is credited 
with transforming a derelict mill town by attracting almost 
half-a-billion dollars in reuse and new development.
    The second force is a reaction to the standardized 
environment and culture that the information economy is 
creating, which looks pretty much the same in San Francisco or 
Singapore. Treasured places and qualities of life are being run 
over by homogeneous development. For localities, Heritage Areas 
offer a strategy to conserve their distinctive stories, sense 
of place and lifestyle without sacrificing economic growth.
    Heritage Areas are also important at the Federal level. 
They offer a way to conserve our national patrimony without 
huge Federal expenditures or intervention or, as we have heard 
from others, the control of property, because local people take 
the responsibility for telling the American story from their 
own perspective, and conserving the evidence of it in their own 
way. This is a highly efficient and responsive way for the 
government to be doing business. And just to provide some kind 
of measure, the total NPS funding proposed for all 24 National 
Heritage Areas over 15 years would be less than the cost of 
billing one museum here in Washington on the Mall, or probably 
its operating budget, on an annual basis.
    But to fully realize these potentials I agree that the 
current approach to ad hoc designation and guidance of National 
Heritage Areas needs improvement. To one, assure that the 
designated areas are truly of distinct national importance and 
to two, that they are sufficiently focused to be meaningful--
and I think meaningful is the important word here--with clear 
themes and boundaries and actionable plans. To better meet 
these standards I support the creation of a National Heritage 
Area as a program administered by the Park Service. In the end 
only it has the experience and the name recognition that can 
maximize the value of designation, helping to motivate 
conservation and attract investment at the same time at the 
local level. The National Park Service can do this without 
being in charge at the local level, which I feel is a key to 
sustainability.
    For success, the program must strike a clear balance 
between Federal and local roles. Designation is obviously a 
Federal responsibility. However, the program would benefit from 
the creation of an advisory council that represented the 
existing Heritage Areas as well as others that can suggest 
criteria for what constitutes, quote, ``a valuable part of our 
national story,'' and review the merits and boundaries of 
proposed new areas.
    Planning is a partnership activity that really does build 
local capacity. As a partner in the process, the National Park 
Service can motivate broad-based support and commitments and 
provide invaluable technical assistance.
    Development and management should be, as we have heard, a 
local responsibility. The Federal program can offer critical 
seed money for planning and catalyst projects but the support 
must be kept flexible to allow for innovation and approaches 
tailored to the local need.
    Finally, while Federal funds may diminish over time, even 
evaporate, it is very important that the NPS continues to stay 
involved at the local level, to sustain the national identity 
and to advocate for quality. And I would agree with Mr. 
Carlino, this oversight role would be aided by requiring 
National Heritage Areas to be periodically reauthorized.
    How do we measure the success of these projects? Given the 
diversity of the areas and their partnerships, measuring 
success is more challenging than other forms of development 
like building roads or national parks, where you can simply 
count the cars or the visitors. Nevertheless, performance 
indicators can be developed to understand how well the areas 
are reaching their own goals and such research, leading to more 
effective planning and management, would be a key benefit of a 
national program.
    In closing, we've been speaking of Heritage Areas but the 
issues before the committee are not about preserving the past. 
Rather, they deal with how to manage the information and 
cultural resources that we have to secure a better future. 
Partnership conservation and revitalization projects will 
continue to grow because they are needed and they are 
efficient. Heritage Areas are showing how we can transition to 
a new economy and method of governments without losing our 
shirts and the sense of who we are.
    Thank you.
    [The prepared statement of Mr. Frenchman follows:]

 Prepared Statement of Dennis Frenchman, Professor of the Practice of 
          Urban Design, Massachusetts Institute of Technology

    Mr. Chairman, thank you for asking me to appear before your 
committee to offer my views on National Heritage Areas.
    By way of introduction, I am a professor of urban design at MIT 
where I chair the Master of City Planning Program. My experience with 
national heritage began in the 1970's when I prepared the plan for 
Lowell National Historical Park, which became a model for many heritage 
areas. Since then, my firm, ICON architecture, has helped to plan 
almost half of the National Heritage Areas in the U.S. At MIT. I also 
conduct research on the role of advanced technologies to the future of 
cities. I mention this because those of us involved with heritage are 
sometimes seen as nostalgic and looking to the past. To the contrary, I 
would argue that heritage areas are a wave of the future.

                        GROWTH OF HERITAGE AREAS

    As evidence for this, heritage areas are growing in scope and 
number. Congress has designated 24 national heritage areas and many 
more are being proposed. Add to these a dozen statewide programs, and 
numerous regional efforts that are underway across the country. 
Heritage areas are also being created in Europe. I have been involved 
with projects in Spain along the Llobregat River that stretches 50 
miles from Barcelona to the Pyrenees, in Poland at the Gdansk Shipyard, 
and in Italy. In Scandinavia they are called ``eco-parks''; in Germany 
there is Emscher Park encompassing the entire Ruhr Valley, and there 
are important projects in many counties funded by the European Union. 
Heritage areas are also being created in Asia, particularly in China, 
paralleling the enormous growth that is occurring there. The goal of 
all these projects is the same: To conserve nationally important 
cultural landscapes, interpret their stories to the public, and use 
them for education, recreation and economic development.
    Two forces are driving these projects. First, the worldwide shift 
to an information economy has left behind many former industrial cities 
and regions. Depressed areas have found that they can leverage heritage 
to reinvent their identity in a way that attracts people and business. 
The best example is Lowell, MA, where the park is credited with 
transforming a derelict mill town into a vibrant community attracting 
almost a half-billion dollars in reuse and development; nationwide, 
National Heritage Areas generate close to $9 in investment for every $1 
of federal money spent. The second force is a reaction to the 
standardized environment and culture that the information economy is 
creating, which looks pretty Much the same in San Francisco or 
Singapore. In the U.S. we are seeing treasured places and qualities of 
life that define our American heritage run over by homogeneous 
development. In Europe there is concern about the same kind of growth 
erasing national identities. For these places, heritage areas offer a 
way to conserve their distinctive stories, sense of place and 
lifestyle, without sacrificing economic growth.
    The U.S. experience with heritage areas over the past 20 years has 
provided both the inspiration and a model for these projects. In a 
nutshell, National Heritage Areas enhance the identity and value of a 
region by confirming that its story is important to the U.S. They 
encourage a local commitment to conserve and interpret the natural and 
cultural assets that illustrate the story. Finally they are managed by 
partnerships that bring together contributions from all levels of 
government and the private sector. Because they elevate and empower 
communities, heritage areas are popular at the local level.

                           FEDERAL IMPORTANCE

    But they are also important at the federal level. How can we hope 
to conserve the American narrative and its values and pass them on to 
our children if the evidence is washed away in a sea of globalization? 
I would argue that it is more important to conserve these stories and 
places in the communities where they originate than, as an example, to 
concretize them in Washington in museums on the mall. Every year the 
Smithsonian sponsors a National Folk-life Festival celebrating our 
diverse American culture. It's a wonderful event. But if it is 
important to celebrate that heritage oil the mall, its equally 
important to sustain it, living and breathing, in areas across the 
country.
    National Heritage Areas show a way of doing this without huge 
federal expenditures, or intervention, because local people take the 
responsibility for telling the American story from their own 
perspective and conserving the evidence of it in their own way. This is 
a responsive and highly efficient way for the government to do 
business. To provide some measure, the total funding proposed for all 
24 National Heritage Areas over the next 15 years would be less than 
the cost of building one museum now on the mall, or probably its 
operating budget on an annual basis.
    National Heritage Areas can also accomplish conservation without 
federal acquisition of property. The idea that property must be 
controlled to be conserved originated in the 19th century with national 
parks, but it's now outdated. The federal government cannot hope to 
purchase even a fraction of the areas that are significant to our 
national heritage nor should it want to. It is more effective to 
motivate stewardship at the local level.

                            NATIONAL PROGRAM

    To fully realize these potentials, our current system of ad hoc 
designation and guidance of national heritage areas needs to be 
improved. First of all, we need to be exceedingly careful that 
designated areas involving the NPS are of distinct national importance, 
rather than state or local importance. The fear is not so much that 
resources will be dissipated by frivolous designations (heritage areas 
are a very efficient use of federal funds), but that the brand will be 
devalued. Secondly, there is a need for focus. If a National Heritage 
Area is to be meaningful, it needs a clear theme. boundaries that 
relate to distinctive resources that are important to the story, and an 
actionable plan. Not all heritage areas might meet such criteria. These 
issues highlight the critical need for a legislative framework and 
national program to guide and test proposed projects. ensure 
appropriate planning and support, and maintain the value of the 
designation.
    On the federal side, the National Park Service is best suited to 
administer the program. In partnership with local groups, it has 
innovated many of the successful techniques for planning heritage 
areas. The Park Service also has the credibility to deal with decisions 
about national importance, as it has done successfully for many years 
in programs like the National Register of Historic Places. But most 
importantly, only the Park Service carries the name recognition that 
will maximize the value of designation. The Park Service arrowhead, its 
brand, is universally recognized as a sign of quality. Its presence 
enhances the image and value of a heritage area in the marketplace, 
helping to conserve what is important and to attract public and private 
investment at the same time. The NPS can do this as a partner, without 
being in charge at the local level. In the end, this is the key to 
sustainability.
    Given this context, what is the best way to construct a National 
Heritage Area program? For success, the program must strike a clear 
balance between the federal and local roles:

    1. Designation is federal responsibility. However, the program 
would benefit from the creation of an Advisory Council on Heritage 
Areas that can suggest criteria for what constitutes a ``valuable part 
of the national story'' and review the merits and boundaries of 
proposed new areas. Taking a page from the World Heritage Cites 
program, existing National Heritage Areas should be represented on the 
council.
    2. Planning is a partnership activity. The tasks of discovering 
resources and devising conservation, education, and development 
strategies helps to build local capacity and is one of the most 
important and exciting parts of the process. As a partner, the NPS can 
help to motivate broad based support and commitments and provide 
invaluable technical assistance.
    3. Development should be primarily a local responsibility. The 
federal program can offer critical seed money for planning and catalyst 
projects. It is important that these funds be kept flexible, allowing 
innovation and approaches tailored to the local need. In many areas, 
the NPS is represented in local management organizations. Other 
agencies can also play a role, like the National Trust, HUD, or DOT, 
which has funded many enhancement projects in heritage areas.
    4. Monitoring requires continuing NPS involvement. We have found in 
Lowell and elsewhere that as local institutions grow in strength, 
federal funds can be diminished. But it is important that the NPS stay 
involved with areas over the long term to sustain their national 
identity and monitor progress. The oversight role would be aided by 
requiring National Heritage areas to be periodically reauthorized.

    How do we measure success of a National Heritage Area? Given the 
diversity of the areas and their partnerships, measuring success is 
more challenging than other forms of development, such as building 
roads or national parks, where you can simply count the cars or the 
visitors. Nevertheless, performance indicators could be developed to 
understand how well the areas are reaching their own goals:

  <bullet> Are the resources and qualities that led to the designation 
        being conserved and respected?
  <bullet> Is there a working partnership and continuing civic 
        engagement?
  <bullet> Are residents and visitors learning about the resource'?
  <bullet> Has a sustainable flow of income been secured?

    Data on such questions would help us to better understand what 
works and doesn't work in heritage areas. It could also fuel research 
into how to develop them more effectively through. for example, the 
application of advanced communications and media. Supporting a research 
agenda should be a key role of the national program.
    In closing, we have been speaking of ``heritage'' areas, but the 
issues before the Committee are not about preserving the past. Rather 
they deal with how to manage the information and cultural resources 
that we have to secure a better future. Partnership conservation and 
revitalization efforts will continue to expand because they are needed 
and efficient. In the process, we are discovering that traditional 
American stories and prices in the landscape have an enduring value 
that can be tapped to renew communities, and our national spirit. 
Heritage areas are showing how we can transition to a neweconomy and 
method of governance without losing our shirts, and the sense of who we 
are.

    Senator Thomas. Thank you.
    Ms. LaGrasse.

  STATEMENT OF CAROL W. LAGRASSE, PRESIDENT, PROPERTY RIGHTS 
                     FOUNDATION OF AMERICA

    Ms. LaGrasse. Good afternoon. Thank you for the opportunity 
of testifying today. My name is Carol LaGrasse and I'm 
president of the Property Rights Foundation of America, which 
is based in Stony Creek, New York, and I'm a retired civil and 
environmental engineer.
    My criticism has been and remains that National Heritage 
Area program is meant to gradually accomplish Federal land use 
control. It has found force especially in the East and Midwest. 
The Heritage Area program also involves transferring private 
land to government. The State and Federal Governments already 
own 42 percent of the land in the United States. In 1994, I 
published a list kept by the National Trust for Historic 
Preservation of over 100 Heritage Areas of State, Federal, 
local nature under development. The House Resources Committee 
mapped that list and we demonstrated the shocking extent of the 
program at that time. Direct national land use control is too 
unpopular to be enacted as would the unified national greenway 
program, encompassing the full extent of the Heritage Area 
program and other Federal areas being individually designated.
    In New Jersey there are eight Federal areas covering almost 
half of the State. Now in the Congress, in various stages, are 
six additional Heritage Areas and the like to cover the rest of 
the state.
    The main selling points for Heritage Areas are tourism, 
economic development, historic preservation and protection of 
riverways. The word ``greenway'' is not used yet Heritage Areas 
are plainly greenways, areas where the purpose is landscaped 
preservation by land use regulation and land acquisition by 
government and surrogates. A theme trail is associated with 
each greenway. Heritage Area elements fulfill the goal of 
landscape connectiveness, a textbook purpose of greenways. A 
greenway needs an ensemblage of sites related to a theme, the 
ostensible reason for the overall geographic definition, 
without which the real goal of landscape preservation could not 
be accomplished.
    In each Heritage Area, multiple programs called 
partnerships in concert with other agencies at State, Federal, 
regional, local and especially multi-jurisdictional levels, 
along with various non-profits, focus on site development, land 
use planning, land acquisition and trail development. The 
auspices of the Park Service is diffused so that the public eye 
would have to be excruciatingly trained to follow the 
relationships and the flow of authority, the instigation and 
especially the cash incentives. Local government is subverted 
and co-opted, becoming a tool of the skilled Park Service, non-
profit and consultant manipulators. At each Heritage Area at 
least one non-profit agency is created, under the tutelage of 
the National Park Service to perhaps be the managing entity and 
focus the accomplishment of the greenway or develop its related 
trail while directing attention away from the National Park 
Service. New non-profits are instigated for various trails and 
other purposes. This is done surreptitiously. These and 
consultants are outside of the Freedom of Information Law.
    Initial studies are geared toward landscape preservation, 
often under the rule book of historic preservation. Lavish 
funds are provided for outreach to popularize the Heritage 
Areas. A Heritage Area meeting that I attended recently was 
hosted by seven Park Service personnel and consultants.
    Sites are developed for tourism and historic preservation. 
Congress may not prohibit funding under the Heritage Areas from 
being used for land acquisition but this is immaterial because 
the Park Service has built relationships with multiple Federal 
and State agencies for this. One Heritage Area has put a new 
National Park on the agenda, the proposed Homestead Works 
National Park advocated by the Rivers of Steel National 
Heritage Area.
    Trails, which are a serious threat to private property are 
an important facet of Heritage Areas for connectivity. They are 
developed in segments according to the textbook design for 
success. Eminent domain may not be directly exercised by the 
Park Service for trails but is threatened or exercised by 
localities, each often separated from another segment so that 
the common thread is unrecognized. One of the ironies of trails 
being advocated by environmentalists is that in species-rich 
riparian areas they'll serve as avenues for invasus, such as 
cowbirds that replace eggs of neotropical migrants, songbirds 
and weeds that replace native plants.
    Mature planning studies are instigated in connection with 
the funding for site improvements and in connection with the 
management plan. These facilitate strict land use controls, an 
issue really left hanging by the GAO report. Prohibiting the 
Park Service from imposing zoning is irrelevant because the 
Park Service does not do this directly but rather instigates 
the imposition of land use controls.
    Legislation of an opt-in provision with notification has 
been discussed and is feasible considering that tax notices are 
routinely sent to all property owners. But this provision and 
the old opt-out provision wouldn't take care of the fact that 
the boundary of the Heritage Area would still exist. Land 
located within the greenway would still bear the brunt of 
landscape preservation, trail development, economic design to 
eliminate non-compatible uses and gearing the land for tourism 
and nature. Land prices and the tax burden do increase. 
Ordinary people cannot ultimately survive there.
    Congress should enact changes geared to eliminate the 
greenway potential of the heritage program. Eliminate the 
geographic delineation. The heritage program could be directed 
to block grants of moneys allocated State-by-State through an 
agency that's not geared toward landscape preservation, such as 
Housing and Urban Development. The partnerships should be 
prohibited. The National Park Service should be prohibited from 
promotional work for its policies at the local level and from 
studies of historic and regional areas. It should be prohibited 
from working with non-profit agencies. Park Service personnel 
should be prohibited from participating in the study and 
development of trails, or developing support organizations. All 
the trails should be laid out in their full length, including 
their width and the other ramifications from the proposal 
stage, and the property owners notified. Trail development 
could be administered by the Department of Transportation and 
the eminent domain protections under the Federal highway law 
applied.
    No additional Heritage Area should be established and no 
further development of trails should take place until there is 
a full inventory of lands owned by the Federal and State 
government and of the Federal areas, such as National Heritage 
Areas and trails.
    The National Heritage Program isn't really just pork 
barrel, as some say it is. I don't believe it's economic 
development. I believe that it is Federal land use control and 
should be drastically curtailed.
    [The prepared statement of Ms. LaGrasse follows:]

  Prepared Statement of Carol W. LaGrasse, President, Property Rights 
                         Foundation of America

    Thank you for the honor and opportunity of testifying today at the 
oversight hearing on National Heritage Areas. My name is Carol W. 
LaGrasse, President, Property Rights Foundation of America, based in 
Stony Creek, New York. I am a retired civil and environmental engineer.
    The National Heritage Area program is designed to gradually 
accomplish federal land use control, across especially the Eastern and 
Midwestern parts of the United States, without passage of national land 
use planning legislation by the Congress. The Heritage Area program 
also has the goal of transferring private land to government. The state 
and federal governments already own over 42 percent of the land in the 
United States. In 1994, I publicized a list kept by the National Trust 
for Historic Preservation of over 100 Heritage Areas under development. 
The House Natural Resources Committee made a map from that list, which 
showed the shocking extent to the program already at that time. As you 
know, direct national land use control would be much too unpopular to 
be enacted, as would be one single national greenway program 
encompassing the full extent of the National Heritage Areas, American 
Heritage Rivers, Stewardship areas, National Park Service trails, and 
other federal areas being individually enacted.
    In the State of New Jersey, there are eight federal areas under the 
Park Service and Fish and Wildlife Service covering almost half the 
state. Now proposed in the Congress in various stages are six 
additional Heritage Areas and the like to cover virtually the entire 
rest of the state.\1\
---------------------------------------------------------------------------
    \1\ See PRFA web site for two color coded diagrams of New Jersey 
at: http//www.prfamerica.org/NJ-Existing-Proposed.html.
---------------------------------------------------------------------------
    The main selling points for National Heritage Areas are tourism, 
economic development, historic preservation, and protection of 
riverways. The word ``greenway'' is not used. Yet, National Heritage 
Areas are plainly greenways, areas where the purpose is landscape 
preservation by land use regulation and land acquisition by government 
and its surrogates.\2\ In addition, and importantly, a theme trail is 
associated with each greenway. The elements of the National Heritage 
Areas fulfill the goal of ``landscape connectedness,'' a textbook 
purpose of greenways. It is important for a greenway to have what is 
referred to as an ``ensemblage'' [not ``ensemble,'' a dictionary word 
of commonly understood meaning] of sites related to the supposed theme. 
This is an important element that gives the ostensible reason for the 
overall geographic definition of the Heritage Area. If the Heritage 
Area did not have a geographic definition, it would be impossible for 
the real goal of landscape preservation to be accomplished.\3\
---------------------------------------------------------------------------
    \2\ In the seminal work Greenways for America commissioned by the 
Conservation Fund, the National Endowment for the Arts, and the 
Rockefellers' American Conservation Association, author Charles E. 
Little bemoans the ``mess'' created by the lack of regional planning in 
America and welcomes greenways as a way toward better ``settlement 
patterns.''
    Referring to a landscape preservationist, Little writes, ``In the 
phrase of author Tony Hiss, what the urban-rural greenway 
infrastructure can create is `landscape connectedness.' And 
connectedness has been the goal of regional planners for at least the 
past one hundred years.''
    ``But comprehensive land-use planning on more than the most 
elementary level--mainly zoning in towns and cities--seems to be beyond 
us,'' laments Little.
    ``As I have said, regional greenways networks will not themselves 
clean up the mess,'' Little writes. ``But the idea of establishing such 
an infrastructure might very well give us a new and less controversial 
approach to regional planning by providing a geophysical framework for 
it, which, unlike that of highways and high-tension lines, is the 
framework of the landscape itself.'' (Little, Greenways for America, 
John Hopkins, 1990, Opp. 135,136, italics in original)
    \3\ The bill for the Crossroads of the American Revolution National 
Heritage Area focuses on regulation of the landscape. In the 
``findings,'' the bill declares, ``Congress finds that . . . portions 
of the landscapes important to the strategies of the British and 
Continental armies, including waterways, mountains, farms, wetlands, 
villages, and roadways . . . retain the integrity of the period of the 
American Revolution, an . . . offer outstanding opportunities for 
conservation, education, and recreation.''
---------------------------------------------------------------------------
    Through the powerful tool of National Heritage Areas, the National 
Park Service focuses its efforts at the greenway model. The enabling 
statutes effectively provide for it to have this function. In each 
area, multiple programs in concert with other agencies at state, 
federal, regional, local and especially multi jurisdictional levels, 
along with various not-profits, focus on land use planning, land 
acquisition, and trail development. All of the relationships among 
agencies and non-profits are referred to as ``partnerships.'' The 
auspices of the National Park Service is effectively diffused, so that 
the public eye would have to be excruciatingly trained to follow the 
relationships and the flow of authority, instigation, and especially 
cash incentives. In addition, local government is subverted and co-
opted, becoming a tool of the skilled Park Service, non-profit, and 
consultant manipulators. At each National Heritage Area, at least one 
not-profit agency \4\ is generally created expressly under the tutelage 
of the National Park Service to perhaps be the so-called ``management 
entity'' and focus the accomplishment of the greenway or to develop its 
related trail or multiple trails or canalway trails while concomitantly 
directing attention away from the Park Service. Multiple new non-
profits are instigated for various trails, quite surreptitiously. New 
and existing not-profits serve also as channels for cash from various 
federal agencies to consultants, outside of public inspection under 
freedom of information law.
---------------------------------------------------------------------------
    \4\ I witnessed the National Park Service and New York Parks and 
Conservation Consultant tutoring the members of such an infant agency 
in Schuylerville, NY, for the Champlain Canalway Trail, along the 
northerly branch of the Erie Canal toward Lake Champlain, part of the 
Erie Canal National Heritage Corridor.
---------------------------------------------------------------------------
    Congressional funding is used for several purposes: The first is 
studies, which, unfortunately, are geared to landscape preservation, 
often under the supposed rationale of historical preservation. Congress 
may proscribe funding under the Heritage Area law from being used for 
land acquisition, but this is immaterial, because the National Park 
Service has built relationships with multiple federal and state 
agencies where land acquisition funds can be exploited.
    Lavish funds are provided for outreach. A National Heritage Area 
meeting that I attended recently, which was one of a series of 
informational affairs and was attended by about thirty to forty 
individuals, was hosted by seven National Park Service personnel and 
consultants. National Park Service personnel refused to divulge the 
annual budget for this Heritage Area until queried several times, and 
then could not reveal the funding available from other agencies.\5\
---------------------------------------------------------------------------
    \5\ The budget for Erie Canal National Heritage Area was $400,000 
for fiscal 2003, NPS submitted $600,000 for fiscal 2004. These appear 
to be largely administrative and promotional expenses.
---------------------------------------------------------------------------
    Sites are developed for tourism and historical preservation. the 
``connectedness'' of these sites is a rational for regional land use 
controls.
    A National Heritage Area can put a new National Park on the agenda. 
Such an example is the proposed Homestead Works National Park advocated 
by the Rivers of Steel National Heritage Area on their web site.\6\
---------------------------------------------------------------------------
    \6\ ``Rivers of Steel National Heritage Area is working to preserve 
this site's rich industrial heritage and its priceless artifacts for 
generations to come through the creation of the Homestead Works 
National Park.''--http//www.riversofsteel.com/
ros.aspx?id=23&h=80&sn=95--3/28/04
---------------------------------------------------------------------------
    Trails are a serious threat to private property today. As spin-offs 
of the specific legislation or under parallel legislation,\7\ trails 
are an important facet of National Heritage Areas, where connectivity 
is essential. They are developed in segments, again according to 
textbook design for success. Eminent domain may not be directly 
exercised by the National Park Service, but is indeed threatened or 
exercised by the associated localities for the segments of a trail, 
each often separated from another segment so that the common threat is 
unrecognized. During public questioning, the Park Service refuses to 
address how these ``partnerships,'' as I've called them, drawing on the 
Park Service term, to accomplish condemnation of private property 
work.\8\
---------------------------------------------------------------------------
    \7\ Example: The Crossroads of the American Revolution National 
Heritage Area in New Jersey is to be buttressed as a greenway with a 
separately enacted Washington-Rochambeau Revolutionary Route multi-
state trail, under study.
    \8\ Examples: The City of Schenectady, NY, threatened condemnation 
of the property belonging to Janice Revella for cross-state NPS Erie 
Canalway Trail within the Erie Canal National Heritage Area. The Town 
of Wawarsing, NY, condemned a historic railroad station owned by Herter 
Diener for the cross-state NPS Delaware and Hudson Canalway Trail 
within the Delaware and Hudson Heritage Area (not yet a NPS National 
Heritage Area).
---------------------------------------------------------------------------
    Planning studies are instigated, in connection with funding for 
site improvements and in connection with the management plan, which is 
also funded by Congress. Strict land use controls are facilitated with 
planning projects.
    Reforms proposed in response objections by those concerned with 
infringements on private property rights have been largely irrelevant.
    Prohibiting funding from the program from being used to acquire 
land, and prohibiting condemnation, will have no effect, because 
funding and condemnation are available through other programs and 
agencies, as I explained above. Prohibiting the National Park Service 
from imposing zoning in connection with the program is irrelevant 
because the Park Service does not do this directly. However, the Park 
Service argues for and instigates the imposition of stronger zoning 
controls.\9\
---------------------------------------------------------------------------
    \9\ At the House Natural Resources Committee hearing on H.R. 2949 
to establish the Augusta Canal National Heritage Corridor on June 28, 
2994, Denis P. Galvin, Associate Director, Planning and Development, 
National Park Service, recommended, that the bill to establish the 
Heritage Corridor ``shall not take effect until the Secretary of the 
Interior approves the partnership compact for the heritage corridor 
that is now under development.''
---------------------------------------------------------------------------
    The inclusion of an opt-out provision might appear desirable, but 
is irrelevant because people would not know about it, and because the 
Heritage Area boundary would remain. The inclusion of an opt-in 
provision is feasible, considering that tax notices are routinely sent 
to all property owners. Even a complex geographically bounded roster 
can be culled easily in many jurisdictions by utilizing GIS. However, 
this provision is not worthwhile enacting because the boundary of the 
Heritage Area would still exist, along with the related greenway goals 
and programs. A property owner might opt out of the Heritage Area, but 
the land would be located in it and bear the brunt of the landscape 
preservation, trail development, economic design to eliminate non-
compatible uses and gear the area toward tourism and nature, and the 
gradual increase in tax burden.
    What reforms could preserve the opportunity for federal funding to 
preserve heritage, while eliminating the enabling framework for the 
National Park Service to develop greenways, to accomplish landscape 
preservation? It is not necessary to eliminate promotion and 
preservation of important historic sites in order to get the federal 
government out of landscape preservation.
    First, on a mundane level, Congress should legislate requirements 
to improve fiscal accountability and increase openness to public 
scrutiny. In addition, Congress should enact changes geared to 
eliminate the greenway potential of the Heritage promotion program.
    Eliminate the definition of a geographic area where the heritage 
program would exist. Instead, the Heritage program, perhaps called 
``Heritage Promotion,'' could be directed to Heritage block grants of 
moneys allocated state-by-state in proportion to population or federal 
tax contribution through an agency that is not geared to landscape 
preservation, such as Housing and Urban Development, National Endowment 
for the Arts, or Department of Commerce. No gatekeepers for funding 
grants should be allowed at the state level, to prevent the program 
from falling under the auspices of a state greenway agency.
    Prohibit all the partnerships with the agency presiding over the 
block grants or grants to multiple grantee agencies, confining the 
transfer of federal moneys expressly to straightforward block grants 
competitively proposed under a process established by Congress. 
Prohibit the National Park Service or any other agency from promotional 
work for its policies at the local level, and from studies of 
historical areas or regional areas. Keep the National Park Service out 
of all programs except for parks. Prohibit the Park Service from 
working with non-profit agencies to promote its goals.
    The National Park Service trails program should be inventoried and 
defined, as to its current and envisioned extent, as decided by 
Congress. Studies of new trails should be scrutinized by Congress. 
National Park Service personnel should be prohibited from participating 
in the feasibility studies, development of trails, or participating in 
developing support organizations. All federal trails should be publicly 
laid out in their full extent from the beginning, at the proposal stage 
and all property owners notified at that stage. The full width and 
ramifications of the trail should be spelled out legislatively in the 
conceptual stage. Protections for property owners should be put in 
place.
    Trail development could be administered by the Department of 
Transportation and all eminent domain protections that exist under the 
federal highway laws applied to federal trail construction.
    Legislation should prohibit segmented development of trails and the 
adoption of pieces of trails by separate local jurisdictions or non-
profits for future joining into a full-length federal trail.
    No additional federal areas should be established and no further 
development of trails in the United States should take place until a 
full inventory of lands owned by the federal and state government, and 
of federal areas such as National Heritage Areas, is completed.
    Where funding for National Heritage programs or studies is to be 
renewed, similar reforms should be instituted.
    Living in a town controlled by overarching regional zoning and 
overlapping designations, and experiencing the influence of not-profit 
organizations, with half the town owned by the State government, I know 
first-hand how these programs hurt the local culture and economy. The 
National Heritage Area program is not just pork-barrel. It certainly is 
not economic development. It is pure preservationism, and should be 
drastically curtailed.

    Senator Thomas. Well, thank you all very much. I appreciate 
you being here and I appreciate your thoughts. I have a couple 
of questions, perhaps, for you.
    A good many things, Mr. Carlino, that are mentioned are 
travel, business, all that sort of economic activity. Do you 
think that's the main function of a heritage?
    Mr. Carlino. It's not the main function but it's certainly 
an outcome of the work that we do. If we work in older 
communities, a lot of times the investment of the money will go 
into main street programs and historic revitalization of old 
buildings. The purpose of those in partnership with either 
local businesses or----
    Senator Thomas. Yeah. If it's economic development, why 
should it be a Federal program? Or why shouldn't it just be one 
of the grants for Federal instead of trying to make it a park?
    Mr. Carlino. Well, it's part of what we do. It's not the 
only thing we do. But it's an investment strategy that comes 
out----
    Senator Thomas. I get the feeling many times, particularly 
from small communities, that that's the main purpose of it, is 
to get Main Street the national heritage so they can increase 
their business activity.
    Mr. Carlino. It might be the purpose of a community within 
the Heritage Area but it's not always the only goal of the 
Heritage Area.
    Senator Thomas. Well, that's where the thrust comes from, 
is the community. I guess what I'm trying to say is it's 
interesting. For instance, we talked about these being 
significant. The whole State of Tennessee is a Heritage Area.
    Mr. Carlino. Yes sir.
    Senator Thomas. Now, how do you justify that?
    Mr. Carlino. I wasn't the one that designated----
    Senator Thomas. Well, I know not but it sort of gives you a 
little idea of whether you're really sustaining historical 
things or whether you're doing something else, doesn't it?
    Mr. Carlino. Well, from my understanding the argument for 
the Tennessee project is that a good amount of the Civil War 
occurred throughout the State.
    Senator Thomas. We had a lot of Indian wars in Wyoming. 
Maybe it ought to be a Heritage Area, do you suppose?
    Mr. Carlino. I couldn't tell you sir, I've not visited your 
State.
    Senator Thomas. I guess that's the reason it doesn't seem 
to have been a logical criteria for doing it and that the 
differences that do exist.
    Now, you mentioned authorization. Now, these don't have a 
time authorization in them when they're granted do they? They 
don't run out of being a heritage?
    Mr. Carlino. Well, yeah. Most of the Heritage Areas that I 
know of do have either an authorization that caps at funding or 
at time.
    Senator Thomas. Oh, well that caps funding but it doesn't 
eliminate the Heritage Area, does it?
    Mr. Carlino. It doesn't say that the heritage necessarily 
will go away. It says that the funding will run out either at a 
cap of funding or at time.
    Senator Thomas. Well, are you saying that they have to have 
capital funding from the Federal Government forever?
    Mr. Carlino. I'm not saying that, no sir. What I'm saying 
is that the restriction put into the legislation creates a 
timeline in order for us to work. There are some projects that 
can be accomplished within that time period.
    Senator Thomas. I see.
    Mr. Carlino. There are some that take longer than that. And 
all I'm suggesting is that there be a process that we can 
report back to Congress and the Park Service that demonstrates 
the work we've achieved. And if there's a need for 
reauthorization and it's demonstrated by the work that we're 
doing and support then it should be left open----
    Senator Thomas. I just am not familiar; my impression has 
always been that there is supposed to have been a 10-year time 
limit on funding but that hasn't always been the case, 
sometimes it's been further. But I didn't think there was ever, 
in the authorization, an end to the heritage system.
    Mr. Carlino. Well, that's been our question. If the 
Heritage Area runs out of authorization from the Park Service--
--
    Senator Thomas. Are you talking about money or 
authorization?
    Mr. Carlino. Both.
    Senator Thomas. Oh, Okay.
    Mr. Carlino. Both.
    Senator Thomas. That's what I wanted to make clear. There 
comes a time, if I understand it correctly, where the Federal 
Government aren't any longer responsible for the funding. Isn't 
that true?
    Mr. Carlino. The Park Service, the National Park Service.
    Senator Thomas. The Park Service through the Federal 
Government.
    Mr. Carlino. Yes sir.
    Senator Thomas. That doesn't mean the Heritage Area goes 
away. You've all talked about----
    Mr. Carlino. No, that's exactly right. But that's the 
question. We still have the national label and yet it creates a 
public perception that it has some relationship with the 
National Park Service. So if the authorization has expired we 
have a difficult time with that relationship and explaining it 
to the public. Are we not or are we a part of the----
    Senator Thomas. Well, I think it's criteria you guys are 
going to have to come to grips with and that is you keep 
talking about local, regional on your managing. Ed, you said 
$900 million from the private, $1 million, but you sound also 
like you need Federal money to go on forever.
    Mr. Carlino. Not forever, no sir. But it does help in----
    Senator Thomas. Of course it helps. But if I had anything 
to do with the criteria it's going to be a time to get it 
started and then the Federal money stops. You don't agree with 
that, I don't think.
    Mr. Carlino. I would ask you to at least allow me to 
discuss that with you as you continue to pursue the program.
    Senator Thomas. Yeah, well that's the concept, at least. 
Almost all these have been 10-year funding things. Isn't that 
true?
    Mr. Carlino. Well, let me speak for my organization.
    Senator Thomas. Well, it's true.
    Mr. Carlino. We have--our authorization says no more than 
$10 million over a period of 16 years, and we can get no more 
than $1 million a year. At our current rate our authorization 
would cease because we will hit the 10-year authorization 
because we've been getting $1 million a year for the past 8 
years.
    Senator Thomas. You'll get to the end of funding. You and I 
don't seem to be able to understand that.
    Mr. Carlino. No.
    Senator Thomas. Are you talking about funding or 
authorization? There's two different things.
    Mr. Carlino. Funding.
    Senator Thomas. Yes, okay.
    Mr. Carlino. Yes.
    Senator Thomas. I just want to make that clear.
    Dr. Short, you talked about the need for more Federal 
money. What is the basis for that, to do more study? To help 
get started?
    Dr. Benton-Short. No, I just, I think in that context was 
that if you are going to have the Heritage Areas Program 
expand, that I do think that there probably needs to be 
additional Park Service personnel involved to make it as 
effective and successful as it should be. So you wouldn't want 
the Park Service to take away sources of money from other park 
units already under their jurisdiction and channel it to the 
Heritage Areas Program.
    Senator Thomas. That's of course, been the concern that 
some people have, whether it's right or wrong.
    You mentioned recreation areas. Is there any reason to have 
a recreation area called a heritage?
    Dr. Benton-Short. Well, that's a very good question. You're 
kind of getting at the heart of the Park Service nomenclature, 
which I find incredibly confusing after 10 years; I could never 
tell the difference between a national historic site, a 
national historic park or a National Heritage Area. It kind of 
depends on who you talk to. Recreation areas, if you talk to 
some people, they'll define it as primarily open space areas 
where there are different facilities for recreation. So I guess 
that would depend on what Heritage Areas you'd be talking 
about. But I think that issues about what we call these 
different areas is very, very important because it often 
indicates status or lack of status.
    Senator Thomas. I guess that's the issue here with 
establishing criteria and so on.
    Mr. Sanderson, you represent state heritage. Is that 
correct?
    Mr. Sanderson. Well, State heritage and State preservation 
offices, yes sir.
    Senator Thomas. You talked about regional areas and so on. 
Why not State? Why is the Federal Government involved if you 
can have State historic areas to do the same thing, 
particularly when there's not as particularly significant 
national concept to it?
    Mr. Sanderson. Oh, I think you can have State Heritage 
Areas and certainly I would advocate for that. I don't think 
one is a substitute for the other. I think many States have 
developed heritage programs that take a lot of different forms 
and I think State programs are fine. I think when an area has a 
uniquely significant, as I said in my comment, assemblage of 
resources and what strikes me about many of these Heritage 
Areas is that they're not single dimensional. It's not just 
some historic sites or just recreational opportunities or just 
natural resources, it's the coming together of those different 
types of resources within a single area that creates a unique 
kind of a place, a special landscape or land area that----
    Senator Thomas. If you defined, very briefly, how would you 
define the criteria for a Federal Heritage Area?
    Mr. Sanderson. I think that, well, I guess I would start 
with those basic types of resources, the historic resources, 
the natural resources and then many areas will have 
recreational opportunities that occur between the two. Our 
State parks agency recently did a public opinion poll for their 
own planning and they discovered that visiting historic sites 
was rated as one of the top outdoor recreational activities for 
citizens in Rhode Island. Well, that came as something as a 
surprise to me and something as a surprise to them. But what it 
shows is that the kinds of boundaries that we bureaucrats 
sometimes slice up the world into are not perceived by citizens 
who like to get outside, like to hike along a historic canal; 
they enjoy visiting a historic site and learning about the area 
at the same time that they can have a picnic with their family 
and be in an area of environmental protection, Northeast Bird 
Flyway Area.
    Senator Thomas. Yeah, okay.
    Mr. Sanderson. And it's the coming together of these that I 
see----
    Senator Thomas. I guess there has to be a definition, 
unless you want the Federal Government involved in everything. 
What I hear all the time is, oh, the damn Federal Government's 
into us all the time. And then the next day, oh, well we want 
the Federal Government to be involved in this. We have to make 
some distinctions as to what they are and I guess that's 
probably what--when you set aside a historic building or some 
area like that, then you say there's no property restrictions. 
How do you define that? Property or land restrictions, if 
you're going to protect land and buildings?
    Mr. Sanderson. Well, when you say set aside a property, as 
I'm sure you know, there are different kinds of designations of 
properties, some historic properties, some sites are within 
State parks, some are owned by private, non-profit 
organizations that open them to the public as museums. These 
don't involve taking peoples' property away from them.
    Senator Thomas. No, but I'm saying though, is if your 
purpose of your heritage is to maintain certain properties, 
then how do you say you don't have anything to do with 
controlling the property?
    Mr. Sanderson. Well, for the most part there isn't control 
there is cooperation between owners. If a property owner with 
their own private property chooses not to preserve the 
property, for the most part there aren't effective controls to 
stop that.
    Senator Thomas. Then the heritage saving you're talking 
about doesn't work. Is that right?
    Mr. Sanderson. Exactly. Which is why education and 
community consensus are so important within the area. 
Communities come together quite remarkably in my experience and 
make decisions that they like where they live, that they value 
the character of their place.
    Senator Thomas. I think we all agree with that. The 
question here before us is how do you best manage those things 
and who should have the responsibility, who should pay the 
money, how do you do this, what's the criteria for a Federal 
one?
    Mr. Sanderson. Right.
    Senator Thomas. You know, to talk about the value of 
property, everybody agrees with that, or areas. The question 
is, how do you best manage these and what's the criteria and 
how do you set it up with the different division of 
responsibility between state--you represent State Heritage 
Areas--and Federal. That's really the issue.
    Mr. Sanderson. Part of the success, I think, of Heritage 
Areas is that you get--in order to be designated, in order to 
create a Heritage Area, the local community has to want it; the 
State officials work with them and they want it, and then they 
come to the Congress and demonstrate that they are in fact 
worthy of that designation. So that you have a process of 
people who want to participate in this program.
    Senator Thomas. That's fine. We haven't had a definition of 
the criteria.
    Mr. Sanderson. Well, I would agree that there should be 
defined----
    Senator Thomas. I mean, just because the local folks want 
it, I can understand that. And they want the Federal Government 
to pay for it; I can understand that. But there has to be some 
designation to justify the Federal involvement and you agree 
with that.
    Mr. Sanderson. Oh, I would strongly agree that there need 
to be criteria that need to be met. We need to make sure that 
the criteria are flexible enough to notice that different 
Heritage Areas have different qualities to them.
    Senator Thomas. Sure, no question.
    Mr. Frenchman, are you aware of similar heritage things in 
other countries?
    Mr. Frenchman. Yes sir, I am. And I've been involved with 
some of those, in particular in Spain and other locations in 
Korea and so forth. And they have many of the characteristics 
that our Heritage Areas and they have some of the challenges 
also as well. I think one of the thing's that is recognized in 
these areas which we seem to have trouble trying to value here 
is that it's the national recognition, it's the recognition by 
a higher authority that you are important, which is the key 
economic tool. Money is great, money is very important, 
everybody will take it, but it's the importance of that 
designation. It's no different in business. If you have a brand 
and it has value that you spent 200 years developing, you have 
to be very careful about where you put that brand and who 
carries it. And people pay for that brand, by the way, they 
don't get it for free. So it has a value. And I would agree 
with I think almost all of us who are here that that has to be 
protected, that national significance has to be protected. Now, 
I think in Europe, for example, they are rather jealous about 
this. Each country is trying to really keep its personal 
identity in a place that's trying to make a union, so you just 
find people very strongly wanting to reinforce the identity. So 
those criteria tend to be pretty strong. And I think we could 
probably learn some things from them but to be honest, they're 
looking to us for the model.
    Senator Thomas. Well, it's interesting. You go to Turkey, 
for instance, and those Heritage Areas are 2,000 years old.
    Mr. Frenchman. Right.
    Senator Thomas. And it's quite a different situation than 
some of these things.
    Ms. LaGrasse, there are 45 million people who live within 
the boundaries of existing Heritage Areas. Do you think it's 
possible for property rights to be in and out of these things 
and be protected? That their properties are not impacted or 
affected by----
    Ms. LaGrasse. Well, the way I see it happening, when the 
National Park Service and its consultants come to an area, 
there's a soft sell and there's a constant cross sell, there's 
an informal exchange where the local jurisdictions receive 
pressure and incentives to establish land use planning that 
they wouldn't otherwise put into place. And of course land use 
planning may or may not infringe on private property rights. 
One index of how it infringes on private property rights is the 
amount of litigation. I only have heard anecdotal evidence of 
particular municipalities which before and after establishing 
land use planning have a tremendous accentuation in litigation. 
At a hearing, actually, on the Erie Canalway National Heritage 
Corridor, a councilman from the town of Lake George pointed out 
that since his township had established zoning their annual 
litigation bill for their lawyers have gone from a few thousand 
dollars to several hundred thousand dollars. He just threw that 
into the pipe to say that this might be the type of thing you 
are instigating towns to do. But unless there's a systematic 
study of the affect of land use planning in these Heritage Area 
over a period of time no one can speak to that impact. All that 
I get is anecdotal evidence, particularly about trails.
    Senator Thomas. Zoning and so on is a local decision.
    Ms. LaGrasse. It's local but when there are incentives and 
when there's very sophisticated presentations, local people who 
in rural areas, frankly, are not as sophisticated as the 
National Park Service and its consultants are greatly 
influenced to go in those directions.
    Senator Thomas. Well, we don't admit that, those rural 
people.
    Well, I appreciate all of your thoughts. I think certainly 
most of us have a view that there's great merit in preserving 
the historic things in our country and finding the best way to 
do that. Hoping to be able to come up with some criteria so 
that here, frankly, as you know, if we don't have criteria 
here, it's just whoever can get the votes for something that 
doesn't necessarily fit in and maybe that will always be the 
case. But we want to try and get a little more uniform. I think 
also we need to find a proper division between the 
responsibility of the Federal Government and local governments 
and State governments because they are different and they can 
work together, of course. So, we really appreciate it and I 
think we're moving in the right direction of continuing to be 
able to deal with Heritage Areas but to have some pretty common 
criteria that will allow us to do that.
    So we thank you all very much for your participation. And 
as I said, some of the other members might possibly have some 
questions and we'll leave the record open for several days. So 
thank you very much, we appreciate it and the committee's 
adjourned.
    [Whereupon, at 3:52 p.m., the hearing was adjourned.]

                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                        Department of the Interior,
                                   Office of the Secretary,
                                     Washington, DC, June 21, 2004.
Hon. Craig Thomas,
 Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Thomas: Enclosed are answers to the follow-up 
questions the committee submitted to the National Park Service after 
the hearing before the Subcommittee on National Parks of the Senate 
Energy and Natural Resources Committee, held on March 30, 2004, 
concerning National Heritage Areas.
    Thank you for the opportunity to respond to the questions that have 
been submitted for the record.
            Sincerly,
                                             Jane M. Lyder,
                                               Legislative Counsel,
                    Office of Congressional and Legislative Affairs
[Enclosure.]

                     Questions From Senator Thomas

    Question 1. Over 20 bills have been referred to this Subcommittee 
for studies and designations of new heritage areas. Are you aware of 
any additional heritage areas that may request federal status in the 
neat few years? If so, how many?
    Answer. Other areas have contacted the agency about conducting 
their own feasibility study for possible national heritage area 
designation. However, until a bill is introduced it is hard to know 
which ones will complete the effort. At this time the National Park 
Service has been directed by Congress to undertake studies of the 
feasibility of establishing a national heritage area in four areas. 
These include a study of Buffalo Bayou in Houston, Texas; the Low 
Country Gullah Culture in South Carolina and Georgia; Muscle Shoals in 
Alabama; and Niagara Falls in New York. The Low Country Gullah Study is 
under final review in the National Park Service, the Niagara Falls 
Study has been underway for just over a year and the other two studies 
are just getting started.
    Question 2. How much has been appropriated in the DOI budget, 
obligated, and spent for National Heritage Areas in the past 10 years? 
How does the National Park Service monitor and account for funds being 
spent on National Heritage Areas?
    Answer. The attached list shows the level of funding authorized, 
obligated and spent for national heritage areas in fiscal year 2004 
[Attachment A].* Funding for National Heritage Area grants has grown 
from $2.2 million in FY 1995 to $14.2 million in FY 2004, for a total 
of $80.4 million appropriated over ten years. In addition, National 
Heritage Areas have frequently received line-item construction funding, 
such as $2.5 million appropriated to the Southwestern Pennsylvania 
National Heritage Area in FY 2004. To compile the obligation and 
expended amounts, plus the line-item construction amounts, which have 
gone to all the areas over the past 10 years before we had a heritage 
partnership account will take more time to assemble. We will provide 
this to the committee once all the information is compiled.
---------------------------------------------------------------------------
    * Attachment A has been retained in subcommittee files.
---------------------------------------------------------------------------
    The National Park Service monitors and accounts for the 
appropriated federal dollars by entering into a cooperative agreement 
with each of the management entities. This agreement is amended every 
year to show where National Park Service funding will be spent in the 
upcoming year. These expenditures are tied to implementing the adopted 
and approved management plan. At the end of the year, the areas send a 
final report showing how the funding was spent and provide an annual 
audit for review.
    Question 3. Should any of the existing National Heritage Areas be 
designated as units of the National Park System? If so, which ones and 
what type of unit would be suitable?
    Answer. The 1998 National Parks Omnibus Management Act established 
a standardized process for identifying and authorizing studies of 
potential new National Parks units. Before the agency can undertake a 
study on the feasibility and suitability of designating a new National 
Park unit, the study must be authorized by a specific act of Congress. 
At this time, the only study that has been authorized to examine the 
feasibility and suitability of designating a park unit in a national 
heritage area is a study of the Carrie Furnaces in the Rivers of Steel 
National Heritage Area in western Pennsylvania. The Carrie Furnaces are 
one of the few remaining complexes of the once extensive Homestead 
Steel works.
    In general, most national heritage areas are large living 
landscapes encompassing multiple counties and millions of people. For 
tills reason, they are not suitable for management as National Park 
units. However, many national heritage areas have National Park units 
within their boundaries or on their borders. A number of close 
partnerships for enhanced resource conservation and interpretation have 
been developed between these parks and the surrounding areas.
    Question 4. How many heritage areas has the National Park Service 
reviewed for possible study or designation? Of those, how many has the 
park service advised against designation?
    Answer. Prior to 1998, the National Park Service had a legislative 
mandate to conduct studies of potential new parks under our own 
initiative, in response to specific legislative direction, or as 
directed in appropriations committee reports. Studies on potential new 
park units initiated after the adoption of the 1998 Omnibus Parks and 
Management Act require specific authorization by Congress.
    In undertaking a study for a new park or a national heritage area, 
it is the responsibility of the National Park Service to make our best 
and most appropriate professional recommendation. For this reason, a 
study of a resource may lead to a different recommendation than the 
stated purpose of the initiating authorization. Although most of the 
studies are undertaken for either creation of a new unit or a heritage 
area, some studies led to the establishment of a new program for 
technical and financial assistance or other legislative action that 
does not fit well-defined categories of National Park Service units.
    Of the last 100 Special Resource Studies undertaken, 24 looked at a 
region's qualifications as a potential national heritage area. Of those 
24 studies, nine were determined to be either ineligible under the 
criteria for designation as a national heritage area or more 
appropriately classified under another designation such as a trail or a 
cultural center or incorporated into another already designated area.
    Question 5. Twenty-four National Heritage Areas currently exist 
with only one full-time park service employee running the program. How 
many National Heritage Areas can the park service manage with the one 
individual currently responsible?
    Answer. More than one individual works in support of National 
Heritage Areas. The National Park Service assigns staff in regional 
offices and National Park units to administer national heritage areas 
designated in their regions. For example, staff in the Southeast 
Regional Office is working with the recently designated Blue Ridge 
National Heritage Area. These assignments are collateral duties as part 
of their regular work, but they play an essential role in running the 
program. Under the Administration's legislative proposal on heritage 
areas, up to five percent of the funds made available to heritage areas 
could be used for technical assistance, administrative, and oversight 
duties by the National Park Service.
    Question 6. In your testimony, you reference the ``National 
Heritage Partnership Act'' as legislation proposed by the 
administration. When do you expect to formally introduce the language? 
Does the language give private property owners the right to opt in or 
opt out? If, not, how does it address private property?
    Answer. The administration's legislative proposal, the ``National 
heritage Partnership Act'' was presented with our testimony before the 
Subcommittee on National Parks, Senate Committee on Energy and Natural 
Resources, at the oversight hearing on the National Heritage Areas 
program on March 30, 2004 and was formally transmitted to the President 
of the Senate on the same day. Based on our proposal, Senator Thomas 
introduced a bill on June 17, 2004 (S. 2543).
    The proposal does not give property owners the right to opt in and 
out of the boundaries of a heritage area. However, it requires 
extensive public involvement in both preparing a feasibility study and 
in the development of a management plan for an area. In addition, 
Section 9 of the legislative proposal offers extensive private property 
and regulatory protections. It states explicitly that nothing in the 
act abridges the rights of property owners and further states that 
owners are not required to participate in heritage area plans or 
programs or to allow public access. In addition, heritage area 
designation does not alter duly adopted land use plans, authorize 
changes in water rights, diminish the authority of states to manage 
fish and wildlife, or create other liabilities.
    Question 7. How does the National Park Service account for funds 
provided to National Heritage Areas?
    Answer. For most national heritage areas, the National Park Service 
enters into a cooperative agreement that establishes the working 
relationship between the area and the agency. Each year the cooperative 
agreement is amended or modified to specify the area's annual work plan 
and budget to implement the heritage area's management plan. This 
document obligates the authorized funding. The areas then request 
advances or reimbursement using a standard form that ties the request 
to the annual modification (Standard Form 270). At the end of the 
financial year, the areas are required to send in an annual report. In 
addition, the cooperative agreement requires an annual financial audit 
to be provided to the agency. The agreements, modifications, and 
reimbursements are overseen by a warranted contract officer and the 
agency's technical representative.
    Question 8. Does the park service conduct any audits of National 
Heritage Areas to ensure funds are being used for the intended 
purposes?
    Answer. As part of the cooperative agreement process discussed 
above, the National Park Service requires national heritage areas to 
provide an annual financial audit. Based on the findings in the recent 
General Accounting Office report, the agency plans to develop 
guidelines for reviewing and monitoring expenditure of funds, audits 
and compliance with annual work plans.

                    Questions From Senator Campbell

    Question 1. How many National Heritage Area proposals are under 
consideration at this moment'?
    Answer. As of April 1, there are eight study bills on six different 
areas and 26 designation bills on 15 different areas pending in 
Congress. So far only one new national heritage area has been 
designated during the 108th Congress (Blue Ridge National Heritage 
Area). A summary of pending heritage bills is attached. [Attachment B]* 
Based on earlier congressional authorizations, the National Park 
Service is studying three proposed national heritage areas: Buffalo 
Bayou in Houston, Texas, Muscle Shoals in Alabama and Niagara Falls in 
New York. In addition, a heritage area strategy is proposed as one of 
the alternatives in our recent study of the Low Country Gullah Culture 
in South Carolina and Georgia.
---------------------------------------------------------------------------
    * Attachment B has been retained in the subcommittee files.
---------------------------------------------------------------------------
    Question 2. What kind of notification will property owners receive 
if their land becomes incorporated as part of a heritage area?
    Answer. Prior to designation, public meetings are held throughout 
the proposed national heritage area to inform residents about the 
proposal, to measure if strong, widespread support exists in the local 
community, and to discuss the boundaries of the area. These public 
meetings are advertised in local newspapers and publications. As part 
of the feasibility study that is required before an area is designated, 
residents and property owners discuss what resources they wish to 
protect, enhance and interpret and how best a boundary could be drawn 
to meet this goal; this feasibility study is sometimes undertaken by 
the National Park Service, but often undertaken by local community 
supporters.
    The legislation enacted for each area treats private property 
issues in a different way. However, none of the current twenty-four 
areas have required individual owner notification. They do require 
public involvement in developing the management plan for the area. Our 
legislative proposal makes explicit the need for public involvement in 
preparing both a feasibility study for proposed areas and in developing 
the area's management plans. Section 9 also provides property owners 
with a number of specific guarantees that being included within a 
national heritage area will not require them to participate, permit 
public access, alter any adopted land use regulation or plan, 
appropriate water rights, diminish the right of the State to manage 
fish and wildlife, or create any liability for any person injured on 
private land.
    Questions 3 and 4. It seems to me that many national Heritage Areas 
express a local or regional rather than a national interest. Just as 
states have State Parks programs, many states, such as Colorado, have 
similarly successful heritage programs that are run on the state/local 
level. As well, it seems that the most successful heritage sites in the 
national program are those that are managed in conjunction with local 
community interests. In light of these facts, are these programs that 
might better be left to the states?
    Answer. Some proposals for National Heritage Areas that lack 
nationally important resources may be more appropriately ``left to the 
states.'' Seven states and many local groups have well-established and 
funded heritage area programs, and every state provides sonic form of 
support to historic preservation efforts. But for nationally important 
resources, it is appropriate for the federal government to recognize 
these areas.
    Question 5. What exactly are the criteria by which a potential 
national heritage site is judged to have national interest above and 
beyond a more local and regional interest?
    Answer. The National Park Service has the challenge of assessing 
levels of significance in making many of our resource-based designation 
decisions. Two examples include the evaluation of proposals to 
establish new units of the National Park System and designating 
properties as National Historic Landmarks. In making decisions on the 
national significance of new parklands or new landmarks, the agency 
applies criteria that have been established by statute and further 
explicated by regulations and guidance documents. The national heritage 
areas program has developed proposed criteria that draw upon the 
experience of both of these programs.
    Our legislative proposal recognized that criteria are needed to 
determine whether a proposed national heritage area is indeed of 
national interest. Section 5 states that a feasibility study shall 
apply the following criteria to determine the feasibility of 
designating a proposed National Heritage Area:

    (1) An area--
    (i) has an assemblage of natural, historic, or cultural resources 
that together tell a nationally important story;
    (ii) represents distinctive landscapes and aspects of our American 
heritage worthy of recognition, conservation, interpretation, and 
continuing use;
    (iii) is best managed as such an assemblage through partnerships 
among public and private entities at the local or regional level;
    (iv) reflects traditions, customs, beliefs, and folk life that are 
a valuable part of the national story;
    (v) provides outstanding opportunities to conserve natural, 
cultural, historic, and/or scenic features;
    (vi) provides outstanding recreational and educational 
opportunities; and
    (vii) has the resources and traditional uses important to the 
identified stories and themes and these resources and uses retain a 
degree of integrity capable of interpretation.
    (2) Residents, business interests, non-profit organizations, and 
governments including relevant Federal land management agencies within 
the proposed area are involved in the planning and have demonstrated 
significant support through letters and other means for National 
Heritage Area designation and management.
    (3) The local coordinating entity responsible for preparing and 
implementing the management plan is identified.
    (4) The proposed local coordinating entity and units of government 
supporting the designation are willing and have documented a 
significant commitment to work in partnership to protect, enhance and 
interpret resources within the heritage area.
    (5) The proposed local coordinating entity has developed a 
conceptual financial plan that outlines the roles of all participants 
including the Federal government.
    (6) The proposal is consistent with continued economic activity 
within the area.
    (7) A conceptual boundary map has been developed and is supported 
by the public, and by participating Federal agencies.

    To make these determinations, the National Park Service can draw on 
the resources of the criteria developed assessing new parkland and on 
the national historic landmark theme studies. In addition, if 
legislative criteria are adopted, additional guidance materials will be 
developed.
    Question 6. In your opinion, how much has this program impacted the 
funding levels for other Park programs?
    Answer. Funding for this program is relatively small compared to 
total NPS funding. The NPS was funded in FY 2004 at approximately $2.4 
billion of which the Heritage Partnership appropriation was $14.4 
million. At the margins, however, it might have an impact. In FY 2004, 
Congress appropriated $7 million more than requested for National 
Heritage Areas, compared to $16 million in park base increases over FY 
2003.
                                 ______
                                 
           The Property Rights Foundation of America, Inc.,
                                   Stony Creek, NY, April 16, 2004.
Hon. Craig Thomas,,
 Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
Re: National Heritage Areas

    Dear Senator Thomas: It was an honor to testify before the Energy 
and Natural Resources Committee on March 30, 2004. Thank you for the 
additional opportunity expressed in your letter of April 5, 2004 
requesting my response to four sets of questions on National Heritage 
Areas. This letter is my reply, question by question.
    I hope that these replies to your four questions about the National 
Heritage Area program are helpful and that the various angles from 
which I examined the program offer information, viewpoints and specific 
proposals that are worthwhile and practical to help preserve our 
heritage in its great diversity while promoting private property rights 
to their fullest extent as guaranteed in the United States 
Constitution.
    Thank you for the honor of this opportunity of replying to your 
important questions.
            Respectfully,
                                         Carol W. LaGrasse,
                                                         President.
    Question 1. The GAO did not find any adverse impact to private 
property. Do you have any specific examples of private property being 
adversely affected by a heritage area? What could GAO have done 
differently to better address private property impacts?
    Answer. As I explained in my testimony, the system of partnerships, 
compacts, carrots and sticks, and the like to establish these greenway 
programs involves precipitating local, multi-jurisdictional and 
regional land use control enactments, land acquisition programs, and 
trails that adversely impact private property rights without putting 
the onus on the heritage area commissions or National Park Service to 
carry out the on-the-ground impositions on private property owners. My 
testimony cited clear-cut policy statements by the Park Service, 
management plans and formative thinking in the greenway advocacy world 
that show how the greenway system is designed to carry out its goal of 
landscape preservation.
    As I explained on the telephone during the adversarial interview by 
Preston Heard and other members of the staff of the General Accounting 
Office during August 2003, the careful distancing of the official 
federal agencies from local land use jurisdiction makes it impossible 
for an organization of this modest capacity to investigate the impact 
of a National Heritage Area on private property rights. The 
investigator would have to follow a chain of events, from the creation 
of the management plan; the establishment of the heritage area 
commission; to the partnerships, compacts, many meetings of a public 
and less public nature; documents promulgated during implementation of 
the management plan and the like; resultant local, multi-
jurisdictional, and regional enactments; enforcements by such non-
federal agencies; and litigation. The investigator would have to do 
interviews and studies of affected property owners and studies of tax 
impacts. Such studies would have to be conducted over a reasonable 
period of time from establishment of a heritage area, perhaps in the 
neighborhood of a decade. Separate study of trails being created in 
connection with heritage areas would be essential and probably more 
quickly fruitful, because it appears that there is yet no way to 
establish trails through private property through legislation that 
leaves property owners entirely bamboozled about the taking of their 
rights, and once the trails are being created or are in existence, at 
least a few of the property owners take their time from compelling 
their day-to-day affairs to forcefully complain of infringements.
    With respect to trails, which are unfailingly associated with 
heritage areas, it is relatively easy, when a complaint arrives here at 
PRFA to see a connection with a larger motivating entity, such as the 
National Park Service, whose behind-the-scenes responsibility for an 
innocent appearing segment of a relatively long trail in a particular 
locality can be brought to light. However, as with almost all examples 
of private property rights infringements that come to the attention of 
PRFA, examples of these trail infringements on private property rights 
come to the attention of PRFA by pure happenstance, e.g., someone e-
mails or telephones for help, mails a clipping, or the like.
    Examples of threatened and executed condemnations, or threatened 
forced sales, for trails associated with heritage areas that have 
recently come to the attention of PRFA are:

    a. The City of Schenectady, NY, threatened condemnation of the 
property belonging to Janice Revella for the 500-plus mile cross-state 
National Park Service Erie Canalway Trail within the Erie Canal 
National Heritage Area. (David Riley, ``Tour de Schenectady--Local 
resident fights City Hall's attempt to put a bike path in her 
backyard''--Metroland, Albany, NY, Nov. 7, 2002)
    b. The Town of Wawarsing, NY, initiated condemnation proceedings 
for the historic Port Ben railroad station owned by Herter Diener for 
the National Park Service-instigated cross-state Delaware and Hudson 
Canalway Trail within the Delaware and Hudson Heritage Corridor. 
(Dianne Wiebe, ``Negotiations off track in drawn-out dispute over train 
station,'' Daily Freeman.com, Kingston, NY, 12/17/2002, referenced 8/7/
03). This heritage corridor involves the Delaware and Hudson Heritage 
Corridor Alliance, but is not yet a National Park Service National 
Heritage Area.
    c. Farmer Ed Richardson, whose land is located near the Saratoga 
National Historical Park in Stillwater, NY, complained about being 
approached to allow the trail through his property by representatives 
for the Champlain Canalway Trail, which is the northern spur to Lake 
Champlain from the Erie Canalway Trail in the Erie Canal National 
Heritage Area (according to a reports and an article in the Saratogion, 
Saratoga Springs, NY). Ironically, no newspaper article or other public 
information about this trail appeared until this reporter for the 
Saratogian read my article about the secrecy involved in the trail in 
the New York Property Rights Clearinghouse (``Saratoga County Canalway 
Trail Shrouded in Secrecy,'' Property Rights Foundation of America, 
Fall 2002).
    d. Considering the National Parks typically have property rights 
impacts, a new 38-acre Homestead Words National Park being advocated by 
the Rivers of Steel National Heritage Area for the formerly 400-acre 
Homestead Works site may have property rights impacts if private land 
is contemplated for acquisition. (Ref.: http:www.riversofsteel.com/
ros.aspx?id=23&h=80&sn=95 Apr. 15, 2004)

    The GAO could have should addressed property rights impacts more 
deliberately. When interviewing this property rights advocate, the GAO 
interviewers should have taken an interest made, instead of arguing 
about whether to hang up in disgust at this interviewee's remarks. With 
the viewpoint presented that the property rights impacts happen through 
the programs established through the Heritage Area, rather than 
directly, the GAO should have attempted to address that viewpoint. The 
report simply cites the concerns of property rights advocates and GAO 
interviews of officials involved with Heritage Areas and leading 
property rights advocates. This amounts to study by interview.

        ``. . . However, property rights advocates fear the effects of 
        provisions in some management plans. These provisions encourage 
        local governments to implement land use policies that are 
        consistent with the heritage areas' plans, which may allow the 
        heritage areas to indirectly influence zoning and land use 
        planning in ways that could restrict owners' use of their 
        property. Nevertheless, heritage area officials, park Service 
        headquarters and regional staff, and representatives of 
        national property rights groups that we contacted were unable 
        to provide us with any examples of a heritage area directly 
        affecting--positively or negatively--private property values or 
        use.'' (Excerpts from ``What GAO Found,'' GAO Testimony Before 
        the Committee on Energy and Natural Resources, U.S. Senate, 
        March 30, 2004, on the page before page 1)

    To study the impacts on private property rights, studies could 
consider:

  <bullet> a comparison of the level of zoning before and after 
        implementation of a Heritage Area, including a study of factors 
        influencing changes in zoning with a mind to ascertaining how 
        Heritage Area designation was involved;
  <bullet> the change in land ownership patterns (e.g., government and 
        non-profit as compared to private) after establishment of a 
        Heritage Area;
  <bullet> the change in property values, as compared to similarly 
        situated properties outside during the same time period;
  <bullet> census statistics showing changes in population age groups 
        and ethnic constituency, income levels as after establishment 
        of the Heritage Area (See Toni Thayer, ``National Heritage 
        Area. Water or Historical Preservation?'' September 2003);
  <bullet> real estate tax impacts, possibly caused by the reduction of 
        availability of developable land and the high prices paid for 
        land by government and non profits;
  <bullet> increase in litigation following from zoning enacted after 
        establishment of Heritage Area;
  <bullet> study of treatment of property owners whose land is used for 
        trails, involving interviews of every owner to consider the 
        land acquisition or easement acquisition process, modeled after 
        Bo Thott's study of National Park Service acquisitions of land 
        from property owners (``Willing Seller Willing Buyer,'' Bo W. 
        Thott, Washington County Alliance, Cutler, Maine, 1993, posted 
        on PRFA web site at http://www.prfamerica.org/WillingSeller/
        WillingBuyer.html)
  <bullet> surveys of land owners along trailways as to information 
        made available as opposed to segmented development and 
        concealed agenda;
  <bullet> study of experience of trail easement property owners and 
        neighboring property owners with liability and intrusions, as 
        well as reverse harassment of property owners; and
  <bullet> inventory of new or enlarged local and state parks, National 
        Parks, Scenic Byways, All-American Roads, Wild and Scenic 
        Rivers, National Historic Register designation of Sites or 
        Districts, and similar government land acquisition and 
        regulatory structures in Heritage Areas. Studies of affected 
        property owners.

    Question 2. Over 45 million people live within the boundaries of 
existing heritage areas. Do you think it would be feasible and even 
possible to implement a system for allowing each property owner to opt 
in or opt out?
    Answer. This response is directed to the query about whether it 
would be feasible to implement a notification system for the opt in or 
opt out concept.
    Yes, it would be feasible. Each individual Heritage Area would be, 
of course, tackled individually. The number of private property owners 
would be somewhat less than the population, considering household size 
and the fact that individual property owners hold multiple properties, 
and own rental properties.
    In each real estate taxing jurisdiction, notices are routinely sent 
to every property owner for the taxes due on each property. All of this 
information is computerized today. Therefore, the name and address of 
every property owner are readily available in a form that is readily 
usable for mailing purposes to conduct an opt out or opt in survey.
    In addition, it is common for jurisdictions to have access to GIS 
(Geographic Information Systems), whereby coordinate-based 
computerization of tax assessment maps can be utilized to select 
properties fitting almost any description, such as one-mile from a 
given watercourse. Today, this can be done automatically and all the 
names and addresses of these geographically selected property owners) 
even if the boundaries of the Heritage Area are not a municipal 
jurisdictional boundary) spewed out of the computer for a mailing for 
any purpose.
    The opt in or opt out provisions would have importance even though 
they would not eliminate the property from within the bounds of the 
Heritage Area and its concomitant increase in land use restrictions and 
other pressures on property owners. The opt in or opt out provisions 
would afford property owners a notification process that the Heritage 
Area is in the works and be an even-handed notification that would 
encourage public participation from all sectors, not just the select 
few who are advocates for greenways and trails and those individuals 
who act as advocates for private property rights by attempting to 
assiduously monitor these programs.
    Question 3. What sort of discussion have you had with 
representatives from the National Park Service or managers of any 
specific Heritage Areas regarding your concerns?
    Answer. I have engaged in discussions with representatives of the 
National Park Service and managers of specific Heritage Areas on 
numerous occasions over the past decade and longer. With rare 
exceptions, the officials expressed their offense at my presence and 
questions by their contemptuous manner and refusal to straightforwardly 
answer my inquiries or to answer the inquiries at all. Park Service 
officials have attempted and to marginalize me, insult me, they have 
treated me in a consistently demeaning mariner, attempting to convey 
publicly that I and others concerned about property rights were 
ignoramuses, fanatics, and disrupters. Most interesting of all, except 
for one official whose work I complimented a number of years ago in the 
very respect that the higher officials were in the process of 
reversing, they have never taken any of my comments seriously or 
allowed any of my comments to have any impact on the direction of their 
programs, except for their becoming more secretive and evasive about 
the programs.
    For purposes of this reply, I'll refer to only one or two specifics 
at four relatively recent discussions.

  <bullet> Champlain Valley National Heritage Corridor: Meeting at the 
        canal park in Whitehall on September 19, 2001, presided over by 
        Bill Howland, Executive Director of the Lake Champlain Basin 
        Program. This program involves New York, Vermont and Quebec, 
        and is especially hard to get a handle on. It also goes by the 
        name of the Champlain-Richelieu Valley Heritage Corridor. In 
        the viewpoint of its many critics, this Heritage Corridor keeps 
        metamorphosing. At present, after vociferous objections to the 
        heritage corridor, the Lakes to Locks Scenic Byway appears to 
        be an early implementation phase. At the meeting, I advocated 
        that the continuous trail be eliminated. Thus comment was 
        ignored. I asked Mr. Howland to divulge the federal funding to 
        date. After some diversion tactics, he divulged the funding for 
        that year, I noted his reply of $1.5 million from the EPA, 
        $150,000 from USDA, $350,000 from National Park Service for 
        heritage. (The latter caveat probably related to the fact the 
        Park Service also funds the Lake Champlain Basin Program, along 
        with other agencies.) The funding to date, which I requested, 
        was not available.

    Champlain Valley National Heritage Corridor: Meeting at City Hall, 
Plattsburgh, NY, November 19, 2001. The corridor name was referred to 
as the Champ lain-Richelieu Valley Heritage Area. Bill Howland, 
Champlain Basin Program, presided. Many opposition concerns were voiced 
from the floor. Opposition was dismissed as concerns because of the 
Adirondack Park. We were referred to as ``the property rights people,'' 
by the person assisting him and, after objection, an apology was 
proffered to us for this. Mr. Howland said that the area would have no 
boundary. Jack Vitvitsky wanted to know the boundary that would be 
affected, but the lack of a boundary meant that no answer was given. I 
complained that the local lifestyle does not fit with tourism, because 
it may not necessarily fit the appealing formulas being prescribed, and 
that the program goals would present a fundamental problem for the 
ordinary local people. Mr. Howland asked for this comment to be stated 
in writing. Susan Allen asked, ``Why are you writing the bill?'' [and 
not us] No response to this. Mr. Howland claimed that there were no 
regulations contemplated, only grants, but the many people at the 
meeting who had not come to request grants did not believe him, because 
nothing of substance was offered to back up this statement, and the 
promotional aspect of the slides indicated a contrary scenic 
preservation goal. Concern was expressed about a federal Lakes to Locks 
Scenic Byway, which was formerly the state Champlain Valley Scenic 
Byway, but this topic was evaded. Mr. Howland claimed that he had 
refocused the program to economics on account of property rights. He 
said that he was considering an opt in/opt out method. However, he did 
not have any credibility, especially when he said that they had already 
entered into a contract with Quebec Labrador Foundation, an 
organization that no one concerned with property rights knew anything 
about. He said that funding was brought to the program by the National 
Park Service.
    Champlain Canalway Trail: Cozy meeting in public school cafeteria, 
Schuylerviile, October 9, 2002. Attending were officials from the 
National Park Service, New York State Canal Corporation, consultant 
from the New York Parks and Conservation Association and perhaps two 
private individuals, totaling six individuals, plus my husband and I. 
My husband and I were not invited to this small meeting, as the public 
was not noticed. After sitting through the planning session to form a 
``local'' ``Friends'' group and obtain a first grant, I attempted to 
obtain funding information, but was totally denied, and charged with 
being disruptive for persisting in my questions.
    Erie Canalway National Heritage Corridor: Public meeting, 
Queensbury Town Hall, December 9, 2003. The official greeting attendees 
said that questions would be answered from the floor throughout the 
meeting, but no one called on me when I repeatedly raised my hand. I 
had to call my questions out. I asked for funding amounts, and was 
given partial information after repeating my question several tunes. 
During the section on recreation, I asked how the Erie Canalway Trail 
eminent domain ``partnerships'' with local municipalities worked, and 
pointed out Janice Revella in the audience, whose property was 
threatened by condemnation. I received no answer, and finally was told 
that eminent domain was not on the agenda. During the section on 
economic development partnerships, I asked how the partnerships worked 
that a single developer was sold all the development rights to the 
entire 500-plus wile canal for a mere $30,000 (Michelle Breidenbach, 
``Man pays $30K for canal rights, Syracuse Post-Standard, article 
published in Post-Star, Glens Falls, NY, September 15, 2003), and was 
told that this was the Canal Corporation, which was entirely separate. 
However, a few minutes later, the presiding officer introduced a 
representative of the Canal Corporation in the audience, as though he 
were an honored guest.
    Question 4. Heritage Areas are here to stay, but we have an 
opportunity to make improvements as new Heritage Areas are proposed. 
What recommendations would you make for protecting private property 
rights in current and future Heritage Areas?
    Answer. The following recommendations would allow the preservation 
of the nation's heritage to receive federal support while eliminating 
the greenway potential of Heritage Areas and the infringements on 
property rights that are designed into the Heritage Area program.

Respect and Promote Living Historic Heritage
    Where a specific heritage is to be preserved, such as an industrial 
heritage, the heritage program should feature the importance of 
industry to the heritage of the area up to the present time. For 
instance, the Congress should require a certain proportion of funding 
to involve a promotion of awareness of the importance of modern 
factories and industrial production, and the heritage program proffered 
in the management plan could also promote tours of modern operating 
factories and industrial facilities. Factory tours have rebounded in 
popularity, and this could be promoted with the heritage program. For 
example, in New York's Hudson Valley, tours of the large shorefront 
facilities of the cement industry should be facilitated with federal 
funding.
    Where the heritage is lumber production, typical landscape 
preservation consultants who produce falsified history should be 
avoided, and qualified historians who retain an interest in the present 
used. An example in upstate New York where a Scenic Byway kiosk system 
was put in place, this focus on preserving the living heritage would 
change the policy so that the role of government land acquisition in 
reducing timber production would be factually presented, rather than 
blaming industrial factors. Tours of present-day logging operations 
could be promoted. In Corinth, NY, a historic paper mill operated by 
International Paper Company on the Hudson River recently closed. 
Federal investment for living historic preservation might make a 
difference in the maintenance of such living heritage typical to a 
geographic region.

Establish a Fair Granting Process
    Where Heritage Areas and trails are being promoted, the granting 
process is pre-ordained by the relationships that already exist between 
the National Park Service and its ``partners'' consultants. The 
application process should be publicly and widely advertised and all 
comers should be able to apply for the lucrative grants that become 
available. Consultants such as the New York Parks and Conservation 
Association should not be routinely selected, but should have to 
compete in, the open arena. Subcontracts through consultants should be 
accessible to freedom of information law where government funds are 
involved. A variety of ``heritage'' projects should be open to 
competition, including those that benefit private property owners 
rather than nonprofits and government entities.

Establish Procedures for Public Scrutiny of Budget at the Local Level
    Open up to public scrutiny the budget of the entire heritage 
process, including all funding from ``partner'' agencies at federal, 
state, regional and local level. Publicly maintain financial statements 
and audits of the origin and routing of all funding from appropriation 
to on-the-ground expenditures for actual work. Where funding is 
contemplated that affects a particular area, advertise publicly for 
public comment on that expenditure.

Eliminate Geographic Delineation of Heritage Areas
    Heritage programs should not be geographically delineated because 
this works toward the greenway goal and landscape preservation that has 
been central to National Heritage Areas from inception. With the 
realization that Heritage Areas are not about historic preservation or 
any but the most narrow sphere of economic development, comes the 
necessity of a single measure that would stymie their purpose of 
landscape preservation. Instead of geographically delineated Heritage 
program, direct the program to block grants allocated state-by-state by 
an agency that is not geared to landscape preservation, such as Housing 
and Urban Development, the Department of Commerce, or a new bureau in 
the National Park Service that is not oriented to landscape 
preservation, but is instead expert in all spheres of national 
heritage, especially the living industrial heritage and the continuing 
multifaceted independent rural lifestyle with its scruffy way of living 
that is not designed to fit into an elite subdivision.
    Instead of attempting to restore the quaint past by regulation, 
where the product is only empty shells of dead villages that lonely 
city dwellers visit transiently, let's celebrate the past along with 
the constant evolution of new traditions in the context of our evolving 
heritage.
    Instead of implementing harsh landscape preservation where ordinary 
rural people will be displaced, get the federal government our of 
sophisticated advocacy for land use control, and let the chips fall 
where they may with local people controlling their future with the 
degree of planning regulation that they freely choose without heavy 
pressure from the ``experts.''

Prohibit all the Partnerships and the Park Service's Self-Promotion
    Prohibit the Park Service from promotional work for its policies at 
the local level, and from studies of historical or regional areas. 
Prohibit the Park Service from working with nonprofit agencies. This 
can be accomplished by opening up the procurement process to bidding. 
This change can be assisted by ceasing to write any specific non-profit 
into Congressional legislation.

Take the Park Service out of Trail Development
    With its terrible record of treatment of private property owners, 
and its one-sided agenda of promoting landscape preservation to the 
detriment of the maintenance of existing National Parks, it is 
essential to get the Park Service's spidery reach out of private 
property all across the country. An important and easy way to 
accomplish this is to prohibit the Park Service and its personnel from 
participating in the studies and development of trails, or developing 
support organizations. All trails should be publicly laid out in their 
full length, width and other aspects, such as style of ownership and 
access, desired viewsheds, from the proposal stage, and all potentially 
affected property owners individually notified. If trails are 
developed, the development should be administered by the Department of 
Transportation and the eminent domain protection protections under the 
federal highway law applied.

Inventory Government-Owned Land
    No additional Heritage Areas should be established and no further 
development of trails should take place until a full inventory of lands 
owned by the federal and state government, and of federal areas such as 
National Heritage Areas and trails, is completed.

Conduct Environmental Impact Analysis of Heritage Areas, Including Land 
        Ownership Impact Studies
    In some federal areas under consideration in Congress, major 
changes of land ownership patterns are underway. Consider the Highlands 
Area proposed for Northern New Jersey, Southeastern New York, eastern 
Pennsylvania, and western Connecticut. In New York, the State 
government, the Open Space Institute, other land trusts, and other 
agencies are cutting into the base of private land ownership without 
any land ownership impact studies being conducted. Tax impacts are 
becoming profound, while future economic potential is being narrowed. 
If an area is to be designated, contrary to the recommendation above, 
when it is proposed, the specific area should be studied for land 
ownership trends and these should be projected, with the concomitant 
taxation and economic and social impacts, in an environmental impact 
study in accordance with NEPA.
                                 ______
                                 
  Responses of Dennis Frenchman to Questions From the Subcommittee on 
                             National Parks

    Question 1. Do heritage areas similar to those in the United State 
exist in any other countries? If so, how common are they?
    Answer. Heritage areas similar to those in the United States do 
exist in many other countries, including countries in Europe and South 
America, Canada and Mexico, and increasingly in China. Local and 
national governments have supported the creation of heritage areas, as 
have international organizations such as the Council of Europe, the 
European Union, UNESCO, and the World Bank.
    The greatest number of heritage areas is found in European 
countries, where, called by a variety of names, they have become 
increasingly common since the 1970's. In general, heritage areas have 
been motivated by the desire to conserve evidence of national heritage 
and European regional identity in an era of globalization and growing 
homogeneity. As in the U.S., these projects involve territories of 
different sizes and historical themes, managed by partnership entities, 
with no control over land use.
    The European Union (EU) has encouraged the formation of heritage 
areas by providing support for regional projects that encourage 
cooperation among cities and areas with distinctive cultural or natural 
features that bind them together, even across national boundaries. The 
EU provides no central source for funding heritage areas, however, 
support for related projects is a priority in a number of important 
development programs, for example: The Energy, Environment and 
Sustainable Development Program earmarked almost $200 million (1998-
2002) for ``city of tomorrow and cultural heritage'' efforts to 
inventory, conserve, and promote sustainable development of regional 
heritage resources.\1\ The Intereg Program, which has funded many 
heritage area projects, is providing about $270 million per year (2000-
2004) for regional economic and cultural development promoting regional 
identity, cultural awareness, and sustainability.\2\ The EU and the 
Council of Europe also support the European Heritage Network, an 
extensive database and information exchange on heritage projects, 
programs, funding, and best practice across the continent. Heritage 
areas have used these resources, in combination with national and local 
support, to plan for and develop heritage assets.
---------------------------------------------------------------------------
    \1\ ``Energy, Environment and Sustainable Development; Key Action: 
Cities of Tomorrow and Cultural Heritage.'' (Fifth Framework Program 
1998-2002). European Commission, 2002. 
http://www.cordis.lu/fp5/src/budget4.htm
    \2\ ``Interreg IIIC: Program''. European Union, 2004 http://
www.interreg3c.net/sixcms/list.php?page=home_en.htm
---------------------------------------------------------------------------
    The nature and extensiveness of heritage areas in Europe varies 
from country to country, as does the level of national support. 
However, important examples of Heritage area development can be found 
in almost every country. One interesting aspect of the movement is the 
growing number of heritage areas being created in Eastern Europe, where 
traditional settings and ways of life have survived amidst economic 
dislocation. In these places conservation of heritage and distinctive 
cultural landscapes is seen as essential in the transition to a market 
economy because it provides a vehicle for regeneration and sustainable 
development. Many of the individual heritage areas and several national 
programs that have been created in Europe are innovative and could 
inform the evolution of national heritage areas in the U.S. Some 
particularly relevant examples are discussed below.

                   BRITAIN: INDUSTRIAL HERITAGE AREAS

    England includes some of the earliest and most important historic 
sites related to the industrial revolution and has pioneered the 
creation of heritage areas to conserve and develop these resources. 
Heritage and conservation projects are locally driven and managed but 
benefit from generous national support made available through the 
Heritage Lottery Fund, which provided about $58 million for cultural 
landscape, townscape, and local heritage area projects in 2004 (out of 
a total income of over $500 million primarily earmarked for building 
preservation), and from English Heritage grants.\3\
---------------------------------------------------------------------------
    \3\ ``2004 Business Plan.'' Heritage Lottery Fund and the National 
Heritage Memorial Fund, 2004. http://www.hlf.org.uk/dimages/
Business_Plan_2004/BusinessPlan2004.pdf
---------------------------------------------------------------------------
    A pioneering example of a British heritage area is Ironbridge Gorge 
organized beginning in the late 1960's. It encompasses six square miles 
of territory along the River Severn in Shropshire where an 18th century 
landscape of early iron mines, foundries, and mills is conserved amidst 
functioning towns and contemporary development. The project is involves 
a consortium of local municipalities; the Severn Gorge Countryside 
Trust, and the private Ironbridge Gorge Museum Trust. The museum 
operates 10 landmark interpretive sites with an annual income of $11 
million. Since its founding, over $50 million in private donations 
coupled with support from English Heritage, the Heritage Lottery Fund 
and other sources have been used to preserve and interpret key sites 
and encourage conservation of the valley landscape.\4\ A more recent 
example is the Derwent Valley World Heritage Area, established in 2001, 
which includes historic mills, towns, canals, and landscape along 18 
miles of the Derwent River, where integrated textile manufacturing was 
first developed by Sr. William Arkwright beginning in 1769. The project 
is managed by the Derwent Valley Mills Partnership representing local 
governments, non-profit cultural and development agencies, English 
Heritage, and UNESCO. A Management Action Plan spells out specific 
funding and implementation responsibilities of the partners, who have 
agreed to ``conserve the unique and important cultural landscape of the 
Derwent Valley . . . to interpret and promote its assets; and to 
enhance its character, appearance and economic well-being in a 
sustainable manner.\5\ Approximately $2.1 million (2001) per year has 
been budgeted for studies and capital projects, derived from the 
Heritage Lottery Fund, English Heritage grants, and local government 
contributions.\6\ The partnership promotes conservation and economic 
development; it has no land use control but provides financial 
incentives to private owners to encourage re-use and incorporate 
interpretation within their sites.
---------------------------------------------------------------------------
    \4\ ``Management Plan: Ironbridge Gorge. Ironbridge Gorge World 
Heritage Site Strategy Group, 2000. http://www.telford.gov.uk/FreeTime/
LocalHistory/IronbridgeWHSManagementPlan.htm
    \5\ ``Management Plan: Derwent Valley Mills World Heritage Site.'' 
Derwent Valley Partnership, 2003. p. 2. http://www.derbyshire.gov.uk/
enviro/ENV1556.pdf
    \6\ Derwent Valley Mills Partnership, April 2003. p. 35.
---------------------------------------------------------------------------
                   FRANCE: REGIONAL ENVIRONMENT PARKS

    Since 1968, 42 nationally designated ``regional parks'' have been 
established in France to help conserve cultural landscapes combining 
scenic and heritage resources that illustrate aspects of French culture 
and that are now threatened either with rampant urbanization or loss of 
economic productiveness.\7\ These projects include urban and rural 
areas that range in size up from a few hundred up to a thousand square 
miles. While Regional Environment Parks receive federal designation and 
support, they are completely distinct from French National Parks that, 
as in the U.S., involve premier resources of high integrity on lands 
owned entirely by the government.
---------------------------------------------------------------------------
    \7\ ``Promoting and Preserving.'' Parcs naturels regionaux de 
France, 2004. 
http://www.parcs-naturels-regionaux.tm.fr/un_parc/index_en.html
---------------------------------------------------------------------------
    French Regional Environment Parks have many similarities to U.S. 
National Heritage Areas, and the French program illustrates some 
lessons that might be transferable to the U.S. The goals of the program 
are to: Conserve areas and themes of national importance; contribute to 
rational land use planning in these areas; promote the use of heritage 
and natural resources for economic social and cultural development; 
educate and inform public; and create a supportive network of projects 
and institutions. To achieve this at each park, the national government 
joins in partnership with local governments and the private sector in 
an ``innovative contractual process''. Proposed areas must undergo a 
planning process leading to a ``park charter'' that establishes goals, 
actions, implementation measures and responsibilities. Boundaries are 
negotiated by all the partners and must, along with the ``park 
charter'', be ratified by municipalities involved. Charters extend for 
a ten-year time frame, after which they must be reviewed and renewed. 
Once designated, the regional parks can use the official seal of the 
program, widely recognized in France, to promote environmental quality 
and heritage. Most parks are managed by local partnership organizations 
with a small permanent staff and many volunteers. The national 
government contributes up to $1.1 million per year to assist each 
project, matched by funds from local governments and private 
partners.\8\
---------------------------------------------------------------------------
    \8\ ``The Land: Operating Budget.'' Parcs naturels regionaux de 
France, 2004. 
http://www.parcs-naturels-regionaux.tm.fr/un_parc/priseenmain_en.html
---------------------------------------------------------------------------
    An example project is Vosges du Nord, covering an area of 476 sq. 
miles in Alsace-Loraine, the northwest corner of France, in which 
76,000 people live.\9\ The unusual sandstone landscape includes remains 
of early glassmaking and iron industries, distinctive regional 
architecture, and defensive fortifications dating from medieval times 
through the Maginot Line fortifications of the 1930's. Regional tour 
routes and recreational trails link urban and rural interpretive sites 
that convey the story of the region.
---------------------------------------------------------------------------
    \9\ ``Northern Vosges Regional Natural Park.'' Parcs naturels 
regionaux de France, 2004. 
http://www.parcs-naturels-regionaux.tm.fr/lesparcs/vonoa_en.html
---------------------------------------------------------------------------
                   SCANDINAVIA: ECO-MUSEUMS AND PARKS

    With a history dating back to the 1890's, eco-parks blossomed in 
Scandinavia in the 1970's as a movement to pull education and 
interpretation out of tradition museums and into the active landscape 
of cities, towns and settings that capture cultural heritage, sites, 
and stories of regional and national significance. They have been 
described as museums without walls or museums ``in situ'' (rather than 
museums in buildings), where local residents and groups are the 
curators who define, protect, enhance and explain the unique 
characteristics of their own area and way of life. Paralleling the 
American notion of Heritage Areas, they involve territories of 
differing sizes, sometimes disaggregated, bounded by the extent of a 
particular historical economic activity or regional culture.
    Eco-museums are typically managed by local non-profit groups with 
government assistance. They focus on conservation and educational 
programs and the re-use of heritage resources to attract tourism and 
compatible economic development. In many places they are seen as a 
means to maintain local and national identity and distinctiveness in 
the face of increasing European homogeneity. Such ``museums'' may 
acquire landmark buildings and sites to conserve them for educational 
purposes, exhibits, or visitor services, or to help preserve them 
through private re-use, however, eco-museums are not concerned with 
land use controls, zoning, or large-scale development, relying on 
incentives and educational programs to raise public consciousness about 
the special qualities of the territory and the values of conservation. 
Today there are over a dozen major projects of this type in 
Scandinavian countries and many more elsewhere in Europe, particularly 
the Netherlands, Germany, Italy and Portugal.\10\
---------------------------------------------------------------------------
    \10\ Maggi, Maurizio and Falletti, Vittorio. Ecomuseums in Europe: 
What they are and what they can be. Istituto Ricerche Economico-Sociali 
del Piemonte, June 2000. 
http://www.ecomusei.net/User/museologia/Libri/
rapporto%20in%20inglese.pdf
---------------------------------------------------------------------------
    A prime example of an eco-park is Ecomuseum Bergsladen in Sweden, 
encompassing the country's historic iron mining area, which declined in 
the last century. The project was initiated in the late 1980's with the 
mission to ``reinforce the sense of identity of the inhabitants, to 
exalt the characteristic aspect of the region, and to foster tourism 
development.'' It includes over 50 interpreted sites spread across 
seven municipalities, including mines, villages, furnaces, an oil 
refinery, and mills interlinked by a network of historic roads, rails, 
and canals all intertwined with the contemporary environment. The 
project is managed by a non-profit foundation established by the 
municipalities, with a small annual budget of about $200,000 funded by 
them and the national government of Sweden. Significantly, the 
foundation owns no property or collections; it provides planning, 
coordination, development assistance, conservation, and educational 
services through a network of over 1200 volunteers who work with local 
sites owned by private citizens, societies, and associations.\11\
---------------------------------------------------------------------------
    \11\ Istituto Ricerche Economico-Sociali del Piemonte, June 2000. 
p. 59.
---------------------------------------------------------------------------
                          GERMANY: EMSHER PARK

    There are many eco-museum type projects and regional heritage areas 
in west and east Germany, however, the premier example is Emscher Park, 
encompassing an area of the Ruhr Valley that was Germany's industrial 
heartland from the 19th century. Steel mills, coke smelters, coal 
mines, and chemical plants were abandoned in the 1970's, leaving a 
degraded physical environment and economic decline. The Emsher Park 
project was initiated in 1989 by the state of North Rhine-Westphalia to 
reclaim the natural ecology of the area while conserving and 
redeveloping its industrial heritage for new economic uses, recreation 
and culture. A non-profit corporation, IBA Emsher Park, was established 
to plan and coordinate a 10-year long initiative involving local 
municipalities, institutions, and private developers in over 100 
projects spread over an area of 800 square kilometers along the River 
Emsher.\12\ Included have been an integrated set of historic building 
re-use efforts combined with compatible new construction of research 
centers, restoration of watercourses and brownfield sites; creation of 
museums, cultural facilities, and public parks; and heritage education 
programs.
---------------------------------------------------------------------------
    \12\ Almaas, Ingerid Helsing. ``Regenerating the Ruhr: IBA Emscher 
Park project for the Regeneration of Germany's Ruhr Region,'' The 
Architectural Review. February, 1999. 
http://www.findarticles.com/cf_dls/m3575/1224_205/54172205/p1/
article.jhtml
---------------------------------------------------------------------------
    IBA Emsher Park develops no projects of its own and has no direct 
influence over local municipalities, developers or private property. 
Instead, it has encouraged joint ventures between local governments and 
private companies, and advocated for financing from private, state and 
federal government programs, and the European Union. By 1999, over $3 
billion in public and private funds had been channeled through IBA 
Emsher Park projects that have transformed the landscape and economic 
base of the region.\13\
---------------------------------------------------------------------------
    \13\ Christ, Wolfgang. ``RuhRegion vs. 7.0: From Kohlenpott via 
Emsherpark to Ruhrstadt.'' Regeneration Conference Southampton, April 
3, 2003. http://www.uni-weimar.de/architektur/staedtebaul/forschung/
aufsaetze/ruhrregion_vs7_en.htm
---------------------------------------------------------------------------
                    SPAIN: LLOBREGAT RIVER CORRIDOR

    Spain, too, has many regional heritage projects. One of the more 
innovative is along the Llobregat River Corridor, stretching 120 miles 
from the Pyrenees south to Barcelona and the Mediterranean. The 
Llobregat is known as the ``hardest working river in Europe.'' From the 
19th century it provided a source of power for industry, including 
textile mills that created the wealth of Barcelona, and a source of 
water and fertile soil that nourished its population. By the 1980's, 
the textile mills were abandoned and agricultural lands were threatened 
with pollution and urban encroachment. Nevertheless, the river 
landscape preserved an extraordinary record of industrial and social 
development including historic bridges, irrigation channels, dams, 
factories, textile communities, mines and railroads. These are now 
being conserved, interpreted and developed through an integrated series 
of local and regional initiatives. For example, the Museum of Science 
and Technology of Catalunya has developed several theme museums on 
textiles, railroads, coal mining, and other industries. Taking a page 
from American heritage areas, a new regional plan has organized the 
river corridor into a series of seven thematic areas and ``gateway'' 
interpretive sites. Regional public investments in infrastructure and 
interpretation are prioritized towards projects that help to implement 
the plan.
    Two of the theme areas have been organized into heritage areas, 
with support and funding from the regional and national (Catalan) 
governments. Parc Agrari del Baix Llobregat encompasses agricultural 
lands in the river delta, covering some 15 square miles bordered by the 
dense Barcelona metropolitan area, with a total population over 2.5 
million inhabitants. An authority representing over 1500 small 
agricultural concerns in the delta, 14 local municipalities, and the 
regional and Catalan governments, manages the park and provides 
funding. It is charged to conserve agricultural land, historic 
irrigation channels, haciendas and farming settlements; restore 
ecological balance; advocate for sensitive development; and establish 
educational institutions in the delta to research urban agriculture and 
economic development. Parc de les Colonies del Llobregat extends for 18 
miles along the river north of Barcelona, encompassing fifteen historic 
textile mill towns, or ``Colonies'', located with eight contemporary 
municipalities with a total population of about 12,000 people. It is 
managed by an autonomous Board of Trustees representing local 
municipalities and chaired by the regional government. The park is 
organized around a regional tour route linking key scenic and historic 
sites and museums operated by civic organizations. The park advocates 
for conservation and economic regeneration of the area though tourism 
and private re-use of historic infrastructure, working with private 
owners, banks, and government agencies.\14\
---------------------------------------------------------------------------
    \14\ Sabate, Joachim, et al., Designing the Llobregat Corridor. 
Universitat Politecnica de Catalunya and Massachusetts Institute of 
Technology, 2001.
---------------------------------------------------------------------------
                    HERITAGE AREAS IN ASIA AND CHINA

    Given the tremendous economic development now going on in Asia, it 
is worth noting that there has been a parallel development of heritage 
areas in Japan, Vietnam, and China. In China, these projects have been 
motivated in part by a national drive to inscribe sites on UNESCO's 
World Heritage List. Many of the 29 Chinese sites involve large areas 
and city-regions with emerging management partnerships.\15\ For 
example, six historic Yangtze River canal towns dating from the Ming 
Dynasty have joined in a single designation and are now cooperating to 
develop regional conservation and tourism development strategies. The 
port city of Ningbo has adopted a strategy of preservation, education, 
and economic development to conserve and re-use its historic urban 
fabric and countryside with a history dating back to medieval China. 
The project was initiated in the early 1990's following the decline of 
traditional shipping and distribution industries; it is managed by a 
partnership between the city, international agencies and universities 
using International Development Association and Chinese government 
funding. Some projects have been inspired by U.S. National Heritage 
Areas. For example, in Yunnan Province the I&M and Ohio and Erie Canals 
have provided the model for organizing a heritage area along the Tea 
Route and Southern Silk Road. Towns along the historic trade route are 
the most ethnically diverse in China and have adopted a partnership 
program to promote culture, conservation, sustainable development, and 
international tourism. Projects of these types are receiving increasing 
attention and support from the national government, with assistance 
from the World Bank and UNESCO.
---------------------------------------------------------------------------
    \15\ ``World Heritage Sites in China.'' Chinese National Tourist 
Office, 2002. 
http://www.tourismchina-ca.com/wheritage.html
---------------------------------------------------------------------------
    Question 2. Existing heritage areas are broadly defined and range 
in scope from relatively small to an entire state. Can you think of any 
way to define heritage areas based on urban planning criteria?
    Answer. The broad range of existing national heritage areas derives 
partially from their differing historical themes and landscapes, and 
partially from the lack of a coherent program to define what a national 
heritage area is or should encompass. In the absence of a program, 
national heritage areas have become whatever Congress chooses to 
designate. The resulting lack of consistency makes it difficult to 
determine how best to support and guide the planning and development of 
heritage areas in the short run, and in the long run, it could devalue 
the designation.
    From an urban planning perspective, the situation could be improved 
by a clearer set of written criteria for defining and bounding heritage 
areas, but this is only part of the need. Also needed is a process to 
apply the criteria that will ensure that the areas that are designated 
can be managed and sustained.
    With respect to criteria, there is now ample experience with 
heritage areas in the U.S. and other countries to make a clear list 
about what they should contain. The NSP already has a de facto set of 
criteria embedded in their specification for a feasibility/suitability 
study for National Heritage Areas (see Statements of Dennis Galvin on 
October 26, 1999 and de Teel Patterson on October 16, 2003 before the 
House Subcommittee on National Parks and Public Lands). However, the 
NPS criteria are rather general and basically silent on the issue of 
boundary. In the context of creating a National Heritage Area program, 
I would suggest two clarifications to the criteria:

    1. The presence of a narrative, or nationally important story, 
rather than general historical themes, should be a basis for 
designation. Thus, the Derwent Valley Mills World Heritage area, tells 
the story of the early development of British textile industry in 
Shropshire; the Lackawanna National Heritage Area captures the story of 
anthracite coal mining and miners in the hills of Pennsylvania, key to 
the development of major U.S. cities; Emsher Park is built on the 
narrative of German iron and steel-making in the Ruhr Valley. National 
importance might be measured by the continuing relevance of the story 
to American life.
    2. The heritage area boundary should focus on those sites, 
resources, routes and distinctive landscapes or settings that 
illustrate key elements of the story. This evidence may stretch over a 
rather large area--the Lackawanna Valley is 40 miles long, for 
example--or disaggregated areas, and a boundary would likely 
circumscribe contemporary development intertwined with the cultural 
landscape. In fact, present day features could be an important part of 
the story if they are a legacy of historical Industries, routes of 
movement, or ways of life. Not appropriate under this criterion would 
be to incorporate territories that are unrelated to the story, but 
which have been included to conform to political boundaries, spread the 
benefits of the project, or other reasons.

    An Advisory Panel (see testimony, March 30, 2004) could help to 
review the national importance of particular narratives and the 
appropriateness of the boundaries of proposed heritage areas. 
Incorporating representatives of existing heritage areas and scholars 
would help ensure the credibility of the panel.
    With respect to defining heritage areas that are sustainable and 
manageable, the French process of creating Regional environment parks 
offers a straightforward approach to designation and boundary 
definition that seems applicable in the U.S.:

    1. Proposed areas would undergo an inclusive planning/feasibility 
process, to define the storyline, goals, implementation actions and 
partners. Partners would typically include local municipalities, the 
NPS, a local management entity, and potentially other stakeholders. The 
partners must agree on the story and extent of the area.
    2. Partners including municipalities must signify their acceptance 
of the boundaries, plan, and individual financial or programmatic 
commitments to implement aspects of the project by ratifying a 
``heritage area compact''.
    3. A ratified compact and favorable review by the Advisory 
Committee would be a prerequisite for designation. Once designated, a 
heritage area could use the NPS logo, access technical assistance, and 
receive limited funds for planning and programs (no acquisition) as 
part of the federal commitment to the compact, presumably matched by 
local funds and support.
    4. The compact would extend for 10 years, after which it must be 
reviewed and renewed.

    This approach would allow local flexibility and is similar in many 
ways to what the NPS has advocated. However, it would more clearly 
define and to some degree standardize the federal role in the process 
while providing a set of checks and balances to help ensure that 
designated national projects are appropriate and sustainable.
                                 ______
                                 
        Responses of Barry Hill to Questions From Senator Thomas

    Question 1. In the course of your review, did you find any specific 
examples of private property being adversely affected by a heritage 
area?
    Answer. GAO found no examples of a heritage area directly 
affecting--positively or negatively--private property values or use. We 
asked officials at the 24 heritage areas, Park Service headquarters and 
regional staff working with these areas, and representatives of six 
national property rights groups to provide us examples and they could 
not. However, we believe that, as the number of heritage areas 
increases, the effects, if any, of the areas on private property need 
to be monitored carefully.
    Question 2. Do you see any limit in the number of potential 
heritage areas if criteria for designation are based on existing areas?
    Answer. Because there is no systematic process for identifying and 
designating heritage areas and the criteria the Park Service uses is 
broad and open to interpretation, it may be difficult to limit the 
number of future heritage areas, if the Congress wishes to do so. The 
Congress has designated a number of heritage areas (1) without complete 
studies of their qualifications, (2) without the Park Service's advice, 
or (3) against its advice. Using the current criteria, the Park Service 
has found that most sites it has evaluated would qualify as heritage 
areas.
    Question 3. What do you consider the most significant finding of 
the GAO review?
    Answer. GAO's most significant finding is that the Park Service 
lacks an effective process for ensuring that national heritage areas 
are accountable for their use of federal funds. In this regard, we 
found that the Park Service:

  <bullet> does not always review the areas' annual financial audit 
        reports, although the agency is ultimately the federal agency 
        responsible for heritage area projects that are financed with 
        federal funds;
  <bullet> has not yet developed clearly defined, consistent, and 
        systematic standards and processes for regional staff to use in 
        reviewing the adequacy of areas' management plans, although 
        these reviews are one of the Park Service's primary heritage 
        area responsibilities; and
  <bullet> has not yet developed results--oriented performance goals 
        and measures consistent with the requirements of the Government 
        Performance and Results Act--that would, help to ensure the 
        efficiency and effectiveness of its heritage area activities.

       Responses of Barry Hill to Questions From Senator Campbell

    Question 1. How many National Heritage Area proposals are under 
consideration at this moment?
    Answer. According to the Park Service, as of April 1, 2004, 8 bills 
had been introduced in the 108th Congress to study the eligibility of 6 
locations as national heritage areas and 29 bills had been introduced 
proposing the designation of 16 locations as national heritage areas.
    Question 2. What kind of notification will property owners receive 
if their land becomes incorporated as part of a heritage area?
    Answer. GAO did not specifically review how private property owners 
were notified when the existing heritage areas were designated. Because 
these areas are managed locally by a management entity, these entities 
would likely determine how property owners will be notified if their 
land becomes part of a heritage area in the future.
    Question 3. It seems to me that many national heritage areas 
express a local or regional rather than a national interest. Just as 
states have State Parks programs, many states, such as Colorado, have 
similarly successful heritage programs that are run on state and/or 
local levels. As well, it seems that the most successful heritage sites 
in the national program are those that are managed in conjunction with 
local community interests.
    Answer. (Statement--question follows: #4)
    Question 4. In light of these facts, are these programs something 
that might be better left to the states?
    Answer. GAO did not specifically review or evaluate alternative 
options for providing assistance to or managing heritage areas.
    Question 5. What exactly are the criteria by which a potential 
national heritage site is judged to have national interest above and 
beyond a more local or regional interest?
    Answer. GAO did not specifically review the basis on which the 
National Park Service makes its determinations as to the national 
importance of potential heritage areas. Our work indicates that, like 
the designation criteria overall, this determination is subjective and 
open to interpretation. The Park Service could better address this 
issue.
    Question 6. In your opinion, how much has this program impacted the 
funding levels for other Parks programs?
    Answer. GAO found that the Park Service regions that provide 
support to the national heritage areas receive no funding for these 
activities. Therefore, to assist the areas, the regions must divert 
resources from other areas. While it would appear that this could 
potentially affect other Park Service programs, GAO did not 
specifically address this issue in our work.
                                 ______
                                 
    Responses of August R. Carlino to Questions From Senator Thomas

    Question 1. Over 100 State heritage areas exist across the nation 
without federal funding or other federal involvement. Why is federal 
funding and other involvement necessary for the 24 existing National 
Heritage Areas?
    Answer. Federal funding and involvement is provided to the 24 NHAs 
because Congress has determined the historic, cultural, and natural 
resources of the NHA have national significance and, therefore, warrant 
federal funding and involvement. This is the fundamental and primary 
question that should be asked by the Congress for any region 
contemplating designation as a heritage area--is ``national'' 
designation necessary and warranted?
    With the National Heritage Area designation, Congress has separated 
these 24 NHAs from all other heritage areas in the nation and 
authorized assistance to the NHA in the form of annual National Park 
Service appropriations, and technical assistance. With the ``National 
Heritage Area'' designation, Congress has distinguished these 24 
heritage areas from other state or local heritage areas, just as 
Congress has done in distinguishing National Parks, National Historic 
Site, Monuments or other NIPS units from state parks or historic sites. 
However, if Congress adopts the proposed National Park Service approach 
of designating an NHA before the management plan is completed, it runs 
the risk of authorizing funding and assistance to a heritage area that 
may not meet the test of national significance. In addition, Congress 
will be making a determination and granting approval to an NHA before 
all of the planning work is completed. The completion of a management 
plan for an NHA is critical and necessary before the designation; 
without it, Congress has little information to consider on which to 
base its determination of whether or not the heritage area has national 
significance or even will be viable.
    Question 2. What is the role of the National Park Service in your 
Heritage Area?
    Answer. Over the years, the National Park Service has played a 
critical role as a supporting partner to Rivers of Steel. Early on 
during the feasibility and management planning phases, the NPS worked 
closely with the Steel Industry Heritage Corporation and the 
communities of Southwestern Pennsylvania, providing technical 
assistance for the plans. After designation, NPS continued to hold a 
``counsel'' role as an ex officio member of the Board of Directors of 
SIHC. In addition, NPS provides assistance on key preservation and 
recreational resource projects in the Rivers of Steel National Heritage 
Area. Finally, NPS oversees the cooperative agreements between SIHC and 
the agency. These documents are used to direct the appropriations to 
the projects in the Rivers of Steel National Heritage Area.
    Question 3. How does your management plan address land use or 
private property?
    Answer. The Rivers of Steel Management Action Plan does not address 
the issues of land use, zoning, or private property rights. During the 
feasibility study and management plan phases, more than 700 community 
meetings were held over a period of 7 years throughout Southwestern 
Pennsylvania. Never in that time was there any question raised by any 
citizen, property owner, local official or other organizational 
representative as to the effect that the designation of the National or 
State (Pennsylvania) Heritage Area would have on private property. The 
Rivers of Steel Management Plan acknowledges that land or property must 
be acquired through purchase or donation for certain heritage 
development actions to take place. Further, the Rivers of Steel 
Management Plan does not make any recommendations or suggestions for 
zoning changes for local governments to undertake.
    Question 4. Have you ever attempted to influence land use or zoning 
within the heritage area, and if so, what was the public's reaction?
    Answer. As I stated above, SIHC and Rivers of Steel has never 
involved itself in any local government discussion on general zoning or 
land use policies. We have, however, met with local governments to make 
requests for land uses for property that we own that needed certain 
conditional permitted uses for preservation or development to take 
place.
    Question 5. We have heard that National Heritage Areas are a great 
way to leverage Federal funds. In fact, I've heard that every Federal 
dollar is matched by 8.7 dollars from other sources. Why is the Federal 
dollar needed when the program is successful at garnering outside 
support?
    Answer. As I have stated in my testimony, the federal funding that 
comes from the Interior Appropriations is critical for the continued 
success of the National Heritage Areas. First, the Appropriations 
provides the seed investment for the NHAs to use to as advance funding 
to help leverage other forms of investment, whether from other federal 
sources, or from state and local governments or foundations or private 
sources. The first dollars pledged are often the most difficult money 
to raise for any project. After the seed investment is provided, other 
funding partners can be sought, often successfully, especially if the 
initial seed is from the principal partner, in this case the National 
Park Service.
    Second, NPS funds often have the greatest flexibility, simply 
because they were designed by Congress to meet the overall goals and 
projects defined in the National Heritage Area's management plan. The 
NHA can use these funds, therefore, for a wide variety of uses, as 
grant funding to communities, as bridge or gap funding for specific 
ongoing projects, to cover operating expenses, or for other purposes as 
permitted. Further, because the funds are used to implement the goals 
and objectives of the management plan, Congress should be careful not 
to appropriate funding to the proposed NHA prior to designation, as I 
explain in Question #1 above.
    Third, raising funds for any project becomes more difficult if the 
principle funding partner(s) would begin to withdraw or withhold 
funding. NPS funding provides a level of credibility to the NHA 
attempting to raise the additional money, and it provides a level of 
surety to the other funding partners that the Federal government is 
committed to the NHA. If the funding were not available, other partners 
could begin to withdraw their support from the NHA. Simply stated, it 
would be safe to conclude that the remarkable funding ratio of $8.70-
to-$1.00 as demonstrated to date by the NHAs would be far less without 
the NPS appropriations.
    I understand that Congress has very difficult budget considerations 
to make this year, and for many years to come, for many worthwhile 
projects and programs. I am surprised, quite honestly, that there seems 
to be questions raised as to the need for the NPS funds for NHAs based 
upon the funding track records, and match rations of the 24 National 
Heritage Areas. NHAs work very hard at guaranteeing the return on 
investment to the Congress, and to all of their funding partners in the 
heritage development projects they undertake. Therefore, given these 
tight budget times--or within any budget time--I believe Congress 
should be asking another, different question: ``If NHAs can so 
successfully match the investment made by Congress through the NPS 
Appropriations, why can't other recipients of federal funds do the 
same?'' It seems logical to me that the NHA funding ratios are the type 
that the Congress should be encouraging for all of its grants and 
appropriations, and not discouraging by saying that success in fund 
raising demonstrates that the project should not continue to be funded. 
The bar should be raised, not lowered, for the National Park Service 
and other Federal agencies to meet the successes of fund raising that 
the National Heritage Areas have demonstrated to date.
                                 ______
                                 
 Responses of Dr. Lisa Benton-Short to Questions From the Subcommittee 
                           on National Parks

    Question 1. I understand from your testimony that you have studied 
parks in or near urban areas. Does the heritage area concept resemble 
any other type of designation within the national park system?
    Answer. This is a very challenging question. The short answer is 
that I am not quite sure. As you know, there are many different 
categories of parks within the park system. In urban areas, these park 
unit categories can include historic parks, historic areas, historic 
sites, recreation are, and even on occasion military sites and military 
parks. I have found these different park categories somewhat confusing: 
it is not at all clear what the difference is between a national 
historic park and a national historic site. The nomenclature of the NPS 
makes it difficult to know how Heritage Areas might resemble other 
designations. I suspect that this would need to be considered on a case 
by case basis. For example, Rivers of Steel might feature some of the 
qualities of a historic area; while the Ohio & Erie Canal Corridor 
might more appropriately resemble recreational areas punctuated by 
occasional historic sites. The Tennessee Civil War Heritage Area, which 
covers nearly the entire state of Tennessee, resembles none of these 
NPS designations. Clearly, even the Heritage Areas Program contains a 
diversity of sites, some of which resemble existing NPS designations, 
some of which do not.
    Question 2. You mentioned that without a working definition and 
criteria, the process for designating and protecting important places 
could become compromised. What would you consider the two most 
important criteria and why?
    Answer. First, I think it would be important to establish some 
initial criteria through a committee process--perhaps the creation of a 
Heritage Area Criteria Committee comprised of designates from the DOI/
NPS, representatives of the existing heritage areas, a designate from 
your Subcommittee and perhaps a scholar or two (I would be happy to 
serve; I would also suggest the well-known geographer and historian Dr. 
David Lowenthal who has written extensively on heritage at the local, 
national and global scale). By including designates from existing 
heritage areas you may actually create a more rigorous set of criteria 
as there will be some incentive to maintain the ``special'' quality of 
the program, rather than seeing it diminished through over-designation.
    I would recommend that the committee consider how they might 
incorporate the following three criteria:

    1) National significance: this is harder to define, but easier to 
measure. Currently, the Park Service definition of national 
significance is ambiguous, although there is a general consensus that 
these are places that have made a significant contribution to national 
identity (not just local or regional). In reality, ``national 
significance'' is defined by an act of Congress (which of course means 
that this definition is subject to political forces and the tides of 
political change). However, it might be of use in this instance to 
thoughtfully consider ways to give intellectual weight to the concept 
of national significance. There exists some model for this in UNESCO's 
World Heritage Program, where they have a detailed list of both natural 
and cultural criteria for inclusion in the World Heritage Areas 
Program.
    One way to consider national significance is through measurement. 
If something is truly national in interest, one would expect that 
visitors would come from around the country. I would offer this 
suggestion: the first year any Heritage Area is funded, it be required 
to conduct weekly surveys gathering geographic data. This geographic 
data would include, for example, the zip-code or county or state of 
origin and it would preserve individual privacy while still providing 
geo-coded information). This information could then be mapped and 
analyzed and the Committee could determine if there exists truly 
national interest.
    2) A second criteria to consider is temporal/spatial. The Committee 
could key moments iii the evolution of American identity and the 
history of the country. Some of these would be broad temporal themes 
(e.g. colonial era, pre-Columbia era, Industrial era) or could also 
include more focused temporal themes (e.g. the ``Roaring Twenties'', 
the ``Great Depression'', ``Frontier Expansion'', ``Civil War''). 
Creating a list of historical themes would allow a committee to 
determine if the program is balanced in what it is representing as 
heritage; it could also been used to actively seek sites that reflect 
underrepresented moments in American history.
    In addition to these historical/temporal themes, I would strongly 
recommend including spatial/geographic themes so that the program 
eventually represents truly national heritage by including areas in 
both the East and West. It currently is highly imbalanced 
geographically, with many Western states not participating. Themes that 
would be spatial/geographic could include the range of cultural 
identities (e.g. ``Cajun'' or ``Pueblo Indian'' or ``Birthplace of the 
Automobile''). These geographic themes are really broad names for 
cultural landscapes, but the process of compiling them would be a 
useful and important exercise in creating a better defined National 
Heritage Areas Program.
    If a Committee were to establish these temporal and geographic 
themes as initial (to be revisited every 5 years or so), programs could 
apply based on how they fit either the temporal/spatial as well as 
nationally significant criteria. This would be in reverse of the 
process now, whereby they apply to the program based on what they 
consider to be significant heritage.
    3) A final criteria to consider is nomenclature. This is actually 
beyond the Heritage Area Programs and falls more broadly under the Park 
Service. There are a lot of park categories; I strongly believe the NPS 
could better define these categories, especially those that may overlap 
with Heritage Areas. For example: what is the difference between a 
historic park, a historic area, and a heritage area? The NPS needs to 
better clarify these meanings in order to make the Heritage Areas 
either unique entities, or part of the formal park system. For example, 
if a proposed heritage area meets most of the criteria for a national 
historic park, why not consider this designation first? If it merits 
something less than national park status, then this too is something 
that needs to be more thoughtfully incorporated into criteria and 
description of the Heritage Areas. Either way, the NPS is a crucial 
actor in the establishment of criteria, and to do so may benefit 
important definitions and criteria currently used by the wider NPS.

    Question 3. How many heritage areas do you think the nation can 
support without compromising the program ore making the designation 
meaningless?
    Answer. If the Heritage Area program developed well-defined 
criteria, I would hesitate to cap the number of heritage areas. This is 
because we have never set a limit to how many places could be 
considered for national park status; it could be contradictory to do so 
with the Heritage Area Program
    In addition, we are constantly re-discovering aspects of our 
history and culture that have been hidden or neglected, so I imagine 
there are the possibilities for many more than we realize.
    However, I think it prudent to consider a limit on the duration 
under which the program could be funded. There is nothing unusual about 
setting a time limit for federal funding, even of a national park unit. 
Congress required the Presidio of San Francisco, which is part of the 
Golden Gate National Recreation Area (GGNRA) of the National Park 
System, to achieve ``financial self-sustainability'' in 10 years (later 
extended to 15 years). The precedence exists if the political will can 
be mustered.
    The potential for financial self-sustainability is particularly 
possible for Heritage Area Programs, since they require a commitment 
from private partners to begin. If an area develops a good program, 
attracts a national and diverse visitorship, it should not require 
indefinite funding.
    Rather than limiting the program by numbers, I would limit the 
program by duration. Once a heritage area has received 10 years of 
federal funding, it could ``graduate'' to a special title that still 
confers NPS guidance and continued use of the NPS seal/shield, which I 
gather appears to be an important enticement for private investment.
    Question 4. Under the current concept of heritage areas, the NPS 
provides guidance to local management entities. but Heritage areas are 
not park units. Do you think it would he a good idea or a bad idea to 
make heritage area units of the National Park System?
    Answer. This is a difficult but important question.
    At this point, given the ill-defined nature of heritage areas, I 
would recommend against a formal status as an official unit of the NPS. 
The NPS logo and shield stand for something very special and unique and 
should not be awarded indiscriminately.
    However, should the Heritage Area Program establish better criteria 
(especially with regard to national significance, as this is a criteria 
that all national parks must meet) and financial accountability (as the 
GAO report calls for), it would be important to consider these for a 
formal designation within the park system.
    There would be, however, potential problems in generating yet 
another typology of national park units. Nomenclature is no small 
issue. As you read in my written testimony, new park categories have 
traditionally faced resistance and sometimes outright hostility by Park 
Service administrators who question whether these ``newcomers'' truly 
merit national park status. This is why I would not consider making 
Heritage Areas a formal part of the national park system until they 
have better defined and conceived of a) their own program and b) how 
they would fit within the national park system. A clear demonstration 
of their merit and significance would be essential for their acceptance 
as a formal designated part of the NPS.
    Question 5. Can you think of any way to define a heritage area 
based on demographics?
    Answer. Part of the work I do as a geographer is to analyze 
demographics, especially in the context of urban change, so I am 
familiar with the many ways demographics can be used to understand 
process or phenomenon. However, I have considered this carefully, and 
would not recommend using demographic variables as part of a definition 
of heritage because they would be problematic. For example, say you 
establish criteria for a heritage area designation stipulating that it 
must contain a minimum population threshold of 500,000 (reasoning that 
to sustain visitorship, an area must be proximate to a significant 
population and not too distant or remote). You could encounter problems 
with defending that number as ``arbitrary''--why not a million, or at 
the other extreme, why not 50,000 or 10,000? In addition, this might 
hamper the program's success in the Western states where population 
density is much lower than on the coasts.
    Or, consider a second example, if you establish criteria that 
requires demographic diversity--age, ethnicity, race--this would also 
create some uncomfortable problems because not all places are as 
demographically diverse as others. Yet this does not necessarily mean 
that they are not important cultural heritage areas. In addition, some 
heritage areas are celebrating a distant past, which may or may not 
coincide with the current demographic make up of the area.
    I believe that using demographics to help define heritage areas may 
create more problems and debates than it would help.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

            Statement of the American Farm Bureau Federation

    The American Farm Bureau Federation appreciates the opportunity to 
provide this statement for the hearing record. We commend the 
subcommittee for holding an oversight hearing on this issue.
    The National Heritage Area program administered within the National 
Park Service provides funding and technical assistance to local 
community-based efforts or conservation organizations to preserve areas 
that they deem to be of cultural or historic importance. The National 
Heritage Area program is neither authorized by legislation nor by 
regulation. National heritage areas, however, must be designated by 
Congress.
    Generally, national heritage areas support local efforts to 
preserve local sites that are important to the culture or history of 
the area and which have significance in a broader national context. 
Creation of such areas is supposed to be through broad-based community 
involvement and acceptance of the development of heritage areas. These 
areas are essentially a form of historical or cultural zoning, and are 
comprised primarily of privately owned property.
    The National Park Service provides funding and technical assistance 
to local entities to conduct feasibility studies necessary to seek 
congressional approval, and also provides funding for development and 
maintenance of the designated heritage area for a period of 10 or more 
years.
    National heritage areas can encompass large areas of land. For 
example, between the Tennessee Civil War National Heritage Area and the 
Blue Ridge National Heritage Area, the entire State of Tennessee is 
designated as a national heritage area. The Silos and Smokestacks 
National Heritage Area occupies approximately one quarter of the State 
of Iowa.
    We have a number of concerns with the way that the current National 
Heritage Area program is being administered.

1. The program adversely impacts the property rights of private 
        landowners.
    The biggest concern that we have with this program is that it 
unduly affects the private property rights of landowners within 
designated heritage areas. The purpose of heritage areas is to preserve 
particular cultural or historical values within a designated area. To 
be effective, that necessarily means private landowners within the 
designated area will be prohibited from using private property in ways 
inconsistent with the designation.
    For landowners who voluntarily elect to be bound by the terms and 
conditions of the designation, that does not present a problem. For 
others, the problem looms large.
    National designation as a heritage area may not result in direct 
federal land-use restrictions on private property. The program, 
however, enables and empowers state and local authorities to impose 
land-use restrictions consistent with the designation. The National 
Park Service fosters and contributes money and technical assistance to 
effectuate these local property restrictions. Without a national 
heritage program, these land-use restrictions would not exist.
    For example, the Yuma Crossing National Heritage Area designation 
statute provides that federal funds received under the act cannot be 
used to acquire an interest in real property. The next sentence of 
section 5(b) of that Act says: ``Nothing in this Act shall preclude any 
managing entity from using Federal funds from other sources for their 
permitted use.'' In other words, federal funds might be used to acquire 
private property either by condemnation or from a willing seller (the 
statute does not distinguish) if received from other sources.
    Receipt of federal funds also frees up other money received from 
non-federal sources to be acquired by eminent domain. With no statutory 
or regulatory safeguards for this program, there is no limit to how 
these programs can intrude on private property rights, and there is no 
accountability to the Park Service to ensure that private property 
rights are maintained.

2. There is no basis for the program in law or regulation.
    Equally troubling is the fact that this program is not authorized 
by law or by regulation. Congress has been given no opportunity to 
determine whether this program is something that Congress deems 
appropriate for the National Park Service. As mentioned above, this 
produces a lack of accountability at the federal government level that 
is disturbing.
    Any National Heritage Area Program must be authorized by Congress 
through legislation. Only then will the appropriate oversight and 
accountability be established.
    With no national authorization and direction, the program has 
failed to develop national criteria for designation and also failed to 
develop a national strategy for the program. As presently constituted, 
the Park Service assists local entities in developing national heritage 
areas that are important to those local areas. But because an area 
might be important to a local area does not mean that it has ``national 
significance'' to warrant designation as a national heritage area.
    Authorizing legislation should clearly define ``national 
significance'' so that appropriate direction and limitations can be 
provided for the program. There are clearly areas within the country 
where truly national events occurred. Revolutionary and Civil War sites 
come to mind. Should Congress decide to authorize this program, the 
authorized agency should develop criteria and a plan to determine what 
other local areas might fit in to this national mosaic in order to 
maintain a fabric of American history and lost cultures. But that does 
not mean inclusion of every locally important historical or cultural 
area. This criteria should be subject to public scrutiny.
    In addition, legislation is necessary in order to establish 
criteria on size and areas included within a designated area. While 
Tennessee has a large number of important sites, designation of the 
entire state as a national heritage area seems too much. It is 
important to restrict the size and impact of national heritage areas to 
only those areas absolutely necessary for the intended purposes.
    Legislation is also necessary in order to protect private property 
rights. Only private landowners who volunteer to be part of a heritage 
area should be included. Landowners who choose not to participate 
should not be included within the boundaries of a national heritage 
area, and should not otherwise suffer indirect adverse impacts on their 
private property. For example, a private landowner may opt out of a 
heritage area and be surrounded by property within the area. Management 
planning for the heritage area may indirectly prohibit that landowner 
from using that property in a way that is inconsistent with the 
heritage area. Legislation is necessary to ensure that such a result 
does not occur.
    Current heritage area legislation introduced in the House, H.R. 
280, contains a private property rights provision (section 510 of the 
bill) that is one of the best protective provisions we have seen. 
Nevertheless, it does not provide the desired level of protection.
    Many heritage areas are proposed in order to provide economic 
opportunities for the community or local areas as their main purpose. 
We do not believe that National Park Service funds should be spent for 
economic development purposes. Nor do we believe that the attendant 
restrictions on private property rights from designation should occur 
to enhance private economic gain. Authorizing legislation should 
clearly exclude areas proposed for private economic gain from national 
heritage areas.
    Any authorizing legislation should also specify the criteria to be 
used for designating or approving national heritage area designation. 
Current Park Service criteria are vague and general, and proposed sites 
are rarely rejected. Congress should require that as part of the 
national plan for heritage area designations, that specific criteria be 
developed and rigorously applied by the Park Service before proposals 
are made to Congress.
    The General Accounting Office (GAO) recently investigated the 
National Heritage Area Program and issued a report. The GAO found that 
heritage area criteria were too general and not consistently applied. 
In fact, it found that 10 of the 24 heritage areas were designated 
without any agency review at all. GAO also found that heritage area 
financial audit reports were not always reviewed by the agency, and the 
agency often failed to monitor and measure results of the heritage 
programs. Although the program is supposed to restrict funding to a 
certain time period, the agency often provides funding beyond the time 
limit for the area to become self-sustaining. The GAO report says: 
``Park Service officials said that the agency has not taken these 
actions because, without a program, it lacks adequate direction and 
funding.''
    Congressional authorization is therefore essential.
    Authorizing legislation should also consider other limitations and 
parameters for the national heritage area program. Such issues should 
be debated and decided in Congress, not in closed doors of some office 
in the National Park Service.

3. We have concerns whether or when National Park Service funds should 
        be used to underwrite local Heritage Areas.
    According to the GAO Report, the Park Service has spent more than 
$156 million on national heritage areas over the past five years. 
During that same time frame, the National Park System has been plagued 
by a large maintenance backlog of projects at National Parks needed to 
make the parks safe and presentable to the public. National Park 
funding has increased to address the backlog, but the consensus of 
opinion is that this is not enough. National Park officials have also 
been criticized in the press recently because of discussions that some 
parks may have to restrict hours of operation due to lack of funding.
    Against this backdrop, over $156 million has been spent on heritage 
areas. Careful scrutiny and serious consideration must be given to 
whether such expenditures on essentially local projects are warranted. 
Funds appropriated for the care of the National Park System should not 
be siphoned off to fund local projects that do not fall within any 
defined Park Service program.
    An added consideration is that many states have their own heritage 
programs, and designated heritage areas within their state. It is 
difficult to justify the expenditure of scarce federal money for 
essentially state and local projects. Without direction and without 
viable, consistent and enforceable designation criteria, the national 
heritage areas are really state or local heritage projects.
    Many of these projects are established for economic revitalization 
that results in private economic gain to local retailers or businesses. 
Park Service funding should not be spent to enhance private economic 
gain.
    Federal funding can only be justified after Congress has decided 
that it wants such a program by enacting authorizing legislation, and 
by defining what areas of ``national significance'' should be included.
    Thank you for the opportunity to present our views on this issue. 
We look forward to working with the subcommittee as it addresses this 
issue.
                                 ______
                                 
         Statement of Cheryl K. Chumley, American Policy Center

        NATIONAL HERITAGE AREAS: SHORTCOMINGS OF THE CRS REPORT

    On several fronts, a Congressional Research Service study on 
National Heritage Areas is misleading, misguided or outright mistaken--
the latter by omission, as report authors fail to point out the 
absurdities of a key and common phrase used to identify private lands 
for public oversight.
    Absent from the report to Congress is mention of the term 
``nationally significant,'' a most familiar means by which 
environmentalists and their non-government and political cohorts 
justify the taking of private properties. This is the exact term, for 
instance, that was used as grounds for recent House passage of the 
Highlands Conservation Act, a $100 million-plus piece of legislation 
that hurts private landowners by seeking public control of more than 
two million acres of property, ostensibly to protect the region's 
``water, forest, wildlife, recreational, agricultural and cultural 
resources.''
    This is also a term the National Park Service and various state and 
local entities have used since 1984 to ultimately declare 24 tracts of 
land encompassing 160,000 square miles as NHAs, needful of public 
oversight, preservation and management.
    The only problem is nobody knows for sure what national 
significance means. So one fundamental issue to decide is whether 
Congress still plans to use this term. If not, then whatever new phrase 
is developed to justify the declaration of a NHA, and subsequent public 
oversight of the affected private properties, needs strict definition.
    But if ``nationally significant'' remains the favored qualifier for 
declaring a NHA, the first order of business must be to outline the 
exact conditions under which a parcel of property can be found to 
affect the future well-being of the nation at-large to such a degree 
that the private landowner could not possibly maintain these conditions 
without oversight from public land and environmental entities.
    Is Congress planning to continue use of the ``nationally 
significant'' term, and if not, what will instead establish a NHA?
    This is the core of the debate with NHAs. This issue has gone 
unchallenged for far too long, resulting in the creation of 24 NHAs 
that--it could easily be argued--may not even be needed and leaving 
open the potential for further such illogical declarations. Without an 
indisputable means of determining, who's to say?
    Absent clear definition of what exactly constitutes national 
significance, cases could be made that parcels of property with birds' 
nests or carrot patches are indeed areas of importance to the country-
at-large in terms of wildlife and agriculture, and are therefore worthy 
of public management and oversight. This only sounds ridiculous; if the 
doors to private property encroachments weren't meant to be left open 
to interpretation and special interest whim, why would the definition 
of national significance be so loose in the first place?
    Unfortunately, CRS does not raise this crucial question--but it 
does point to another troubling facet of NHAs, one that by itself 
should be enough to halt in its tracks this decades-old method of 
placing private property under the control of public managers.
    ``There is no generic statute that establishes criteria for 
designating (National Heritage Areas) or provides standards for their 
funding and management,'' CRS finds.
    So the ludicrousness continues: It's admitted no defined method 
exists for creating and managing a NHA.
    In other words, National Heritage Areas can be declared by whatever 
means possible, because ``no generic statute exists,'' and most notably 
by assertion of ``national significance,'' which means whatever it 
means. What's next--declaration of a National Heritage Area depends 
upon what the definition of `is' is?
    With more than 30 measures pending in Congress seeking 
establishment of new NHAs, the importance of such definitions is 
heightened because private property rights--the most fundamental of all 
God-given and constitutional guarantees--are at the mercy of the 
interpretations of self-serving environmentalists who will use whatever 
means necessary to control gigantic swaths of land for wildlife rather 
than human use.
    So when CRS finds that ``heritage areas are not federally owned, 
and a designation generally is not intended to lead to federal 
acquisition of lands,'' those with concern for private property rights 
should see the red flag in use of the word ``generally.''
    This touted so-called benefit of NHAs is aimed at appeasing private 
property owners with either experience or knowledge of the heavy-handed 
tactics of federal land-greedy bureaucrats. The idea is that since NHAs 
are overseen by supposed friendly and gentle state, local and private 
entities, infringement from the federal government will not occur. But 
reality shows otherwise, as even CRS admits.
    ``In a few cases, Congress has authorized federal acquisition of 
land in heritage areas, CRS finds. ``For instance, Congress authorized 
creation of the Cane River Creole National Historical Park (in 
Louisiana) within the Cane River NHA.''
    This national park encompasses two separate areas within the NHA, 
42 acres and 18 acres, and is a prime example of why those who profess 
an utmost concern for private property rights should view with caution 
the loophole-ridden promises of heritage area advocates to keep the 
federal bureaus out of the property acquisition and management picture.
    Another reason for wariness is the proven fallacy of the National 
Park Service's purported role with MIAs.
    ``Heritage areas are among the types of areas that utilize aid from 
the National Park Service, but are not directly owned and managed by 
the agency,'' CRS says.
    The key word here is ``directly.''
    While it's true the NPS does not hold the ultimate jurisdiction 
over management of NHAs, this federal bureaucracy does provide 
``various types of assistance'' to the many non-government 
organizations, politicians and environmental groups who do oversee the 
areas, to include ``administrative, financial, policy, technical and 
public information,'' CRS finds. Is it really that difficult to 
comprehend that those who control the purse also control the strings?
    CRS also says that NHAs are generally created when Congress 
``designates a management entity, usually non-federal, to coordinate 
the work of the partners. The management entity typically develops and 
implements a plan for managing the NHA, in collaboration with other 
parties. Once approved by the Secretary of the Interior, the management 
plan essentially becomes the blueprint for managing the heritage 
area.''
    Why, if the nature of the NHA beast is to really keep property 
control in the hands of the states and locals, does the Secretary of 
Interior have to approve all land management plans? Coupled with the 
stated role of the NPS, and awareness of the ease with which these 
federal bureaucrats could, say, enter quid pro quo agreements with 
local officials, trading funding for stricter zoning and land-use laws, 
it's not difficult to see how any so-called benefit of NHAs to private 
landowners is actually a thinly disguised travesty.
    Think this couldn't happen? It already has, during creation of the 
Augusta Canal National Area in Georgia in 1994 when the NPS refused to 
approve local management plans until zoning laws were tightened.
    But that was 1994 and this is 2004, you say? A decade may have 
passed, but deceptive claims of concern for private land owners still 
prevail, and as proof one need only analyze a current NHA-related 
measure being waved in Congress as a sure-fire solution to this whole, 
oft-cumbersome, property protections debate.
    Of an estimated 30 pending congressional NHA bills, only one has 
passed the House, H.R. 280. Titled the National Aviation Heritage Area 
Act, this measure is being touted by NHA advocates for its inclusion of 
private property protections that supposedly guarantee no privately 
owned lands ``shall be preserved, conserved or promoted by the 
management plan for the heritage area until the owner receives written 
notification and gives written consent,'' CRS reports.
    H.R. 280 also theoretically gives landowners the right to remove 
their properties from consideration of NHA declaration ``upon written 
request'' and likewise requires ``that any land acquired for a 
historical site be done by donation.''
    The notion of land donor aside, which evokes comparisons with the 
falsely labeled ``willing seller'' who parts with property after facing 
horrendous pressure from environmentalists and self-serving government 
groups, the problem with these other property rights protections is 
they likely aren't worth the paper upon which they're written. That's 
because the NPS--the agency, remember, that is tasked as a catalyst for 
the planning and funding of NHA lands--has a history of violating these 
same listed provisions, as evidenced during an early 1990s scheme to 
declare landmarks in Maine.
    Then, the NPS broke its own agency policy of informing landowners 
in writing of any landmark declaration effort, and thereby deprived 
many of the chance to protest. Subsequent outrage was so intense that 
an investigation ensued and in 1992, the Interior Dept. concluded the 
NPS ``may have violated the property rights of over 2,800 private 
landowners'' in both Maine and across the nation because of its sloppy 
disregard for notifying owners when properties were targeted for 
landmark status, a Jan. 1992 edition of the Bangor Daily News reports.
    So how exactly will these private land protections in H.R. 280, 
held as a happy compromise between NHA advocates and landowners, 
guarantee that NPS will not commit these atrocities against property 
owners yet again?
    It doesn't--and if this is the best protections NHAs can offer the 
private land owner, perhaps it's time to abolish this bill, along with 
the other pending 29, and along with the entire spotty argument that 
heritage areas really reflect a true concern for property rights and 
are win-wins for environmentalists and those who own the lands 
environmentalists seek to control.


</pre></body></html>
